     Office of the Inspector General
         Department of Defense                                                                      Protect the Total Force
                   VISION STATEMENT
    One professional team strengthening the integrity, efficiency, and
    effectiveness of Department of Defense programs and operations.



                  MISSION STATEMENT
The Office of the Inspector General promotes integrity, accountability, and
improvement of the Department of Defense personnel, programs, and operations to
support the Department’s mission and to serve the public interest.                        Military	 	 	 	 Contractors	 	 	 	 Civilians
                           CORE VALUES
                                                                                          Report: Fraud, Waste, and Abuse
              Accountability • Integrity • Efficiency
                                                                                                      Department of Defense
                                        Goal 1    Improve the economy, efficiency,
                                                                                                     Inspector General Hotline
                                                  and effectiveness of Department of
                                                  Defense personnel, programs, and
                                                  operations.
                                                                                                                1-877-363-3348
                                        Goal 2    Eliminate fraud, waste, and abuse in
                                                  the programs and operations of the      DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                                  Department.
                                                                                                                 Send written complaints to:
                                                  Improve      the     efficiency   and
                                                                                                                      Defense Hotline
                                        Goal 3                                                                         The Pentagon
                                                  effectiveness of Inspector General
                                                  products, processes, and operations.                           Washington, DC 20301-1900
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




	      We are pleased to present the Department of Defense Inspector General (DoD IG)
Semiannual Report to the Congress for October 1, 2006 to March 31, 2007. This report
summarizes our significant activities and our recommendations to help the Department
improve its programs and operations.

	       Our most notable audit and investigative work is summarized on the statisical
highlights page. Over the last six months, the DoD IG has issued 77 audits that identified
$589.8 million in achieved monetary benefits and $65.9 million on recommendations made
on funds put to better use. Investigative activities resulted in 190 indictments and 155
convictions, as well as returned $303.9 million to the U.S. Government.

	       The Department continues to face many challenges in the Global War on Terror
(GWOT). The DoD IG has identified priorities based on those challenges and established
the following goals: expand the DoD IG presence in Southwest Asia; increase coverage
of GWOT-related contracting, programs, and operations; and increase our support to the
Joint Terrorism Task Forces and Project Shield America activities. The first chapter of this
report provides examples of how we are pursuing those goals through audits, inspections
and investigations that focus on preventing and detecting fraud, waste and abuse that diverts
funds from supporting critical mission areas such as military readiness and the acquisition of
equipment and services.

   	    This Semiannual Report also includes chapters highlighting our oversight efforts
regarding Hurricane Katrina, Financial Management, and Acquisition Process and Contract
Management. Significant accomplishments of the IG, as well as DoD audit, investigative,
and inspection communities are based on management challenge areas identified by the
IG and are discussed in this report. The duties and roles of each DoD IG component are
highlighted in the final chapter. A separate classified annex discusses our intelligence-related
oversight.

	        We will continue to work with the Department and Congress to identify and address
significant issues. I look forward to my new responsibilities as the DoD Inspector General
and the opportunity to continue to serve this nation.




                                    Claude M. Kicklighter
                                      Inspector General
    Department of Defense
    Inspector General
    Statistical Highlights

         The following statistical data highlights Department of Defense Inspector General activities and
               accomplishments during the October 1, 2006 to March 31, 2007 reporting period.


Investigations
Total returned to the U.S. Government................................................................................................$303.9 Million
	
	       Seizures and Recoveries...............................................................................................................$1.7 Million
	       Civil Judgments..........................................................................................................................$170 Million
	       Criminal Judgments.................................................................................................................$119.9 Million
	       Administrative Judgments..........................................................................................................$12.4 Million
	
		
Investigative Cases
	       Indictments...............................................................................................................................................190		
	       Convictions...............................................................................................................................................155
	       Suspensions.................................................................................................................................................19
	       Debarments.................................................................................................................................................47


Audit
Audit Reports Issued................................................................................................................................................77

Monetary Benefits

	          Recommendations Made on Funds Put to Better Use................................................................$65.9 Million
	          Achieved Monetary Benefits (Funds Put to Better Use)............................................................$589.8 Million

Hotline Activities
Contacts.............................................................................................................................................................6,455

	          Cases Opened............................................................................................................................................837	
	          Cases Closed...........................................................................................................................................1,107



	         Includes investigations conducted jointly with other federal and Defense Criminal Investigative Organizations.
                      Table of Contents

chapter 1 — Global war on terror	                                                              1

chapter 2 — Hurricane Katrina								                                                         27

Chapter 3 — Financial Management							                                                       31

Chapter 4 — Acquisition Process and Contract management                                       39

chapter 5 —Significant Accomplishments                          					                         45
	 Joint Warfighting and Readiness									                                                     46
	Human Capital											                                                                      51	
	Information Security and Privacy									                                                     52
	 Financial Management										                                                               53	
	Acquisition Process and Contract Management							                                            53	
	Health Care												                                                                       54
	
Chapter 6 — oig components								                                                            59	
	Deputy Inspector General for Auditing						             	 	                                   60
	Deputy Inspector General for Investigations								                                           61	
	Deputy Inspector General for Intelligence								                                             64	
	Deputy Inspector General for Policy and Oversight							                                      65
	Office of Communications and Congressional Liaison 						                                     67

appendices
	Appendix A — Reports Issued by Central DoD Internal Audit Organizations		                     69	
	Appendix B — DoD OIG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits 78	
	Appendix C — Followup Activities								                                               	      79	
	Appendix D — Contract Audit Reports Issued							                                             81	
	Appendix E — Status of Action on Significant Post-Award Contract Audits				                   82	
	Appendix F — Status of OIG Reports More Than 12 Months Old With Final Action Pending	         83	
	Appendix G — Defense Criminal Investigative Organizations Statistics			                      106
	Acronyms                                                         			                         107
Department of Defense
Inspector General
Reporting Requirements


 IG Act                                                Reporting Requirements                                                     Page
References
Section 4(a)(2)    “review existing and proposed legislation and regulations...make recommendations...”                           67-68

Section 5(a)(1)    “description of significant problems, abuses, and deficiencies...”                                             45-58

Section 5(a)(2)    “description of recommendations for corrective action...with respect to significant problems, abuses,          45-58
                   and deficiencies...”
Section 5(a)(3)    “identification of each significant recommendation described in previous semiannual reports on which           60-61
                   corrective action has not been completed...”
Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution and convictions which            45-58
                   have resulted...”
Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” (instances where         N/A
                   information requested was refused or not provided,
Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report issued...” showing dollar value of   69-77,78
                   questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)    “a summary of each particularly significant report...”                                                         45-58

Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar value of questioned          79
                   costs...”
Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           79
                   that funds be put to better use by management...”
Section 5(a)(10)   “a summary of each audit report issued before the commencement of the reporting period for which no             79
                   management decision has been made by the end of reporting period...”
Section 5(a)(11)   “a description and explanation of the reasons for any significant revised management decision...”               N/A

Section 5(a)(12)   “information concerning any significant management decision with which the Inspector General is in              N/A
                   disagreement...”
Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial Management Improvement Act              N/A
                   of 1996...” (instances and reasons when an agency has not met target dates established in a remediation
                   plan)
Section 5(b)(2)    “statistical tables showing the total number of audit reports and the dollar value of disallowed costs...”      80

Section 5(b)(3)    “statistical tables showing the total number of audit reports and the dollar value of recommendations           80
                   that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)    “a statement with respect to audit reports on which management decisions have been made but final             83-105
                   action has not been taken, other than audit reports on which a management decision was made within
                   the preceding year...”
Section 8(f)(1)    “information concerning the number and types of contract audits...”                                             81
G
lobal War on Terror

                1
                        GWOT Goals
                               A look at the Global War on Terror goals of the
                               Department of Defense Inspector General
Global War on Terror




                       The DoD IG is committed to supporting the GWOT and
                       the needs of the men and women fighting this war. The
                       DoD IG has established the following goals:

                       Goal 1

                       Expand the DoD IG presence in Southwest Asia (SWA)
                       to work on priority issues directly supporting efforts
                       for Operation Enduring Freedom and Operation Iraqi
                       Freedom.

                       Goal 2

                       Increase coverage of DoD GWOT-related contracting,
                       programs, and operations, including issues such as healthcare
                       for the warfighter.

                       Goal 3

                       Increase support to the Joint Terrorism Task Forces and
                       increase Project Shield America activities.




                                                                                      Semiannual Report to Congress
                                                                                          DoD IG personnel arrive
                                                                                          in Southwest Asia




                                                                                                                    Global War on Terror


The DoD IG is supporting GWOT and the warfighter by conducting audits, inspections, and investigations that seek
to detect and prevent fraud, identify funds that can be used more effectively, and improve the management of DoD
programs.




Department of Defense Inspector General                                                                      
                       Expanding the DoD IG Presence
                               A look at increasing the oversight presence of the Department                            Goal 1
                               of Defense Inspector General in Southwest Asia
Global War on Terror




                       Increasing Southwest Asia Presence

                       To provide a more effective and efficient oversight role, the DoD IG continues to move forward in establishing key in-
                       theater presence. Key placement of DoD IG personnel will facilitate timely reviews and reporting of results in-theater
                       and minimize disruption to command.

                       The DoD IG has already established an audit field office in Qatar as an in-theater base of operations. The staff in the
                       Qatar office conducts audits as required in Iraq, Afghanistan, and Kuwait. Additionally, the DoD IG has a forward
                       deployed presence in Iraq and Kuwait, and is in the process of establishing a field office at Camp Victory, Baghdad.
                       The DoD IG is also in the process of initiating efforts to establish a forward deployed presence in Afghanistan.

                       Qatar Field Office

                       The DoD IG established a field office in Qatar collocated with U.S. Central Command Air Forces (CENTAF) on
                       Al Udeid Air Base, Qatar. The Qatar field office is staffed with up to eight auditors at a time, on a rotational basis,
                       serving tours of 4 to 6 months. The Qatar field office is responsible for performing audits and other reviews as required
                       throughout the CENTCOM area of responsibility. Auditors from the Qatar field office have traveled to Iraq and
                       Afghanistan to perform specific reviews, such as the Audit of Potable and Non-Potable Water in Iraq. Additionally,
                       Qatar field office auditors facilitate and may augment other teams that require temporary travel in theater to conduct
                       specific reviews.

                       Iraq – A Forward Deployed Presence

                       In coordination with the Commanding General, Multi-National Force-Iraq, the DoD IG is establishing a field office
                       at Camp Victory, Baghdad. Currently, the DoD IG has forward deployed 8 audit, inspection, and investigative
                       personnel in Baghdad, and has another 4 auditors in Iraq performing audits.

                       OTHER PLANNED SWA PRESENCE

                       To maintain a more effective and efficient oversight role in Afghanistan, the DoD IG is in the planning stages to
                       establish a forward deployed presence. Additionally, the Defense Criminal Investigative Service currently is collocated
                       with Army Criminal Investigation Command in Kuwait.

                                                                                                                  Semiannual Report to Congress
Increasing GWOT Oversight
         A look at increasing coverage of DoD GWOT-related contracting,                            Goal 2
         programs, and operations.




                                                                                                                              Global War on Terror
GWOT continues to be the top priority of the DoD IG and its four operational components (Audit, Investigations,
Policy and Oversight, and Intelligence) have 105 ongoing or completed projects; 29 in Audit, 65 in Investigations, 6
in Policy and Oversight, and 5 in Intelligence.

Those 105 projects provide oversight and probe in various functions and activities such as readiness, contracts, logistics,
contract fraud, theft, corruption, and intelligence efforts. DoD IG has completed or is conducting oversight efforts
that cover approximately $75 billion related to DoD GWOT efforts.


          Audits                  Investigations                  Inspections                  Intelligence
              29                            65                              6                             5

  DoD IG audit team in Qatar                                                               DoD IG audit team with Iraqi
                                                                                           security forces at Um Qasr




  General David Petraeus visits                                                              DoD IG team in Afghanistan
  DoD IG audit team in Iraq




Department of Defense Inspector General                                                                                   
                         Joint Terrorism Task Forces and
                         Project Shield America
                               A look at increasing support to the Joint Terrorism Task Forces
Global War on Terror




                               and Project Shield America activities.
                                                                                                                        Goal 3

                           Joint Terrorism Task Forces                                      Project Shield America




                       The Defense Criminal Investigative Service (DCIS)            DCIS continues to work in conjunction with other
                       continues to actively support Joint Terrorism Task Forces    Federal, state and local law enforcement agencies to
                       (JTTFs) throughout the country. DCIS currently staffs        protect our nation’s technology from falling into the
                       40 JTTFs on a full-time or part-time basis. A full-time      wrong hands. DCIS works in conjunction with the
                       DCIS representative is also assigned to the National         Department of Homeland Security’s Immigration and
                       Joint Terrorism Task Force located at the National           Customs Enforcement (ICE) on various industry outreach
                       Counterterrorism Center, McLean, VA.                         projects, such as ICE’s Project Shield America, to prevent
                                                                                    the illegal export of sensitive U.S. munitions and strategic
                       The mission of the JTTF is to organize Federal, state, and   technology to terrorists, criminal organizations, and
                       local law enforcement agencies in a coordinated manner       foreign adversaries.
                       for the purpose of detecting, preventing and responding
                       to domestic and international terrorist organizations        Through such outreach programs, DCIS, ICE, the U.S.
                       that may threaten U.S. citizens or interests. JTTFs also     Department of Commerce, the Defense Security Service,
                       address any threats or incidents involving Weapons of        and other law enforcement partners work in conjunction
                       Mass Destruction which could be utilized against the         with U.S. companies that manufacture, sell, or export
                       population or interests of the United States.                strategic technology and munitions to uncover potential
                                                                                    illegal activity. Project Shield America targets those who
                       Creation of JTTFs involves a costly investment of attempt to compromise U.S. security or interests by
                       personnel and equipment; however, this initiative realizes violating export laws, sanctions or embargoes.
                       qualitative benefits in the form of improvements to
                       interagency coordination and cooperation, sharing of DCIS also works in conjunction with ICE’s Arms and
                       intelligence and in obtaining arrests and convictions in Strategic Technology Investigations unit to combat the
                       counterterrorism investigations. DCIS will continue to trafficking in Weapons of Mass Destruction and their
                       support JTTFs in an effort to reduce the threat of terrorist components, as well as the trafficking in conventional
                       acts against Department of Defense interests.                weapons and controlled technology.




                                                                                                                  Semiannual Report to Congress
  GWOT Highlights


    The GWOT continues to be the top priority of the DoD
    IG. Meeting the challenges of combating terrorism and
    upholding our commitment to support the warfighter
    will continue to place stress on budgetary, manpower, and
    materiel resources for both the IG and the Department.

    Through mid-fiscal year 2007, Congress has appropriated
    more than $463 billion to DoD for the GWOT. Each
    dollar not prudently spent results in a dollar unavailable
    for GWOT priorities. Additionally, on February 26,
    2007, the DoD established a GWOT Cost of War
    Senior Steering Group that works across the Department
    to improve and standardize cost of war reporting. The
    DoD IG is an invited observer to the steering group
    meetings.

    The DoD IG is highlighting the following efforts made
    during this reporting period to support the GWOT:


    • Southwest Asia Leadership Visits

    • Southwest Asia Joint Planning
      Group

    • Congressional Testimony




Department of Defense Inspector General                          
                                                                Southwest Asia

                                                                                 Leadership Visits
Global War on Terror




                       Department of Defense Acting Inspector General Thomas F. Gimble traveled to Iraq and Qatar in November 2006,
                       where he visited with senior military leaders as well as with DoD IG personnel stationed there. This visit focused on
                       Iraq and Qatar to obtain more input from senior leaders to provide increased support for the GWOT.

                       Senior officials Mr. Gimble visited with while in Iraq included:
                       Amb. Daniel Speckhard, Deputy Chief of Mission, U.S. Embassy, Baghdad
                       Amb. Chase Untermeyer and Country Team, Qatar
                       Lt. Gen. Martin Dempsey, USA, Commander, Multi-National Security Transition-Iraq
                       Maj. Gen. Thomas Moore, USMC, Multi-National Forces-Iraq Chief of Staff
                       Maj. Gen. Kenneth Hunzeker, USA, Commander, Civilian Police Assistance Training Team
                       Maj. Gen. Timothy F. Ghormley, USMC, USCENTCOM Chief of Staff
                       Brig. Gen. Don Campbell, USA, Multi-National Corps-Iraq Chief of Staff
                       Brig. Gen. Tim Rush, USAF, Deputy Commander, Doha Asian Games Task Force
                       Brig. Gen. Charles Shugg, Commander, 379th Air Expeditionary Wing, Southwest Asia
                       Ms. Ginger Cruz, Deputy Inspector General, Special Inspector General for Iraq Reconstruction
                       Iraqi Inspectors General for the Ministry of Defense, the Ministry of the Interior and the Ministry of Public Health




                                                                                             Maj. Gen. Timothy F. Ghormley, USMC,
                               Amb. Chase Untermeyer, U.S. Embassy Qatar
                                                                                                  Chief of Staff, USCENTCOM




                              Maj. Gen. Thomas Moore, USMC, Chief of Staff,             Amb. Daniel Speckhard, Deputy Chief of Mission,
                                        Multi-National Forces-Iraq                               U.S. Embassy, Baghdad, Iraq


                                                                                                                Semiannual Report to Congress
                                          Southwest Asia

                                                         Joint Planning Group




                                                                                                                           Global War on Terror
The DoD IG is establishing a Joint Planning Group on oversight activities in the Southwest Asia region so that
oversight work by the Military Inspectors General and Auditors General, the Inspectors General of State and the
Agency for International Development, the Special Inspector General for Iraq Reconstruction and Relief, and the
Combatant Commands Inspectors General can better coordinate and deconflict oversight activities in the region.

It is our intent that this joint planning group will enhance supportive dialogue and minimize or eliminate operational
constraints in gaining access to the theater of operation, which may potentially delay delivery of results of high-level
interest.

To minimize the impact on forward command operations, deconflict overlapping and duplicative oversight requests,
and facilitate the exchange of oversight information in Iraq, the DoD IG also participates in the Iraq Inspectors
General Council chaired by the Special Inspector General for Iraq Reconstruction.




                                                                                         Special Inspector General for
                                                                                         Iraq Reconstruction (SIGIR)


Department of Defense Inspector General                                                                              
                                                  Oversight
                                                                 Congressional Testimony
Global War on Terror




                                                                                                         During this reporting period, the
                                                                                                         DoD IG has testified three times
                                                                                                         before Congress regarding its GWOT
                                                                                                         related oversight efforts. Specifically:

                                                                                                         • January 2007, before the House
                                                                                                         Armed       Services    Committee
                                                                                                         on “Approaches to Audit of
                                                                                                         Reconstruction and Support Activities
                                                                                                         in Iraq”

                                                                                                         • February 2007, before the Senate
                                                                                                         Armed Service Committee on “Office
                                                                                                         of Special Plans”

                                                                                                         • March 2007, before the Senate
                                                                                                         Committee on the Judiciary on
                                                                                                         “Combating War Profiteering: Are
                       March 20, 2007, Mr. Thomas F. Gimble, Acting Inspector General Department of      We Doing Enough to Investigate and
                       Defense testified before the Senate Judiciary Committee regarding combating war   Prosecute Contracting Fraud and
                       profiteering in Iraq.                                                             Abuse in Iraq.”




                       10                                                                                          Semiannual Report to Congress
                                                                the impact on the warfighter, we leverage our existing
           Inspector General                                    forward presence personnel to support other GWOT
                                                                related projects that require information from within the
                                                                region instead of deploying additional personnel. We


S     ince October 1, 2006, Department of Defense also leverage other oversight organizations to coordinate
      Inspector General (DoD IG) components increased oversight and to avoid duplicative efforts.
      their coverage of DoD Global War on Terror




                                                                                                                            Global War on Terror
(GWOT) related efforts. The DoD IG scope of oversight               Audit, Investigations, Policy and Oversight,
authority encompasses all DoD funded operations
                                                                    and Intelligence have 105 ongoing completed
and activities in Iraq and for the GWOT, which today
amount to approximately $463 billion in supplemental                oversight projects and investigations
appropriations. The DoD IG and its four components
(Audit, Investigations, Policy and Oversight, and To maintain a forward presence, the deployment and
Intelligence) have 105 ongoing or completed oversight redeployment of our personnel will continue to be a
projects and investigations: 29 in Audit, 65 in Investigations, critical issue warranting additional management attention
6 in Policy and Oversight, and 5 in Intelligence. Those and efforts.
105 actions provide oversight and probe various functions
and activities such as readiness, principled governance, Audit
capacity building, contracts, logistics, contract fraud,
corruption, theft, and intelligence efforts.                    The DoD IG completed 7 GWOT-related audits since
                                                                October 1, 2006, and has 22 ongoing GWOT related
                                                                audit projects as of March 31, 2007. The audits
                                                                address issues related to acquisition and contracting,
                                                                readiness, humanitarian and reconstruction relief, funds
                                                                management, equipping the warfighter, and information
                                                                operations. Of the 22 ongoing audit projects, 8 cover
                                                                about 567 Iraq-related contract/purchase requests, with a
                                                                total contract value of approximately $10.4 billion. The
                                                                remaining 14 audit projects pertain to other GWOT funds
                                                                used for Operation Iraqi Freedom (OIF) and Operation
                                                                Enduring Freedom (OEF), but may not involve specific
                                                                reviews of Iraq related contracts.
                DoD IG team in Afghanistan.
                                                             As of March 31, 2007, the DoD IG had 13 auditors
                                                             deployed in Qatar and Iraq. The Qatar field office,
The DoD IG continues to sustain an ongoing effort to         collocated with the United States Central Command
mentor, assist, and train the Iraqi Inspectors General       (CENTCOM) Forward and the Iraq field office, is
within various Iraq Ministries. The 65 ongoing GWOT-         responsible for performing audits and other reviews as
related investigations include projects in Iraq, Kuwait,     required throughout the CENTCOM area of responsibility
and Germany as well as in the continental United States      (AOR), which covers most of Southwest Asia.
(CONUS). The Defense Criminal Investigative Service
has representatives assigned to 40 Joint Terrorism Task Completed Audits
Forces.
                                                             The seven completed GWOT-related audit projects have
The DoD IG is committed to supporting the GWOT resulted in findings involving critical issues in readiness,
efforts and ensuring the effective use of resources to information operations, humanitarian and reconstruction
support U.S. Forces in Southwest Asia. To uphold our relief, and financial management. A brief overview of
commitment to support the warfighter, we have established each audit is listed as follows:
a forward presence in Qatar and Iraq to conduct and
facilitate necessary oversight functions. Further, to reduce

Department of Defense Inspector General                                                                            11
                       Implementation of the Commanders’ Emergency                      Equipment Status of Deployed Forces within the
                       Response Program in Afghanistan: The DoD IG                      U.S. Central Command: Based on responses from
                       determined that controls over the Commanders’                    approximately 1,100 service members deployed to Iraq
                       Emergency Response Program in Afghanistan were                   or Afghanistan, the DoD IG determined members
                       established; however, not all controls were effective.           experienced shortages of force-protection equipment,
                       Specifically, auditors found that most pay agents did            such as up-armored vehicles, electronic countermeasure
                       not have appropriate physical security for storing cash,         devices, crew-served weapons, and communications
                       and some pay agents inappropriately disbursed cash.              equipment.
Global War on Terror




                       Some of the projects reviewed by the DoD IG did not
                       fully achieve the intent of the program, and weaknesses          Acquisition of the Pacific Mobile Emergency Radio
                       in administrative processes led to inconsistent program          System (PACMERS): The DoD IG determined that the
                       implementation, unnecessary requirements, and                    PACMERS program office improperly used potentially
                       insufficient documentation.                                      $4.6 million of GWOT funds in development of the
                                                                                        system, and as a result, those funds were unavailable to
                                                                                        support the warfighter in Afghanistan or Southwest Asia.

                                                                                        The Army Small Arms Program That Relates to
                                                                                        Availability, Maintainability, and Reliability of the
                                                                                        Small Arms Support for the Warfighter: The DoD
                                                                                        IG reported that although forces deployed in support of
                                                                                        OIF were equipped with the correct amount and type of
                                                                                        small arms, they did so only after obtaining them from
                                                                                        other sources, such as nondeployed forces. As a result,
                                                                                        nondeployed forces face a potential shortage of small
                                                                                        arms that could affect their ability to train and maintain
                                                                                        equipment and personnel readiness at an acceptable
                                      DoD IG audit team at Um Qasr.                     level.

                       Management of the Iraq Security Forces Fund in                   Information Operations Activities in Southwest Asia:
                       Southwest Asia—Phase I: The DoD IG concluded                     The DoD IG concluded that Multi-National Force-Iraq and
                       that the Under Secretary of Defense (Comptroller)/Chief          Multi-National Corps-Iraq complied with applicable laws
                       Financial Officer and the Assistant Secretary of the Army        and regulations. The review also concluded that adequate
                       (Financial Management and Comptroller) properly                  acquisition, oversight, and disbursement documentation
                       distributed and transferred the $5.7 billion in compliance       for the related contract was not maintained, and therefore
                       with applicable appropriations law and the 14 provisions         did not allow us to conclude whether the contract was
                       of Public Law 109-13.                                            properly awarded.

                       Management of the Iraq Security Forces Fund in                   Ongoing Audits
                       Southwest Asia—Phase II: The DoD IG reviewed
                       the Multi-National Security Transition Command-Iraq              The 22 ongoing GWOT-related audit projects address
                       (MNSTC-I) use of $5.2 billion from an emergency                  critical readiness issues that directly impact the warfighter,
                       supplemental. The review examined randomly selected              such as personal and operational equipment readiness,
                       obligations, valued at $3.3 billion, made by the MNSTC-          potable and non-potable water quality concerns, the
                       I to provide equipment, supplies, services, training, facility   acquisition of medium tactical vehicle programs,
                       and infrastructure repair, renovation, and construction.         and resetting ground vehicles within the U.S. Army
                       The DoD IG determined that the obligations complied              commands. The DoD IG is also focused on the oversight
                       with the intent of Public Law 109--13.                           of funds and evaluation of internal controls relating to
                                                                                        cash disbursement for the Army, Navy, and Air Force



                       12                                                                                               Semiannual Report to Congress
general funds, as well as the diligent execution of FY 2006 DoD Training for U.S. Ground Forces Supporting
supplemental funds to equip and train the Afghanistan Operation Iraqi Freedom: The DoD IG is reviewing
security forces.                                            whether U.S. ground forces supporting OIF are receiving
                                                            training necessary to meet operational requirements.
The ongoing projects include a number of audits initiated Specifically, auditors will determine whether requirements
at Congress’ request after issues were brought to their reflect the training necessary in the area of operation
attention, such as concerns with the water quality for and verify whether the ground forces are receiving the




                                                                                                                           Global War on Terror
U.S. forces in Southwest Asia and the procurement required training. In addition, the auditors will evaluate
policies for armored vehicles. Additionally, the DoD IG whether the training is meeting the needs of ground forces
works with the military service audit agencies to leverage supporting OIF.
audit efforts and to ensure that projects are coordinated
to avoid duplication and minimize impact to command Supplemental Funds Used for Medical Support for the
operations. A brief overview of each audit is listed as GWOT: The DoD IG is evaluating whether supplemental
follows:                                                    funds for the medical mission were properly justified
                                                            and sufficient controls on their use were implemented
Management of the Iraq Security Forces Fund in as directed by DoD and military department guidelines.
Southwest Asia—Phase III: This is the final part of The DoD IG is initially focusing on the Defense Health
a three-phase review. The first phase addressed the Program portion of supplemental funding for the medical
distribution of funds. The second phase addressed the organizations that supported medical backfill and pre-
obligation of funds. The third phase addresses whether and post-deployment.
the goods and services purchased for Iraq security forces
were properly accounted for and whether the delivery of Procurement, Distribution, and Use of Body Armor in
goods and services were properly made to the Iraq security DoD: The DoD IG is conducting the audit in response
forces.                                                     to a congressional request. The DoD IG is reviewing
                                                            DoD procurement policies and practices for acquiring
                                                            body armor and the effectiveness of body armor acquired
                                                            and used in support of GWOT operations.

                                                               Hiring Practices of the Coalition Provisional Authority
                                                               in Iraq: The DoD IG is conducting the audit in response
                                                               to a congressional request. The DoD IG is evaluating the
                                                               hiring practices that DoD used to staff personnel to the
                                                               provisional authorities supporting the Iraqi government
                                                               from April 2003 to June 2004. Specifically, the auditors
                                                               are reviewing the process DoD used to assign personnel to
                                                               the Office of Reconstruction and Humanitarian Assistance
                                                               (ORHA) and the Coalition Provisional Authority (CPA)
  Meeting with ISFF-Phase III team before departure to Iraq.
                                                               in Iraq.

                                                          Inspection Process of the Army Reset Program for
Internal Controls Over Army General Fund, Cash Equipment for Units Returning from Operation Iraqi
and Other Monetary Assets Held Outside of the Freedom: The DoD IG is examining the Army Reset
Continental United States: The DoD IG is reviewing Program for equipment of units that return from OIF
whether internal controls for Army General Fund, Cash to determine the effectiveness of the inspection process.
and Other Monetary Assets held outside of the continental The scope of the project was expanded to include missiles,
United States are effectively designed and operating tracked vehicles, wheeled vehicles, communications, and
to adequately safeguard, account, and report Cash and small arms.
Other Monetary Assets.



Department of Defense Inspector General                                                                           13
                                                                                             funds were placed on contracts and used for
                       DoD IG auditing team in Iraq
                                                                                             purposes stipulated in the GWOT supplemental
                                                                                             funding approved by Congress.

                                                                                             Conditional Acceptance and Production of
                                                                                             Army Medium Tactical Vehicles in Support
                                                                                             of the Global War on Terror: The DoD IG
                                                                                             is evaluating whether the Army is adequately
Global War on Terror




                                                                                             protecting the Government’s interest when it
                                                                                             includes conditional acceptance provisions in
                                                                                             production contracts for the Family of Medium
                                                                                             Tactical Vehicle Program. In addition, the DoD
                                                                                             IG is evaluating whether management is cost-
                                                                                             effectively producing the Family of Medium
                                                                                             Tactical Vehicles as funded in support of the
                                                                                             GWOT.

                       U.S. Transportation Command Compliance with                           Procurement Policy for Armored Vehicles:
                       DoD Policy on the Use of Commercial Transport: The           The DoD IG is conducting the audit in response to a
                       DoD IG is conducting the audit in response to a Defense      congressional request. The DoD IG is reviewing DoD
                       Hotline allegation regarding the use of commercial sealift   procurement policies for armored vehicles. Specifically,
                       services. The DoD IG is reviewing whether the U.S.           the DoD IG is reviewing the procurement history for
                       Transportation Command is complying with DoD policy          armored vehicle contracts to Armor Holdings, Inc., and
                       on the use of commercial transport during wartime and        Force Protection, Inc., in support of GWOT.
                       whether those policies effectively provide optimal and
                       cost-effective logistics to the warfighter.               Internal Controls Over Out-Of-Country Payments:
                                                                                 The DoD IG is evaluating whether internal controls over
                       Potable and Non-Potable Water in Iraq: The DoD IG out-of-country payments supporting GWOT provide
                       is conducting the audit in response to a congressional reasonable assurance that payments are properly supported
                       request. The DoD IG is evaluating the contractor’s water and recorded.
                       quality testing processes for effectiveness and reviewing
                       whether internal controls enable safe, non-potable water
                                                                                     DoD IG is reviewing DoD procurement
                       to be provided to U.S. forces in Iraq. The DoD IG is also
                       reviewing whether the processes for providing potable and     policies for armored vehicles
                       non-potable water to U.S. forces are adequate.
                                                                                 DoD Support to the NATO International Security
                       Management of Pre-positioned Munitions: The DoD Assistance Force: The DoD IG is evaluating DoD
                       IG is evaluating management of pre-positioned munitions support to the NATO International Security Assistance
                       in the U.S. European Command and, specifically, the Force in Afghanistan. Specifically, auditors are reviewing
                       impact that the DoD transformation and the GWOT DoD support in areas that include, but are not limited to,
                       have had on the readiness of pre-positioned munitions.    training, communications, and interoperability.

                       DoD Use of Global War on Terror Supplemental                 Internal Controls Over Navy General Fund, Cash
                       Funding Provided for Procurement and Research,               and Other Monetary Assets Held Outside of the
                       Development, Test, and Evaluation: The DoD IG                Continental United States: The DoD IG is reviewing
                       is evaluating the adequacy of DoD financial controls         whether internal controls for Department of the Navy,
                       over use of GWOT supplemental funding provided               General Fund, Cash and Other Monetary Assets held
                       for procurement and research, development, test, and         outside of the continental United States are effectively
                       evaluation. The DoD IG is also evaluating whether            designed and operating to adequately safeguard, record,
                                                                                    account, and report Cash and other Monetary Assets.
                       14                                                                                        Semiannual Report to Congress
Internal Controls Over Air Force General Fund, Cash Investigations
and Other Monetary Assets: The DoD IG is reviewing
whether internal controls over Air Force General Fund                                       In      an     October 26,
Cash and Other Monetary Assets are effectively designed                                     2001 speech, President
and operating to adequately safeguard, account for, and                                     George W. Bush declared
report Cash and Other Monetary Assets.                                                      that,    “Countering      and
                                                                                            investigating        terrorist




                                                                                                                              Global War on Terror
Distribution of Funds and the Validity of Obligations                                       activity is the number
for the Management of the Afghanistan Security Forces                                       one priority for both law
Fund—Phase I: The DoD IG is reviewing whether the                                           enforcement and intelligence
distribution of the $1.9 billion from the Afghanistan                                       agencies.” Various Executive
Security Forces Fund was obligated in accordance with                                      Department policy decisions
the legislative intent and applicable appropriations law.      implemented by DoD, the U.S. Department of State, and
                                                               the U.S. Department of Commerce have also prioritized
Supply Chain Management of Clothing, Individual                efforts involving counter proliferation and reducing illicit
Equipment, Tools, and Administrative Supplies: The             transfer of DoD technology (especially nuclear, biological
DoD IG is evaluating the supply chain management of            and chemical weapons, and other Weapons of Mass
clothing and textile (Class II) items to determine whether     Destruction) to countries and subversive groups that
they were being efficiently and effectively obtained.          could potentially utilize DoD technology against our own
Specifically, the DoD IG is reviewing the requirements         forces.
determination, the acquisition of selected Class II items,
and supply responsiveness (whether soldiers receive Rapid
Fielding Initiative before they deploy).

Other On-Going Efforts

Research on DoD Contracting Issues Related to the
GWOT: The DoD IG is examining DoD GWOT funding
for contracts and issues surrounding those contracts. In
addition, the project will also include research of military
construction issues pertaining to the GWOT.

Research on DoD Contracts Awarded to Parsons
Corporation and its Subsidiaries: The DoD IG is
reviewing which DoD entities have contracted with              DCIS special agents conducting operations in Iraq.
Parsons Corporation, the scope of the work being
contracted, and the amount of funds under contract. The
information gathered during this research project may DCIS National Security Program
be used for selecting specific contracts to review more
thoroughly.                                               As the criminal investigative arm of the DoD IG, the
                                                          Defense Criminal Investigative Service (DCIS) continues
Antideficiency Act Investigation of the Operation and to “Protect America’s Warfighters” by conducting
Maintenance Appropriation Accounts 2142020 and investigations in support of crucial national defense
2152020: The DoD IG is conducting this audit at the priorities. DCIS investigates terrorist threats and other
request of the Army IG because of funding and contracting criminal activities that potentially impact our nation’s
actions associated with the construction of internment security, to include investigations involving illegal
facilities at Camp Bucca, Iraq. The DoD IG is reviewing diversion, transfer or movement of DoD-related strategic
whether an Antideficiency Act violation occurred in technologies, U.S. Munitions List items, and Weapons of
appropriation accounts 2142020 and 2152020.               Mass Destruction to proscribed groups and nations.


Department of Defense Inspector General                                                                              15
                       In concert with DCIS’ focus upon critical national security-    personnel, and indigenous and foreign contractor
                       related issues, the DCIS National Security Program was          personnel. In January 2004, an investigation was
                       established in February 2003 to provide oversight of DCIS’      initiated on information from the Defense Contract Audit
                       homeland security efforts and technology protection             Agency (DCAA) concerning allegations of kickbacks and
                       efforts. The primary goal of the National Security              gratuities solicited and/or received by Kellogg, Brown &
                       Program is to oversee investigations conducted by DCIS          Root (KBR) employees and KBR overcharging for food,
                       field elements, and to conduct liaison with Federal, state,     meals, and fuel.
                       and local agencies that share investigative jurisdiction over
Global War on Terror




                       these matters to promote interagency cooperation and the        Since the referral, a Federal investigative task force was
                       exchange of criminal intelligence.                              formed at Rock Island, Illinois, comprised of DCIS, the
                                                                                       U.S. Army Criminal Investigation Command (CID),
                       DCIS GWOT Investigations                                        the Federal Bureau of Investigation (FBI), the Internal
                                                                                       Revenue Service (IRS), and the Office of the U.S.
                       DCIS has been engaged in investigating DoD matters              Attorney for the Central District of Illinois. The task force
                       pertaining to the Iraqi theater, to include Kuwait since        continues to examine criminal allegations involving the
                       the start of the war. From May 2003 through October             execution of the U.S. Army’s Logistics Civil Augmentation
                       2004, DCIS had teams of two to three agents deployed to         Program (LOGCAP) III contracted by KBR. Some
                       Baghdad. In addition, from October 2004 to present, the         prosecutions have occurred and others are anticipated.
                       DCIS European office as well as multiple CONUS DCIS
                       offices have continued to investigate Iraq-related matters.     DCIS and the International
                       In September 2006, DCIS re-deployed four special agents         Contract Corruption Task Force
                       to the theater; two special agents are assigned to Iraq and
                       two special agents are assigned to Kuwait. Both offices         As a result of the magnitude of alleged criminal activity
                       are conducting criminal investigations pertaining to the        within the Iraqi theater, a group of Federal agencies has
                       Department.                                                     formalized their partnership to combine resources to
                                                                                       investigate and prosecute cases of contract fraud and
                        DCIS Investigations: Operation Enduring Freedom                public corruption related to U.S. government spending
                                  & Operation Iraqi Freedom                            in Iraq reconstruction. The participating agencies in the
                                                                                       International Contract Corruption Task Force (ICCTF)
                       Open Investigations                                65
                                                                                       are DCIS, CID, FBI, the Special Inspector General
                       DCIS Special Agents assigned to Southwest Asia     43           for Iraq Reconstruction, the Agency for International
                                                                                       Development Office of the Inspector General, and the
                       Investigations
                                                                                       Department of State Office of the Inspector General. The
                                                                          2            main goal of the ICCTF is to serve as a force multiplier
                            Special Agents in Iraq                        2            for all federal agencies engaged in investigating complex
                            Special Agents in Kuwait                                   matters in combat and austere outside Continental United
                                                                                       States (OCONUS) environments.
                       *As of March 31, 2007
                                                                               DCIS and the Joint Operations
                       DCIS seeks to protect America’s warfighters by assuring Center
                       the readiness of U.S. and coalition forces through
                       the vigorous investigation of alleged criminal activity.        The ICCTF has staffed and operates a Joint Operations
                       Investigations involve bribery, public corruption, anti-        Center (JOC).       The JOC is responsible for the
                       trust violations, false statements/false claims, defective or   deconfliction and dissemination of investigative
                       non-conforming products, terrorism, technology transfer,        information and providing analytic support to agencies
                       and other breaches of public trust that can adversely impact    responsible for investigating fraud matters with respect
                       programs and services with critical security applications.      to U.S. Government funding to GWOT. In addition,
                       The investigation of criminal activity in Iraq involves
                       members of the U.S. Armed Forces, U.S. contractor

                       16                                                                                             Semiannual Report to Congress
the JOC will allow DCIS special agents OCONUS to             JTTFs coordinate their efforts through the interagency
work in concert with prosecutors in CONUS to reduce          National Joint Terrorism Task Force (NJTTF), located at
travel time and expense, eliminate case overlap, find        the National Counterterrorism Center, McLean, Virginia.
prosecutorial jurisdiction, and provide valuable analytical  The NJTTF ensures that information and intelligence flows
case support.                                                freely among the local JTTFs. DCIS has a Headquarters
                                                             DCIS asset assigned to the NJTTF. DCIS fills a unique
DFAS-Rome                                                    role within these task forces, and oftentimes functions




                                                                                                                               Global War on Terror
                                                             as a “one stop” shop for JTTF representatives requiring
DCIS has initiated a project and committed resources to intelligence or assistance relating to the DoD. DCIS also
review documents associated with payments made by the benefits from its unique status as an independent agency
U.S. Army in Iraq. Payment records are currently stored within DoD. At present, DCIS has 40 special agents
at the Defense Finance & Accounting Service, Rome, New assigned to JTTFs throughout the country.
York (DFAS-Rome). The DCIS project is designed to
detect fraud involving payments made by the U.S. Army
to support the war effort in Iraq. This is expected to be a
long-term effort and DCIS is working with the FBI and
coordinating its activities with the U.S. Attorney’s Office,
Northern District of New York. The Deputy Inspector
General for Auditing is conducting a concurrent review
of the records. While this project is still in its beginning
stages, several questionable transactions have been
discovered and referred for further investigation.

DCIS JOINT TERRORISM TASK FORCE
PARTICIPATION

Critical to DCIS’ efforts in the national security arena are
                                                                        A DCIS special agent in Camp Victory, Iraq.
a cadre of DCIS special agents assigned to Federal Bureau
of Investigation-led Joint Terrorist Task Forces located
throughout the country. DCIS’ involvement in JTTFs
                                                                Intelligence
is necessary to DoD and the DoD Inspector General in
order to use all means and methods available to conduct
                                                                The DoD IG’s Office of the Deputy Inspector for
criminal investigations, conduct threat assessments,
                                                                Intelligence completed and is conducting several reviews
and have access to JTTF information relating to DoD
                                                                of high-profile issues related to the GWOT. A brief
operations, programs, and personnel.           DCIS agents
                                                                overview of each report is listed as follows:
assigned to JTTFs investigate DoD-related leads, gather
evidence, make arrests, provide security for DoD special
                                                                Completed Reports
events, conduct training, collect and share intelligence,
and respond to threats and incidents pertaining to DoD
                                                                Review of the Pre-Iraqi War Activities of the Office of
at a moment’s notice. DCIS agents assigned to JTTFs
                                                                the Under Secretary of Defense for Policy (formerly
ensure that issues which have the potential to impact
                                                                reported as Office of Special Plans): On February
the safety of DoD employees or may interfere with
                                                                9, 2007, the DoD IG published a report addressing
the operations or administration of DoD programs are
                                                                allegations that the personnel assigned to the Office of
adequately investigated. JTTFs throughout the country
                                                                Special Plans (OSP) conducted unauthorized, unlawful,
are considered the nation’s front line in battling terrorism,
                                                                or inappropriate intelligence activities. The review did not
and have been instrumental in breaking up terrorist cells
                                                                substantiate the allegation that personnel assigned to the
such as the “Portland Seven,” the “Lackawanna Six,” and
                                                                OSP conducted unauthorized, unlawful, or inappropriate
the Northern Virginia jihad.
                                                                intelligence activities. However, their actions were


Department of Defense Inspector General                                                                               17
                       inappropriate given that the intelligence assessments were    Planned Reports
                       intelligence products and did not clearly show the variance
                       with the consensus of the intelligence community.       Utilization and Training of Signals Intelligence
                                                                               Analysts for Counterterrorism Missions: The overall
                       Review of Congressional Concerns Regarding The objective will be to evaluate how well the National
                       Rendon Group: On March 6, 2007, DoD IG published a Security Agency is utilizing signals intelligence analysts
                       report addressing allegations that DoD hired The Rendon for counterterrorism missions. Specifically, the audit will
                       Group to deliberately create conditions that would assess the effectiveness and efficiency of signals intelligence
Global War on Terror




                       convince the American people and Congress that Iraq was analyst training, assignments and utilization.
                       an imminent threat. The review found no evidence to
                       support the allegations.                                Policy and Oversight
                       Ongoing Reports                                             The DoD IG’s Office of Policy and Oversight has played
                                                                                   a key role in ongoing efforts in Southwest Asia to develop
                       U.S. Government’s Relationship with the Iraqi National and promote the establishment of effective oversight and
                       Congress: The objective is to respond to direction from the security organizations in Afghanistan and Iraq. Some
                       House Appropriations Committee through the Office of of those projects have been conducted jointly with
                       the National Counterintelligence Executive to review the the Department of State (DoS) and the Department
                       U.S. Government’s Relationship with the Iraqi National of Justice and have provided critical assessments and
                       Congress. On June 12, 2006, the DoD IG published a detailed recommendations aimed at helping the fledgling
                       report on Phase One of the project. The report on Phase democracies in those countries to counter crime,
                       Two is expected to be published during the 3rd Quarter corruption, human rights abuses, and other threats to
                       of FY 2007.                                                 include terrorism. A brief overview of each project is
                                                                                   listed as follows:
                       Intelligence Support to U.S. Central Command and
                       U.S. Special Operations Command in Operation Support to Inspectors General of the Iraqi Security
                       Enduring Freedom and Operation Iraqi Freedom: The Forces: The DoD IG provides two full-time advisors to
                       DoD IG is performing an evaluation of the intelligence the Multi-National Security Transition Command-Iraq
                       support to CENTCOM and SOCOM in OEF and (MNSTC-I) Transition Team in Baghdad, which support
                       OIF. The overall objective is to evaluate the effectiveness the Inspectors General of the Iraqi Security Forces (ISF),
                       and efficiency of DoD intelligence collection support to which includes the Ministry of Defense (MoD), Joint
                       CENTCOM and SOCOM in OEF and OIF. Specifically, Headquarters (JHQ), and the Ministry of Interior (MoI).
                       the evaluation will examine the combatant command’s In addition to the DoD IG personnel, the transition
                       intelligence collection requirement system and the DoD teams have nine other inspector general advisors—a
                       intelligence collection community’s responsiveness to combination of military officers and contractors. The
                       CENTCOM and SOCOM requirements.                             transition teams are charged to assist the ISF ministries
                                                                                   build capacity and self-sustaining institutions.

                                                                                     During this reporting period, the DoD IG advisors
                                                                                     collaborated with the DoS Inspector General and
                                                                                     the SIGIR to assist the Iraqi IGs implement the IG
                                                                                     Campaign Plan. The current version of the plan includes
                                                                                     the establishment of the Joint Anti-Corruption Council
                                                                                     (JACC). Chaired by the Iraqi Prime Minister, the JACC
                                                                                     is organized to coordinate the efforts of the Iraqi anti-
                                                                                     corruption pillars, which include the Iraqi IG system, the
                                                                                     Commission on Public Integrity, the Board of Supreme
                                                                                     Audit, and the Central Court System.
                                         DoD IG auditors in Iraq.


                       18                                                                                          Semiannual Report to Congress
 The senior DoD IG advisor is assisting embassy officials        Follow-up Evaluation of the Department of State/
in the establishment of the Office of Accountability and         Department of Defense Interagency Assessment of Iraq
Transparency (OAT). The OAT will coordinate and                  Police Training Program Report: The implemented
integrate U.S. advisory, support and mentoring activities        recommendations are improving the overall quality
to help the Iraqi anti-corruption pillars. One of the goals of   of the program. For example, basic training courses
the OAT is to assist the Government of Iraq (GoI) establish      have been expanded and advanced training programs
a principled governance institution that would provide           institutionalized. Other improvements include transfer of




                                                                                                                                   Global War on Terror
training in anti-corruption and rule of law specialties. The     recruiting and vetting responsibilities to the MoI, improved
U.S. Government has pledged $7 million and the GoI has           administrative processes and procedures, selection policies
pledged $10 million toward the educational institution           for officer training, and implementation of a Readiness
and has created a project management team to implement           Reporting System. One of the shared recommendations
the initiative.                                                  requiring centralized administrative procedures and
                                                                 development of standard operating procedures has been
                                                                 implemented, while the second shared recommendation
     the MNSTC-I Training Team advisors                          is deferred until a new National Security Presidential
     conducted a three week training course for                  Directive replaces NSPD-36, “United States Government
     52 Iraqi military officers from all services                Operations in Iraq.”


Furthermore, the DoD IG advisors provided assistance in
the following areas:

• Assisted the Iraqi IGs in planning and conducting
inspections of the offices of IGs at 10 ministries. Those
inspections were used to assess the performance of their
respective IGs, staffs, and organizations.

• Coordinated initiatives to improve the management of
detainee issues including case adjudications, overcrowded
facilities, accommodating increase of detainees as a result
of surge operations, transfer of detainees from MoD to           Policy and Oversight team assesses Afghanistan Police Training.
Ministry of Justice facilities, and the creation of the Iraqi
Detainee Operations Committee.
                                                                 Department of State/Department of Defense
                                                                 Interagency Assessment of Afghanistan Police
• Supported the development of MoD’s JHQ IG                      Training: In November 2006, the DoS IG and DoD
organization. The JHQ Inspector General system has               IG published the results of a review of the United States
a military IG, and IGs for each of the three services as         Government (USG)-funded programs to train and
well as several of the Army divisions. Eventually, all Iraqi     equip the Afghanistan National Police. Issues addressed
Army divisions will have an IG function. In November             in the final report included: recruiting and vetting
2006, the MNSTC-I Training Team advisors conducted               programs, sustaining institutions and organizations,
a three week training course for 52 Iraqi military officers      roles and responsibilities, oversight and internal control
from all services. In March 2007, selected graduates from        mechanism, security challenges, interagency collaboration
that course helped conduct a subsequent training session         and cooperation indicators, and support contract. Of
for 44 Iraqi officers to help build an understanding of the      the 12 recommendations to improve the overall quality
role and functions of a military IG. In late summer 2007,        of the program, DoD is responsible for implementing 3
the U.S. Army IG School will host an intensive 3-week            recommendations and DoS is responsible for implementing
train-the-trainer session for the Iraqi IG instructors.          9 recommendations.



Department of Defense Inspector General                                                                                   19
                                                   DoD IG team working on the
                                                   Interagency Care Transition
                                                   Project
Global War on Terror




                       DoD/Department of Veterans Affairs (VA) Inspectors
                       General Interagency Care Transition Project: Requested
                       by the Under Secretary of Defense for Personnel and
                       Readiness, the DoD and VA IGs partnered together to
                       evaluate care transition laws, regulations, and policies
                       and will recommend process improvements to provide
                       effective, transparent, and expeditious access to health
                       care and other benefits when wounded service members
                       are identified for separation or retirement.

                       Interagency Department of Defense/Department of
                       State/Department of Justice Assessment of the Counter
                       Narcotics Program in Afghanistan: The interagency IG
                       assessment of the USG-funded counter narcotics program
                       in Afghanistan was announced in September 2006. The
                       team used the USG’s Five Pillar Strategy for the Afghan
                       Counter Narcotics Program as a framework for the
                       assessment and specifically examined the following areas:

                       • Conception, conduct, and management of the USG
                       funded counter narcotics program in Afghanistan.
                       • Organization, coordination, and direction of interagency
                       participation.
                       • Interaction with the Afghan government on counter
                       narcotics issues.
                       • Impact, effectiveness, and prospects of counter narcotics   Photos above show the following:
                       actions and programs.
                                                                                     1 A DCIS special agent in Iraq.
                                                                                     2 DoD IG team members working with
                       The Inspector General for the U.S. Agency for International   coalition forces in Afghanistan.
                       Development also provided collateral support for the          3 DoD IG team members travel to Southwest
                       evaluation. The final report is scheduled for release in      Asia aboard a C-130.
                       April 2007.

                       20                                                                                   Semiannual Report to Congress
                                                            Army Criminal Investigation
                     U.S. Army                              Command

                                                            The United States Army Criminal Investigation Command
                                                            (CID) provides critical felony criminal investigations,
                                                            actionable criminal intelligence, logistical security, and
                                                            protective services to a joint and expeditionary force




                                                                                                                         Global War on Terror
                                                            globally postured in direct support of the GWOT. CID
                                                            special agents are deployed around the world, assigned to
                                                            major units in the GWOT. Currently, 125 special agents
                                                            are deployed to Iraq and 8 to Afghanistan; 6 personal
                                                            security officers are embedded into OIF and OEF for
                                                            high risk personnel; 7 civilian Major Procurement Fraud
                                                            Unit special agents work on the Joint Major Fraud Task
                                                            Force in Iraq; and 3 military special agents work on the
                                                            Joint Improvised Explosive Device (IED) Detection Task
Army Audit Agency                                           Force.

During the 6-month reporting period, the Army Audit
Agency (AAA) published several reports. A brief overview
of two reports are listed as follows:
Medical Funding for the GWOT, U.S. Army Medical
Command: The three medical activities reviewed by
the AAA appropriately used GWOT funds with some
exceptions. The medical activities also properly recorded
and accounted for almost all transactions. About 86
percent of the $61.7 million in transactions reviewed
were valid and supported use of GWOT funds and about
97 percent were properly recorded. However, the medical
activities received reimbursements totaling about $8.5 Army CID special agents conduct security operations in Iraq.
million for GWOT expenditures that were not supported.
AAA identified valid GWOT obligations totaling about These CID special agents investigate detainee abuse;
$1.6 million that the activities charged to core funds. The investigate and interrogate suspected terrorists to gather
Medical Command took immediate corrective actions.          physical and testimonial evidence needed for successful
                                                            judicial prosecutions; investigate contract fraud and
Followup Audit of Generators: The AAA followup public corruption of Congressional interest; and provide
audit found that the project manager for Mobile Electric protective service for ambassadors, dignitaries of U.S.
Power implemented the recommended actions in the cabinet rank in forward deployed environments, foreign
prior report and accelerated funding for replacing older heads of defense, and in the highest terrorist threat
and obsolete generators with more energy efficient and environments, the Special Representative to the United
reliable generators. The accelerated funding during FYs Nations Secretary General in Iraq.
2004 through 2006 allowed the project manager to realize
approximately $186 million in monetary benefits—about          CID special agents are deployed around the
twice the amount estimated in their prior report. Further,
                                                               world, assigned to major units in the GWOT
the audit contributed to the Department of Army decision
to reduce generator funding in FYs 2008 through 2011
by about $157 million. That enabled the Department of CID also provides command and control leadership to
Army to fund higher priority needs related to GWOT.         the Criminal Investigation Task Force (CITF), a joint
                                                            enterprise composed of criminal investigators from the
                                                            Air Force Office of Special Investigations (AFOSI), the
Department of Defense Inspector General                                                                         21
                       Naval Criminal Investigative Service (NCIS), and the            or the sabotage of supplies during in transit movement
                       Army CID. That unit investigates terrorism by collecting        from force provider to war fighter in a combat theater of
                       evidence and developing prosecutable packets against            operation, those LOGSEC efforts draw on the vigilance
                       international terrorists held at Guantanamo Bay, Cuba.          of every CID military and civilian member. Increasing
                       CITF special agents in Iraq actively and aggressively support   and rapidly emerging asymmetric threats create a demand
                       the Central Criminal Court of Iraq by investigating and         to grow an elite force to cover the expanding number
                       supporting the resolution of international terrorist cases      of high risk personnel requiring a protective service
                       through prosecution in the Iraqi judicial system. To date,      entourage. Through the executive protection coverage,
Global War on Terror




                       their efforts have resulted in 195 successful prosecutions,     CID keeps DoD senior executives safe from assassination
                       including 16 death sentences and 60 life sentences.             attempts and kidnapping, and from becoming targets of
                                                                                       opportunity.
                       Joining with other federal law enforcement agencies, DoD
                       agencies, and the national intelligence community, CID
                       supports the FBI regional and national Joint Terrorism           U.S. Navy and Marine Corps
                       Task Forces in combating terrorism in CONUS by fusing
                       Army criminal intelligence with other all source processed
                       intelligence, thus presenting a better operating picture of
                       domestic terrorism. Their specific efforts are designed and
                       focused to eliminate, mitigate, or apply countermeasures
                       that serve to protect DoD people and other valuable
                       resources.

                       CID special agents help streamline information sharing
                       between national intelligence and law enforcement
                       agencies by contributing to the Antiterrorism Operations
                       and Intelligence Cell at the Army Operations Center; the
                       DoD Counterintelligence Field Activity; the National
                       Joint Terrorism Task Forces; and the Global Situation
                                                                                       Naval Audit Service
                       Awareness Facility, Office of the Secretary of Defense.
                       The CID provides Criminal Activity Threat Estimates
                                                                                       The Naval Audit Service (NAVAUDSVC) supports the
                       and Criminal Activity Threat Assessments to protect,
                                                                                       Department of the Navy (DoN) GWOT goals by auditing
                       defend and harden mission essential vulnerability areas
                                                                                       selected policies, procedures, and activities to ensure that
                       and human resources.
                                                                                       they achieve the stated objectives and maximize efficiencies.
                                                                                       The Naval Inspector General publishes a Department of
                       CID special agents renewed their emphasis on
                                                                                       the Navy Risk Assessment annually. The NAVAUDSVC
                       providing logistical security (LOGSEC) by focusing
                                                                                       includes in its audit plan topics based on the risks and
                       on the integrity of the logistics pipeline associated with
                                                                                       areas of vulnerability identified in the risk assessment with
                       deployments/redeployments and contingency operations.
                                                                                       respect to GWOT. The NAVAUDSVC is continuing a
                       Special emphasis is given to prevention, detection and
                                                                                       series of audits on anti-terrorism and force protection
                       investigation of criminal acts committed by either
                                                                                       as well as auditing intelligence-related contracting and
                       terrorists or criminal elements anytime from within
                                                                                       classified financial reporting.
                       the factory to use in the foxhole. Designed to prevent
                       supply diversion, theft, destruction, product substitution,
                                                                                       Naval Criminal Investigative
                                                               NCIS special agent in
                                                               Najaf, Iraq             Service

                                                                                       The Naval Criminal Investigative Service (NCIS) actively
                                                                                       supports the GWOT through a number of unique efforts.
                                                                                       Since January 2006, NCIS operates a forensic laboratory


                       22                                                                                             Semiannual Report to Congress
in Camp Fallujah, Iraq (LPL-CF), processing nearly             Thirty-six special agents provided criminal investigative
30,000 individual items and resulting in more than 300         support for the Marine Expeditionary Forces –
identifications of suspected insurgents and other persons      Iraq. Two additional special agents served as special
of interest. A dozen of those identifications resulted in      counterintelligence officers on Marine Expeditionary
criminal prosecution in the Central Criminal Court of          Forces staff.
Iraq. The LPL-CF plans to process 100,000 items this                                           NCIS special agents
calendar year.                                                                                 conducting operations in Iraq




                                                                                                                               Global War on Terror
Another unique program, the NCIS Law Enforcement
Information Exchange (LInX) program, continues
nationwide as a state of the art law enforcement
information sharing system between federal, state, and
local law enforcement agencies. In the October 2006
issue of Homeland Security Today, the FBI’s former
Deputy Director of Counterintelligence lauded LInX’s
effectiveness by stating, “LInX is a great example of a
successful model of an information system that addresses
the technical and governance issues plaguing information       Six special agents provided assistance with sensitive site
sharing. LInX-supplied data has been instrumental in           exploitations, collection of evidence, interrogations of
providing critical leads in homicides, burglaries, and drug    detainees and other counterintelligence related matters
trafficking cases. It should be replicated across the United   for the Navy Special Warfare program.
States.
                                                               Six special agents worked with agents from the FBI; the
NCIS supports efforts aimed at detecting, deterring and        Bureau of Alcohol, Tobacco, Firearms and Explosives;
disrupting terrorism against DoN personnel and assets          the Drug Enforcement Agency; Immigration and
worldwide. The Combating Terrorism Directorate                 Customs Enforcement; the Air Force Office of Special
brings a wide array of offensive and defensive capabilities    Investigations; and the U.S. Marine Corps (USMC), as
to the mission of combating terrorism. Offensively             part of the Interagency Investigations Team collecting
(counterterrorism), NCIS conducts investigations and           case facts and evidence on non-US high value suspects for
operations aimed at interdicting terrorist activities.         prosecution by the Central Criminal Court of Iraq.
Defensively (antiterrorism), NCIS supports key DoN
leaders with protective services and performs vulnerability     Twenty-seven special agents, six intelligence analysts, and
assessments of military installations and related facilities   two mobilized United States Navy Reserve intelligence
to include ports, airfields, and exercise areas to which       specialists supported the USMC Joint Prosecution
naval expeditionary forces deploy.                             and Exploitation Center –Iraq in conducting criminal
                                                               investigations and analyzing evidence on non-US suspects
Deployed around the globe, NCIS special agents support         for prosecution by the Central Criminal Court of Iraq.
counterterrorism efforts. A brief overview of efforts listed
as follows:                                              Twelve special agents including CI trained special agents,
                                                         polygraph examiners, and cyber forensics experts fulfilled
Thirty-four special agents including counterintelligence operational and strategic counterintelligence requirements
(CI) special agents, polygraph examiners and cyber and provided counterintelligence support to the unified
forensics experts supported the Multi-National Forces and specified commands in Afghanistan. An NCIS special
Strategic Counterintelligence Directorate – Iraq by agent currently fills the Operations Chief billet.
fulfilling operational and strategic counterintelligence
requirements and providing counterintelligence support Four NCIS polygraph examiners supported detention
to the unified and special commands. Additionally, an center interrogations, and other special missions to validate
NCIS special agent currently fills the operations chief operational and strategic counterintelligence requirements
position.                                                for CENTCOM and component commanders in
                                                         Afghanistan.

Department of Defense Inspector General                                                                               23
                       Ten special agents, deployed to Guantanamo Bay, Cuba,         During this period, the NCIS Cyber Division - Iraq
                       conducted detainee interviews and prepared trial reports      prepared for three separate major wrongful death cases
                       concerning the detainees’ involvement in war crimes           involving terabytes of media taken from suspects and
                       within the CENTCOM AOR.                                       witnesses, while the Afghanistan division refined its
                                                                                     closed forensics network for electronic media extraction
                       Nine special agents supported Coalition Forces Land           and analysis.
                       Component Command force protection missions in
                       Kuwait.                                             Marine Corps Criminal
Global War on Terror




                                                                                     Investigation Division
                       Three special agents and one mobilized USNR intelligence
                       officer provided manning for counterintelligence and force The United States Marine Corps Criminal Investigation
                       protection responsibilities within the area of responsibility Division (USMC CID) supports the Marine Corps
                       of the NCIS Resident agent in Kuwait.                         garrison and field commands in the GWOT. Through rapid
                                                                                     deployments, USMC CID responds to all investigative
                       Ten special agents support the Criminal Investigations requests and requirements not assumed by the NCIS
                       Task Force (CITF), Fort Belvoir, investigating war crimes and/or at the combat and garrison commander’s request.
                       within the CENTCOM AOR.                                       USMC CID provides investigative support, Sensitive Site
                                                                                     Exploitation training to operating forces, and prosecutorial
                       Ten special agents afloat performed aboard the following support to the Joint Prosecution and Exploitation Centers
                       Navy combatants: USS Enterprise, USS Iwo Jima, USS (JPEC) throughout the Iraqi theater.
                       Dwight D. Eisenhower, USS Boxer, USS Bon Homme
                       Richard, USS Mount Whitney, USS Kitty Hawk, USS
                       Blue Ridge, and USS John C. Stennis.                             USMC CID reviewed, prepared, and
                                                                                        forwarded detainee packages and evidence
                       The NCIS Protective Operations Department maintains              for prosecution/release of current detainees
                       14 personnel security details on DoN “High Risk” billets
                       worldwide. Additionally, the department assisted the U.S.
                       Army in providing protective services support for Office      In Iraq, during this reporting period, the USMC CID:
                       of the Secretary of Defense and Joint Chiefs of Staff
                       principals during 25 missions in 9 stateside locations and    • Deployed two teams of 10 agents in support of JPEC.
                       13 foreign countries. Additionally, tasked by the Defense     The initial team was instrumental in the initiation and
                       Foreign Liaison Office and the Navy Foreign Liaison           enhancement of the JPEC.
                       Office, the Department provided security for visiting
                       dignitaries from 10 foreign governments.                    • Reviewed, prepared, and forwarded detainee packages
                                                                                   and evidence for prosecution/release of current detainees
                       The NCIS Directorate of Intelligence, by monitoring in country.
                       classified threat streams relating to terrorism, issued 257
                       threat assessments directly to DoN deployed assets to • Devised and conducted training to operating forces on
                       assist in force protection planning; 4 reports regarding preserving, gathering, and documenting evidence.
                       locations where DoN assets have an operational interest;
                       and 69 daily threat summaries.                              • Prepared, forwarded, and executed high value target
                                                                                     packages in conjunction with other agencies.
                       The NCIS Polygraph Services Division conducted 3600
                       counterintelligence scope polygraph (CSP) examinations        Aside from CID detachment operations in Iraq, agents also
                       which have identified numerous serious security issues        deployed as individual augmentees to sister service units
                       and thwarted at least one recruitment attempt by a foreign    operating in Afghanistan in support of special operations.
                       intelligence service.                                         They also conducted protective service operations
                                                                                     worldwide in support of combatant commanders and
                                                                                     high risk events.

                       24                                                                                           Semiannual Report to Congress
                                                           and well-being of deployed personnel, and prevent the
                U.S. Air Force                             disruption or early termination of deployments.

                                                           Ongoing Audits in the AOR

                                                           U.S. Central Command Air Forces Area of Responsibility
                                                           Contract Management: The AFAA is assessing base




                                                                                                                         Global War on Terror
                                                           operating support contracts in the CENTAF AOR.
                                                           Specifically, the auditors will determine whether contracts
                                                           are updated in a timely manner, properly managed, and
                                                           necessary to complete mission requirements.

                                                           U.S. Central Command Air Forces Area of Responsibility
                                                           Ground Fuel Management: The AFAA is assessing Air
                                                           Force ground fuel management in the CENTAF AOR.
                                                           Specifically, auditors will determine whether AOR officials
                                                           properly account and bill for ground fuel.
Air Force Audit Agency
                                                           U.S. Central Command Air Forces Government
During the reporting period, the Air Force Audit Agency    Purchase Card Program: The AFAA is determining
(AFAA) completed one audit indirectly related to the       whether Air Force personnel effectively managed
GWOT and has seven ongoing GWOT-related audits             the government purchase card program in the AOR.
being conducted in the United States Central Command       Specifically, the AFAA will determine whether (a) financial
Air Forces (CENTAF) overseas AOR. Of those seven           management officials implemented adequate and effective
ongoing GWOT-related projects, four ongoing audits         government purchase card program internal controls, and
were requested by CENTAF officials. In addition, AFAA      (b) transactions were authorized, appropriate, and made
has three ongoing GWOT related audits, not conducted       in accordance with established criteria.
in the AOR.
                                                           U.S. Central Command Air Forces Cryptographic
Completed Audit not in the AOR                             and Secured Communications Equipment: The AFAA
                                                           is determining whether Air Force personnel effectively
Civilian Deployments: The AFAA disclosed that Air manage cryptographic and secured communication
Force personnel did not execute a viable emergency- equipment in the CENTAF AOR. Specifically, the
essential (E-E) civilian program to support unit AFAA will determine whether CENTAF AOR personnel
deployment taskings. Specifically, during Air and Space properly account for and control cryptographic and
Expeditionary Force Cycle 5, planners did not identify secured communication equipment.
more than 14,000 potentially eligible civilians to support
more than 29,000 related military deployment taskings Patient Movement Items (PMI) Program: The AFAA
reviewed. In addition, supervisors did not sufficiently is assessing whether medical officials properly manage the
indoctrinate or provide required medical screening for Patient Movement Items program. Specifically, auditors
84 percent of the E-E civilians at 24 locations reviewed. will determine whether medical officials properly account,
Auditors also identified at 8 of the locations reviewed track, and maintain patient movement items.
42 reservists with dual commitments of occupying E-E
positions and recallable reserve positions concurrently. Predator Asset Accountability and Maintenance:
Properly identifying, preparing, and assigning civilians The AFAA is determining whether Air Force personnel
to E-E positions could (a) reduce military personnel effectively manage the MQ-1 Predator Unmanned Aerial
deployment tempo between 20 and 22 percent and lower System. Specifically, auditors will determine whether
deployments in stressed career fields by as much as 17 Air Force personnel (a) properly maintain program asset
percent and (b) improve readiness, enhance the safety accountability, (b) timely accomplish and accurately


Department of Defense Inspector General                                                                         25
                       record maintenance actions, and (c) develop and maintain military operations in support of the GWOT. During
                       program unit type codes addressing current and projected this reporting period, in-garrison and deployed AFOSI
                       mission needs.                                              personnel completed numerous significant investigative
                                                                                   activities and operations which saved lives and vital
                       Prepositioned Mobility Bags: The AFAA is determining resources, while simultaneously working to maintain
                       whether Air Force personnel effectively manage the mobility the integrity, health, and readiness of military personnel
                       bag program. Specifically, auditors will determine whether worldwide. Those activities and operations included the
                       CENTAF personnel (a) properly account for and control assignment or deployment of 391 personnel to various
Global War on Terror




                       mobility bag inventories, and (b) effectively manage shelf positions located in the Gulf State Region. The vast
                       life items. Further, the AFAA will determine whether Air majority of those positions are dedicated to generating
                       Force personnel accurately computed requirements after real-time intelligence used by battlefield commanders
                       pre-positioning mobility bags in the CENTAF AOR.            to successfully execute all-service military operations
                                                                                   in support of OIF and OEF.                AFOSI personnel
                       Ongoing Audits not in the AOR                               participated   in a  variety  of exercises   and operations
                                                                                   such as New Horizons, Cope Tiger, Eastern Falcon,
                       Air National Guard Emergency Response Teams: The Rivet Joint, Terminal Fury and the Doha Asian Games.
                       AFAA is assessing whether Air National Guard officials
                       properly managed the Chemical, Biological, Radiological,
                                                                                                          An airman with the AFOSI
                       Nuclear, or high yield Explosive (CBRNE) Enhanced                                  conducting operations in Afghanistan
                       Response Force Package (CERFP) program. Specifically,
                       auditors will determine whether CERFP program
                       personnel requirements are valid, required training is
                       accomplished, and sufficient supplies and equipment are
                       identified and funded.

                       Readiness Training for Deployable Communication
                       Packages: The AFAA is determining whether the
                       Air Force effectively managed crew position training
                       and assignments for deployable network control
                       centers. Specifically, auditors will determine whether
                       communications squadron personnel received crew
                       position training for network control center deployments AFOSI personnel executed 3,199 source meets and
                       and assigned appropriate personnel to support network conducted 967 combat sorties; produced 1,716 intelligence
                       control center deployments.                               and threat reports; identified 2,206 insurgent, terrorist,
                                                                                 group and foreign intelligence threats; conducted 305
                       Follow-up Audit, Weapons of Mass Destruction protective service operations; and conducted 42 polygraph
                       Emergency Response Equipment: The AFAA is examinations in support of GWOT.
                       determining the effectiveness of management actions in
                       response to AFAA Report of Audit F2004-0008-FD3000, AFOSI has 22 agents assigned to the Criminal
                       Weapons of Mass Destruction Emergency Response Investigation Task Force (CITF), where they serve jointly
                       Equipment; September 7, 2004.                             with criminal investigators from the NCIS and Army
                                                                                 CID. Established in response to a Presidential military
                       Air Force Office of Special                               order, CITF is tasked with capturing and bringing to
                       Investigations                                            trial non-US citizen terrorists that were affiliated with Al
                                                                                 Qaeda. CITF has conducted more than 14,000 interviews
                       The Air Force Office of Special Investigations (AFOSI) of suspected terrorists, completed 63 combat crime scene
                       conducts complex felony-level investigations and provides exams, and obtained more than 200 convictions in Iraq
                       affected military commanders and agencies with vital before the Iraqi Central Criminal Court with resultant
                       intelligence needed to successfully conduct and sustain sentences ranging from death, life imprisonment, and/or
                                                                                 confinement from 6 months to 20 years.
                       26                                                                                         Semiannual Report to Congress
H   urricane Katrina

                   2
                    O
                             n August 29, 2005, Hurricane Katrina devastated     The IG community quickly established effective
                             the Gulf Coast states of Louisiana, Mississippi,    mechanisms to mobilize and coordinate audit and
                             Alabama, and Florida with Category IV winds         investigative resources in response to Hurricane Katrina.
                    and torrential rain. Over the next several months, Air       The DoD IG closely coordinated with other Inspectors
                    Force personnel rescued more than 5,500 people, airlifted    General through the President’s Council on Integrity and
                    more than 36,000 passengers and 11,000 tons of cargo,        Efficiency (PCIE) Homeland Security Roundtable on
                    and provided medical support to 31,000 victims. In           Hurricane Katrina and the Hurricane Katrina Fraud Task
                    accordance with the Stafford Act, the Federal Emergency      Force to ensure effective use of DoD resources in the relief
                    Management Agency (FEMA) requested Department of             and recovery efforts. This fiscal year the PCIE Homeland
                    Defense (DoD) support for security, medical assistance,      Security Roundtable on Hurricane Katrina became
                    evacuation, rescue operations, and other recovery tasks      the PCIE Homeland Security Disaster Relief Working
                    exceeding state capabilities. For reimbursable support       Group. The DoD IG continues to actively participate in
                    provided to FEMA, the Under Secretary of Defense             the Disaster Relief Working Group and subgroups under
                    (Comptroller) designated the Associate Deputy Assistant      that Working Group. The overall goal of the Disaster
                    Secretary of the Air Force, Financial Operations and         Relief Working Group is to continue to develop agency
                    Technology, as the DoD Financial Manager Katrina (FM         and program improvements and recommendations that
                    Katrina). In turn, FM Katrina established a financial        will result in improved Inspector General coverage of
Hurricane Katrina




                    working group representing all affected DoD organizations    disasters and will track the solutions that implement
                    to address and resolve funding issues as they occurred. As   those recommendations. The DoD IG is also actively
                    of January 2006, Air Force personnel spent more than         participating with representatives from other Inspectors
                    $27 million on FEMA-related reimbursable relief efforts.     General offices on various subgroups relating to Disaster
                                                                                 Acquisition, Duplicate Programs, and Disaster Audit
                      Keesler Air Force Base, Mississippi,
                      flood waters
                                                                                 Response Plan. In addition, the DoD IG participated in
                                                                                 the “Auditor’s Forum on Katrina Relief on the Mississippi
                                                                                 Gulf Coast” with other federal and state auditors which
                                                                                 focused on auditor response and responsibilities in Katrina
                                                                                 relief.

                                                                                 The DoD IG, the Army Audit Agency (AAA), the
                    By September 9, 2005, Congress passed legislation that       Naval Audit Service (NAVAUDSVC), the Air Force
                    provided more than $63 billion for disaster relief. DoD      Audit Agency (AFAA), the Defense Contract Audit
                    was initially appropriated $2.3 billion of the $63 billion   Agency (DCAA), and the Defense criminal investigative
                    for its Hurricane Katrina recovery efforts, emergency        organizations employed a cadre of more than 150 auditors,
                    repairs of storm damaged areas and flood control, and        investigators, and inspectors who provided immediate and
                    hurricane shore protection projects in the affected Gulf     professional oversight of DoD contracts and operations
                    States. In addition to that funding, DoD and the U.S.        related to Hurricane Katrina relief efforts. Within DoD,
                    Army Corps of Engineers received about $6 billion more       we leveraged resources by coordinating among the DoD
                    through FEMA Mission Assignments for Hurricane               IG, Service audit and investigative agencies, and other
                    Katrina. Subsequently, DoD and the U.S. Army Corps           federal agencies to avoid possible duplication of efforts
                    of Engineers were appropriated approximately $12.9           and to ensure broad coverage.
                    billion for additional recovery efforts to include flood
                    control and coastal emergency efforts. The total cost of     Audit
                    federal response and recovery efforts could reach as much
                    as $200 billion. The amount of money and the urgency         The DoD audit efforts cover the main contracting areas that
                    to make funds available as quickly as possible increase      the U.S. Army Corps of Engineers is primarily responsible
                    the opportunity for fraud, waste, and mismanagement.         for under the 2004 National Response Plan, namely the
                    The work of the Inspector General (IG) community was         Emergency Support Function No. 3 Public Works and
                    critical in minimizing the risk to taxpayers’ dollars.       Engineering. To further emphasize the importance of
                                                                                 Hurricane Katrina, the DoD audit community’s efforts
                                                                                 specifically covered high-risk areas such as funding,
                    28                                                                                          Semiannual Report to Congress
purchase cards, and contracts. To fulfill statutory oversight    Emergency Management Agency (FEMA). In addition,
responsibilities, DoD IG has performed or is performing          the AFAA has two ongoing projects that will determine if
audits related to Hurricane Katrina that cover:                  Air Force Personnel effectively managed $412 million in
                                                                 Hurricane Katrina supplemental funds and whether Air
• Contracts on ice delivery, the “Operation Blue Roof ”          Force Personnel implemented effective planning measures
Program, emergency water, subsistence, and construction          for future hurricanes.
capabilities.
• Expanded micro-purchase authority for purchase card            The DoD IG and the service audit agencies issued a total
transactions.                                                    of eight audit reports since the beginning of FY 2007.
• Effects on information technology resources in affected
areas.                                                           The DoD IG reported that a contractor was not always
• Accounting and oversight of obligations and expenditures       able to deliver emergency water within the terms of the
related to DoD Hurricane Katrina efforts.                        contract. The audit also identified approximately $8.2
• The use of DoD resources supporting recovery and relief        million in potential monetary benefits because payments
efforts.                                                         were made that were not properly documented.

By the end of FY 2006, the DoD IG had completed and              The DoD IG determined that, generally, contracts issued




                                                                                                                              Hurricane Katrina
issued final reports on four audits on contracts for ice         for the Army Corps of Engineers’ “Operation Blue Roof ”
(about $152.6 million reviewed) and water (about $135            project were awarded properly. Opportunities for small
million reviewed); expanded micro-purchase authority             business concerns existed but the contracts were awarded
for purchase card transactions (purchase card transactions       to larger businesses because of technical proficiency. The
valued at about $18.5 million reviewed); and financial           audit also identified some performance issues on the
management of Hurricane Katrina efforts at selected DoD          contracts.
Components (about $310.5 million in billings reviewed).
The DoD IG identified contract administration issues as a
                                                        The DoD IG review of the effects of Hurricane Katrina
result of the congressional requests and has initiated further
                                                        on the Defense Information Systems Agency continuity
audit work on the emergency water and ice delivery.     of operations and test facility showed that testing was
                                                        halted for about 3 weeks after the disaster began. Real-
The DoD IG is currently performing additional audit time logistics data were also lost for that time period. The
work on contracting issues related to emergency ice delays could have been mitigated with better continuity
delivery, “Operation Blue Roof,” and additional work in planning.
the financial management area. The DoD IG announced
an audit in January 2007 titled, “Audit of the Mission The DoD IG reported that one component in the disaster
Assignment Process during the Gulf Coast Hurricane area lost communication capabilities for a 24-hour period
Relief Efforts.” The DoD IG is reviewing the process causing delayed supply operations to Southeast Asia for
for receiving mission assignments, delegating mission 4 days. No major impact was evident from that delay.
assignments to the appropriate components, and the That function was transferred to other components, and
subsequent reconciliation of mission assignments.       internal controls were strengthened as a result of the
                                                        outage.
The AAA is performing an audit at the request of the
Assistant Secretary of the Army (Financial Management The DoD IG stated that U.S. NORTHCOM should
and Comptroller) on the Army fund accountability improve planning and coordination with DoD components
for Hurricane Katrina. The objective is to evaluate the and federal agencies in support of the National Response
Army’s processes and procedures to account for funds Plan including:
used to support Hurricane Katrina relief efforts and
whether the Army obtained proper reimbursement for • Planning and coordinating military support to civilian
the expenses incurred. As of 20 March 2006, the Army authorities.
received about $532.3 million from the DoD emergency • Developing a plan for using joint military forces.
supplemental appropriations and about $115.6 million • Standardizing communication architectures.
in reimbursable funding authority from the Federal • Training between DoD and federal agencies.

Department of Defense Inspector General                                                                              29
                    The AAA stated that before Hurricane Katrina, the          DCAA’s support to FEMA focused on FEMA’s four
                    Army Corps of Engineers did not have an acquisition        largest reconstruction contractors: Bechtel, CH2M Hill,
                    strategy in place to deal with a major disaster. The Corps Fluor Federal, and Shaw Environmental. The audit effort
                    awarded four post-Katrina debris removal contracts based   included forward pricing reviews, reviews of costs billed
                    on unclear requirements, which later drove the need to     under government contracts and pre-award accounting
                    renegotiate prices under unfavorable circumstances. The    system surveys, as well as support of Source Selection
                    Corps took steps to comply with the intent of public       Evaluation Boards. DCAA also provided direct support to
                    laws by establishing subcontracting goals for small        the Corps emergency response mission. DCAA provides
                    and disadvantaged businesses, and encouraging prime        professional advice on accounting and financial matters
                    contractors to subcontract with businesses in hurricane-   to assist in the negotiation, award, administration, re-
                    affected areas.                                            pricing, and settlement of contracts. DCAA was primarily
                                                                               involved in the Corps missions related to installation of
                    The NAVAUDSVC stated that opportunities existed to temporary roofing and debris removal (Debris Mission).
                    improve internal controls over accountability of hurricane
                    relief funds. Those improvements include creating standard Investigations
                    operating procedures and procedures for reconciling
                    supplementary funds; special codes for identifying and As of February 21, 2007, the Defense Criminal
Hurricane Katrina




                    communicating contingency funds; training personnel; Investigative Service (DCIS) has received 27 criminal
                    and developing effective procedures to record, distribute, allegations related to Hurricanes Katrina and Rita. DCIS
                    and report funds. Improvement opportunities existed agents have initiated ten investigations concerning bribery,
                    because commands did not have emergency standard kickbacks, false claims, and possible product substitution.
                    operating procedures and guidance was not issued until 3 One of the open investigations, previously reported,
                    weeks after the disaster began.                            resulted in judicial action.
                    Navy and Marine Corps activities in the Gulf Coast             As part of its continuing mission to combat fraud and
                    region sustained varying amounts of damage and mission         corruption, DCIS conducted 42 mission and fraud
                    degradation because of Hurricane Katrina. Internet access      awareness briefings at the U.S. Army Corps of Engineers
                    and communications failed and reconstitution of services       debris collection and Blue Roof distribution sites.
                    was slow. The audit objectives were to verify that: (1)        Government and contractor employees were informed of
                    information system restoration and data recovery efforts       potential fraud, bribery, and kickback schemes; advised
                    in the aftermath of Hurricanes Katrina and Rita were           that law enforcement officials monitor illegal activity; and
                    effective; and (2) internal controls were in place to ensure   provided a point of contact to report suspected fraud.
                    those efforts were executed in accordance with laws and
                    regulations and were adequate to prevent or promptly        In regard to the Hurricane Katrina Fraud Task Force
                    detect errors or irregularities. The audit revealed that 12 (HKFTF), DCIS attends bi-weekly meetings at the
                    of 14 commands that should have executed Continuity         Task Force Command Center to brief other task force
                    of Operations Plans had not prepared them as required       members on investigative efforts. DCIS also serves
                    by Defense and Department of the Navy guidance. As          as the liaison between law enforcement and the U.S.
                    a result, DON commands’ missions were detrimentally         Army Corps of Engineers. DCIS continues to monitor
                    affected.                                                   electronic contractual data and coordinates findings with
                                                                                the HKFTF. DCIS has five agents working Hurricane
                    The AFAA stated that overall, the Financial Manager- Katrina-Rita related investigations.
                    Katrina took substantial actions to establish and implement
                    adequate management controls over DoD FEMA funding. In summary, the attention given to Hurricane Katrina
                    Air Force personnel used funds for valid hurricane efforts. efforts by the DoD oversight community resulted in a
                    However, opportunities existed to improve future DoD much larger awareness of what constitutes fraud, resulted
                    and Air Force controls over funding relief efforts.         in improved procedures over contracting, and increased
                                                                                   the use of small and local contractors for future emergency
                    DCAA supported both FEMA and the Army Corps of                 response efforts.
                    Engineers in their Hurricane Katrina recovery efforts.
                    30                                                                                            Semiannual Report to Congress
F
inancial Management

              3
                       T
                               he DoD financial statements are the largest, most               • Instituting one DoD financial improvement plan with
                               complex, and most diverse financial statements                  tiered component plans and accountability.
                               in the world. The Department faces financial                    • Employing a collaborative management process.
                       management problems that are difficult, long-standing,                  • Using a prioritized, incremental approach.
                       pervasive, and deeply rooted in virtually all business                  • Integrating transformation programs in components.
                       operations throughout the DoD. Those problems hindered                  • Optimizing performance through standardized processes,
                       the Department’s ability to provide reliable, timely, and               controls, and systems.
                       useful financial and managerial data to support operating,              • Learning from each other’s approaches, challenges, and
                       budgeting, and policy decisions.                                        successes.

                       Audit                                                                   DoD is using this incremental approach to improve its
                                                                                               financial management processes with the ultimate goal of
                       In December 2005, the Department published the initial                  obtaining an unqualified audit opinion on its principal
                       version of its Financial Improvement and Audit Readiness                financial statements. In addition, the DoD Comptroller’s
                       (FIAR) Plan with the intent to provide an incremental                   Office has established business rules that focus efforts
                       approach to resolving its problems through the use of a                 on improving the underlying financial management for
                       single, comprehensive, and integrated plan to organize and              various line items. According to the business rules, once
                       efficiently manage financial management improvement.                    management identifies and corrects financial management
                                                                                               deficiencies then management conducts a validation to
                       DoD Financial Improvement and                                           determine whether the corrections have effectively resolved
                       Audit Readiness (FIAR) Plan                                             the problem. If the validation confirms that sufficient
                                                                                               improvement has been made to correct the deficiencies
                                                                                               then management asserts that the line item is ready for
                       The FIAR Plan identifies critical activities for improving
                                                                                               audit. Subsequently, the IG or an independent public
                       internal controls, resolving auditor identified weaknesses,
                                                                                               accounting firm will audit the line item to determine
                       optimizing fiscal stewardship, and achieving audit
                                                                                               whether it is materially correct. The five-phased process
                       readiness. It targets problems arising from such things
Financial Management




                                                                                               is outlined in the chart below.
                       as weak or nonexistent internal controls, incomplete and
                       inaccurate information, or systems that cannot properly
                       process data and                             The Five-Phased Approach
                       information.

                       Milestones           Discovery &               Validation               Management               Assessment              FS Audit
                       for     resolving    Correction                                         Assertion
                       problems and
                       achieving success    The discovery, correction, and validation work
                                                                                              The Service or           DoD IG provides          The DoD IG or
                                                                                              Agency tells the DoD     oversight of the
                       are established      is the responsibility of the DoD Component.
                                                                                              (Comptroller) they
                                                                                                                                                the independent
                                                                                                                       independent public       public accounting
                       and monitored        Prior to assertion, Service auditors, or
                                                                                              are ready for audit      accounting firm          firm contracted
                       so that decision     an independent public accounting firm
                                                                                              on a line item or        work to ensure           by the DoD IG
                                                                                              financial statement      assessment work will     will undertake a
                       makers        can    engaged by the DoD entity, should validate
                                                                                              and provides the DoD     lead to a favorable      financial statement
                                            that deficiencies in a line item or financial
                       explore a broader    statement that were identified in the discovery
                                                                                              (Comptroller) and        audit opinion; if not,   audit after successful
                                                                                              DoD IG auditors          work on the contract
                       range of options     phase have been corrected and the area is
                                                                                              with the management
                                                                                                                                                completion of an
                                            ready for audit.                                                           is stopped.              assessment, or
                       with       greater                                                     assertion package                                 granting of a waiver
                       confidence.                                                            describing reasons a     Once the assessment      to an assessment
                                                                                              line item or financial   work is completed        by the DoD
                       The         FIAR                                                       statement is ready for   without identifying      (Comptroller), in
                       Plan principles                                                        assessment.              material deficiencies,   conjunction with
                                                                                              The DoD                  an audit will be
                       include:                                                               (Comptroller)
                                                                                                                                                the DoD IG.
                                                                                                                       initiated.
                                                                                              determines if the
                                                                                              line item or financial
                                                                                              statement is ready for
                                                                                              assessment or audit.


                       32                                                                                                             Semiannual Report to Congress
The DoD IG Role in the FIAR Plan                            an independent public accounting (IPA) firm, to audit
                                                            the USACE financial statements as of September 30,
 The DoD IG has been and will continue to be involved 2006 and 2005.
throughout the entire financial improvement process. As
an advisor to the FIAR process, the DoD IG highlights The audit team provided oversight of the IPA and
areas of concern and provides realistic timeframes for maintained sole responsibility for issuing an opinion on
audits. By communicating audit results, the DoD IG the USACE FY 2006 financial statements. That project
assists DoD components in identifying control weaknesses represented the first Department of Defense stand
that need to be addressed in the components validation alone entity that had gone to audit. The DoD IG had
process.                                                    performed limited audit testing on the U.S. Army Corps
                                                            of Engineers financial statements for several years, always
To successfully complete financial statement audits, it is reporting a disclaimer of opinion.
important that auditors are able to assess the reliability
of the systems that produce financial data. The DoD IG In November 2006, the DoD IG issued a disclaimer of
provides advice and guidance about system requirements opinion on the USACE Principal Financial Statements
to financial statement audit teams and works with those because time constraints precluded the performance
teams in performing the systems portion of the audits. of sufficient audit work to complete the audit within
IG auditors also continue to work with the Office of the established timeframes and auditors were unable to
Secretary of Defense to devise a plan for a systematic determine whether material amounts on the financial
review of DoD financial systems that are material to the statements were fairly presented.
financial statements. As those systems are identified,
the DoD IG conducts compliance and control audits to Based on additional audit work since November, auditors
help the Components while they prepare their assertion identified a departure from generally accepted accounting
packages in support of a financial statement audit. Those principles and scope limitations related to supporting
compliance and control audits test general and application documentation for Property, Plant and Equipment
controls as well as compliance with laws and regulations. (PP&E) sample items that caused uncertainty with the




                                                                                                                           Financial Management
                                                            PP&E beginning balance. Until those issues are resolved
The DoD IG conducts a variety of other financial audit to the auditor’s satisfaction, the current disclaimer will
services in addition to financial statements and financial not be changed.
system audits. Through those audits, IG auditors
identify material issues that impact the quality of the Financial Systems Audits
Department’s financial reporting process and its ability to
record and report reliable, accurate, and timely financial The DoD IG reported that the Defense Information
information.                                                Systems Agency’s (DISA) Center for Computing Services,
                                                            which supports all unclassified systems for which DISA
Audit Work Completed During                                 manages the operating systems, made significant progress
This Reporting Period                                       in standardizing and documenting its controls.

The DoD IG completed audits of financial statements,         However, additional work is still needed to ensure that all
financial systems, and financial-related information         key internal controls are adequately designed and operate
during this reporting period. The results of that work are   effectively. Once the controls are operating effectively,
discussed in the sections below.                             auditors should be able to rely on the general controls
                                                             at DISA and concentrate on the application and user
Financial Statement Audits                                   controls that support the financial system being audited.

In April 2006; after the U.S. Army Corps of Engineers’       IG auditors also reported that the Defense Finance and
(USACE) December 2005 assertion that its financial           Accounting Service (DFAS) did not implement sufficient
statements were fairly presented and ready for audit; the    controls to ensure that adequate documentation supported
DoD IG contracted with PricewaterhouseCoopers, LLC,          the modernization decision for the Integrated Accounts


Department of Defense Inspector General                                                                           33
                       Payable System (IAPS). As a result, DFAS approved           $27 million when it closed the MPA appropriations for
                       the modernization for $759,000 based on unsupported         FYs 1997 through 2000. In addition, DFAS-IN did not
                       information. Standard procedures and controls for           collect about $3 million owed by Army soldiers related to
                       modernizations under $1 million would prevent DFAS          PCS advances made in FYs 2001 through 2004.
                       from approving procurements that are not adequately
                       supported and reviewed.                                     • Internal and physical controls over Army cash accounted
                                                                                   for in the Continental United States were inadequate to
                       Financial-Related Audits                                    ensure that cash transactions were recorded, accumulated,
                                                                                   and reported properly and that cash was adequately
                       Throughout the reporting period, the DOD IG has safeguarded.
                       conducted financial-related audits in the areas of internal
                       controls over business processes and cash, improper • DoD did not fully comply with the requirements of
                       payments, prompt payment, nonappropriated fund the Improper Payments Information Act of 2002, Public
                       instrumentalities, military pay appropriations, and Law 107-200, and subsequent Office of Management
                       Military Interdepartmental Purchase Requests (MIPRs). and Budget guidance. Although DoD received a score of
                       The following concerns were reported:                       “yellow” signaling mixed results for their implementation
                                                                                   of the provisions under the Improper Payments Act, an
                       • Government and contractor personnel did not properly item on the President’s Management Agenda, DoD took
                       perform         physical                                                                         steps to resolve some
                       inventory        counts                                                                          previously identified
                       during the execution                                                                             issues regarding the
                       of statistical sampling               DoD    IG  substantiated  a DoD   Hotline                  methodologies      and
                       plans to measure                    allegation that the DFAS Dayton Network                      processes used to
                       accuracy of dollar value             did not always pay invoices in accordance                   identify and report on
                       and supply records;                        with the Prompt Payment Act                           improper payments.
                       the        Distribution
Financial Management




                       Standard         System                                                                          • The DoD IG
                       contained inaccurate                                                                             substantiated a DoD
                       inventory information for individual storage locations;     Hotline  allegation that the  DFAS     Dayton Network did
                       depot personnel did not complete research of inventory not always pay invoices in accordance with the Prompt
                       discrepancies in a timely manner, retain adequate Payment Act. DFAS Dayton Network offices did not
                       supporting documentation, or use the proper error codes always use the proper payment information, including
                       to identify underlying causes; and accountable officers the receipt date and the proper payment terms that are
                       did not perform consistent or adequate quality checks of required by the Prompt Payment Act. As a result, the
                       completed inventory counts.                                 DFAS Dayton Network offices made $91,673 of interest
                                                                                   errors. The errors were related to interest lost when DFAS
                       • Effective internal controls were not in place to ensure Dayton Network made payments earlier than allowable
                       that DoD matched commercial payment requests to the by the Prompt Payment Act and when it overpaid or
                       corresponding obligation and that, once prevalidated, the underpaid contractors’ interest for late payments.
                       disbursement transaction correctly posted in the official
                       accounting records without manual intervention.             • The Army was not accounting for construction-in-
                                                                                   progress as an asset, but was expensing the costs instead.
                       • The Defense Finance and Accounting Service The Army and Marine Corps did not follow generally
                       Indianapolis (DFAS-IN) did not have effective controls accepted accounting principles for eliminating entry
                       in place to account for, research, and collect permanent transactions between headquarters and installations
                       change of station (PCS) travel advances paid from the or regions and among headquarters funds. For prior-
                       military personnel, Army (MPA) appropriation. The lack period adjustments (equity transactions), in some cases,
                       of effective processes and controls resulted in DFAS-IN the Reports properly disclosed the material adjustments
                       writing off travel advance accounts with a net balance of submitted to the Policy Office, but the Army, Navy, and


                       34                                                                                         Semiannual Report to Congress
Marine Corps were distorting their income statements by     reason, the DoD IG is encouraged that the Comptroller
charging current year operating expenses to equity.         continues to consider new approaches to assist in the
                                                            achievement of auditable financial statements. To better
• Air Force military members had been drawing Basic         utilize valuable resources, the Comptroller is considering
Allowance for Housing while residing in military family     a proposal to revise the current approach and instead
housing. As a result, the Air Force spent about $947,000    focus primarily on overall audit readiness rather than
on Basic Allowance for Housing for members who were         concentrating efforts on audits of specific line items.
not entitled to receive it.                                 The proposal also introduces more rigor into DoD
                                                            management’s validation process to better ensure that
• The Army did not have adequate internal controls over     validated line items are ready for audit. The line item
purchases from governmental sources. Specifically, Army     audit approach may also be revised under that proposal
internal controls did not ensure that outgoing MIPRs were   to use performance audits to test resolution of critical
properly initiated, prepared, executed, and monitored       issues such as key internal controls, alternative valuation
and that incoming MIPRs were properly accepted. The         techniques, and inadequate financial systems that might
Army could not ensure that the purchases were in the best   cause management to materially misstate the account
interest of the Government and properly monitored and       balances. While that new approach is being considered,
tracked. In addition, the Army had limited assurance that   the DoD IG continues its role as the auditor and overseer
Army organizations complied with federal laws and DoD       of financial statement audits for the Department and
regulations and conformed to federal appropriations law.    stands ready to assist the Department in fulfilling its
                                                            responsibility to provide accurate fiscal accountability
• The Navy did not have adequate internal controls over     and to sustain accurate financial reporting. Accurate
governmental purchases because the Navy did not follow      accounting and reporting is dependent on the integration
guidance. Additionally, the existing guidance from          of underlying financial systems and internal controls.
the Under Secretary of Defense (Comptroller)/Chief
Financial Officer were unclear. As a result, Navy violated Army Audit Agency
public law and did not comply with federal, DoD, and




                                                                                                                          Financial Management
Navy regulations.                                           When U.S. Army Installation Management Agency (now
                                                            known as U.S. Army Installation Management Command
• The National Geospatial-Intelligence Agency could or IMCOM) stood up in October 2002, it was tasked
not demonstrate that its use of MIPRs complied with with managing Army installations and providing base
DoD and other federal regulations governing interagency services and facilities to all activities and tenants on the
agreements. The lack of adequate internal controls and installation. However, several “special” Army installations
supporting documentation significantly increased the had base support services funded primarily from other
risk that 58 sampled MIPRs issued to acquire $180.8 than Operations and Maintenance, Army, funds. The
million in goods and services did not satisfy bona fide majority of those generally small, industrial-based special
needs, were not based on best value, and did not comply installations belonged to U.S. Army Materiel Command
with appropriation laws, and thus could have violated the (AMC), which retained command, control, personnel,
Antideficiency Act.                                         and funding. The Deputy Undersecretary of the Army
                                                            asked AAA to identify the organizational structure and
The Way Forward                                             funding for base support functions at AMC installations
                                                            and to evaluate the relationship of AMC installations
While the Department continues to be challenged by the with IMCOM. The organizational structure of AMC
complexity, number, and internal control weaknesses of installations generally focused on supporting AMC-
its financial systems, initiatives such as the FIAR plan specific missions and that the installations used a variety
and the Comptroller’s business rules focus the efforts of of funds (primarily the Army Working Capital Fund)
the Department to reach a common goal. However, as to finance base operations. AMC installations generally
with any successful plan, there needs to be the flexibility had smaller populations (and less military personnel
to consider new options and approaches to achieve the authorized traditional base operations services such as
financial management goals of the Department. For that family housing and morale, welfare, and recreation) than


Department of Defense Inspector General                                                                          35
                       traditional IMCOM installations. The AMC special            Air Force Accounting and Finance Office personnel
                       installations’ relationship to IMCOM was best defined in    developed and used a methodology that did not meet
                       those traditional IMCOM-funded areas. Also, the AMC         IPIA requirements to statistically estimate RTS erroneous
                       installations we visited were concerned that they might     payment amounts. Further, RTS payments were not
                       not be able to compete for funding with larger IMCOM        always accurately computed or properly supported. AFAA
                       installations and that IMCOM would not be as responsive     review of 334 travel payments revealed 65 (19 percent)
                       to their unique needs. A memorandum of agreement            had computation, lack of support, or lack of authorization
                       between one IMCOM region and a major subordinate            errors. Based on those results, AFAA statistically projected
                       command under AMC was approved on September 22,             the FY 2005 erroneous payment amount to be at least
                       2006 and addressed some of those relationship issues.       $25.3 million. In addition, 76 of 334 (23 percent) travel
                                                                                   payments reviewed were not properly supported with
                       AAA reviewed IMCOM’s method for ensuring the complete documentation at the Denver Federal Records
                       delivery of high-quality base operations support services Center as required.
                       within the funds available to the Army. We found that the
                       methodology was effective for developing common levels         Headquarters          Air       Force       portfolio
                       of support (CLS). The timeline appeared reasonable for
                       implementing CLS. Although the planned performance
                                                                                      consisted of 923 open MORDs totaling
                       measures or metrics as of December 2004 were not               at least $828 million in gross obligations
                       reasonable to assess the benefits and effectiveness of CLS,
                       IMCOM was working to resolve the conditions related to Title 31, United States Code 1501, states only those
                       the issues we identified. As of February 2007 IMCOM transactions that meet specified standards for legitimate
                       was planning on fully implementing CLS version 3.0 obligations are recorded. In addition to contractual
                       by the end of FY 07. According to IMCOM, version documents, managers can use Miscellaneous Obligation/
                       3.0 provides greater flexibility to separate low- and high- Reimbursement Documents (MORDs) to record
                       priority components and funding at an affordable level obligations in accounting records. As of January 2006,
                       acceptable to the customer.                                 the Headquarters Air Force (HAF) portfolio consisted of
Financial Management




                                                                                   923 open MORDs totaling at least $828 million in gross
                       Naval Audit Service                                         obligations. AFAA found that existing processes and
                                                                                   internal controls over MORDs needed strengthening.
                       The Ordnance Information System (OIS) is the Navy’s Specifically, HAF portfolio fund holders did not validate
                       system for reporting ordnance inventory on its financial unliquidated MORD balances. Deobligating no longer
                       statement. In 2005, the ordnance amount reported on needed unliquidated MORD balances would allow
                       the FY 2005 financial statement Inventory and Related Air Force officials to use $44 million for other valid
                       Property line item totaled $29 billion. NAVAUDSVC requirements. Also, fund holders did not retain supporting
                       determined that the system may not be fully compliant documentary evidence for obligations recorded in the
                       with financial management laws and regulations when accounting system. Deobligating MORDs no longer
                       fully implemented and that financial reporting and needed could allow Air Force officials to use approximately
                       information assurance controls needed to be improved.       $7.8 million for other valid requirements.

                       Air Force Audit Agency                                  AFAA concluded that although depot maintenance
                                                                               personnel properly inducted workload with fully funded
                       The Improper Payments Information Act (IPIA) of Project Orders, Air Force personnel did not effectively
                       2002 requires that the Air Force annually estimate and monitor or maintain appropriate Project Order funding.
                       report erroneous travel payments processed through the As a result, Project Orders contained over $45 million in
                       Reserve Travel System (RTS). Specifically, AFAA found excess depot repair obligations that could be returned to
                       opportunities existed to improve the methodology used customers for use on other valid requirements. In addition,
                       to estimate RTS erroneous payment amounts and the auditors found $8.6 million in recording errors.
                       accuracy of and support for RTS payments. Specifically,



                       36                                                                                          Semiannual Report to Congress
AFAA determined Air Force civil engineering project           Electrolyzing Corporation of Ohio (ECO), a DoD
managers did not exercise effective control over military     subcontractor, paid $1.5 million as part of a civil
construction (MILCON) funds for construction projects         settlement agreement to settle allegations of conspiracy
transferred to the Army Corps of Engineers and Naval          to defraud the U.S. Government, making false statements
Facilities Engineering Command as the construction agents     and making false claims. An officer of ECO who had
to carry out its MILCON requirements. Specifically, Air       not been charged criminally, agreed to pay $10,000. A
Force project managers at 11 of 12 audited locations did      investigation by the DCIS and NCIS, demonstrated
not monitor funds and initiate prompt action to identify      that ECO and the employee submitted, or caused to
and request available/excess funds for 161 ($8.9 million)     be submitted, false testing, certifications, and claims
of 502 ($15.6 million in funds remaining) construction        for payment involving contracts for performing nickel
projects. As a result, major command officials did not        electrolysis plating on control drive mechanisms on
effectively use their annual budget authority and make        water jackets used in nuclear reactors onboard U.S. Navy
unused funds available to satisfy unfunded Air Force          ships and submarines. Because of the false testing and
requirements. By having construction agents return excess     certifications, the U.S. Government bore the cost of
MILCON funds, the Air Force could provide at least $8.9       expensive and time-consuming engineering evaluations
million for other unfunded MILCON requirements.               and special testing to ensure that the falsified certifications
                                                              would not cause equipment failure.
Investigations
                                                                 DCIOs have partnered with acquisition and
The Department of Defense loses millions of dollars
annually because of financial crime, public corruption,
                                                                 financial agencies to proactively identify
and major thefts. Through the investigative efforts of           areas of vulnerabilitys
DCIO special agents, abuses in the procurement process,
such as the substitution of inferior products, overcharges,   As a result of an investigation conducted by the CID,
bribes, kickbacks, and cost mischarging, are exposed.         NCIS, AFOSI, DCIS, FBI, and NASA, six carbon fiber
                                                              manufacturers and suppliers agreed to a negotiated




                                                                                                                                Financial Management
Additionally, the DCIOs have partnered with acquisition
and financial agencies to proactively identify areas of       settlement to resolve allegations of conspiracy and false
vulnerability. Some DCIO efforts to combat financial          claims and were ordered to make restitution of over $35.7
threats to DoD follow.                                        million to the U.S. Government. The investigation found
                                                              that Toray Carbon Fibers (America), Hexcel Composites,
General Electric Company Aircraft Engines, a major            Toho Carbon Fibers Inc., Mitsubishi Rayon America Inc.,
contractor, entered into a settlement agreement and paid      Hercules Inc., and BP Amoco Polymers, Inc., conspired
$11.5 million in restitution to the US Government. A          and submitted false claims based on illegally fixed and
qui tam complaint alleged that General Electric and its       inflated carbon fiber and pre-impregnated costs for use on
subsidiaries, under an Army contract, manufactured and        US Army helicopters. The negotiated settlements based
delivered defective T700 jet engines and components for       on restructuring of firms resulting from the investigation
use on Blackhawk, Apache and Cobra helicopters. The           equated to Mitsubishi Rayon et al paying $10 million;
joint investigation was conducted by the CID, DCIS,           Toray Carbon and Hexel paying $9.75 million; Toho
AFOSI, NCIS, DoJ, DoT, and FBI.                               Carbon Fibers paying $8.75 million; and their subsidiaries
                                                              paying $7.25 million.
As a result of a joint AFOSI, DCIS and FBI investigation,
Research and Development Laboratories (RDL) was               Booz, Allen and Hamilton, Inc. (BAH), a major contractor,
convicted of making false statements to the Government        negotiated a settlement for the amount of $3.4 million to
and sentenced to 3 years probation. Additionally, as a        settle allegations of civil false claims and false statements.
result of a civil settlement, RDL agreed to pay $1.4          A joint CID, DCIS, FBI, DoT, and DoE investigation
million and not to bill the government an additional $1.8     found that BAH, who provided federal travel agency and
million. The investigation found that RDL over billed         credit card services, entered into separate agreements with
the Air Force approximately $1.9 million. Suspension          external travel agencies and credit card firms to receive
and debarment action is pending against the company.          monetary rebates on travel expenses which BAH failed to
                                                              credit to US Government clients.

Department of Defense Inspector General                                                                                37
                       The University of Connecticut entered into a negotiated        several of its executives either pled guilty or were sentenced
                       settlement with the U.S. Government in the amount of           for their involvement in conspiracy, and making false
                       $2.5 million to settle allegations of false claims and false   statements and claims on parts used in the production of
                       statements. A CID and DCIS joint investigation found           strategic weapons. In February 2007, a man and woman,
                       that the University’s Office of Sponsored Programs and         former owners and officers of M&M, received sentences
                       Office of Cost Analysis, recipient of US Government and        and fines after earlier entering guilty pleas to conspiracy,
                       Department of Army grants, knowingly used improper             and making false claims and false statements to the
                       overhead and labor rates on grants provided by multiple        Government. The man was sentenced to 27 months
                       agencies.                                                      in prison, followed by 24 months supervised release,
                                                                                      and the woman was sentenced to 24 months in prison,
                       A joint CID and DCIS investigation, based on a qui tam         followed by 24 months of supervised release. They each
                       complaint, found that American Amicable Insurance              were ordered to pay $10,000 in criminal fines and $300
                       used fraudulent insurance forms to file false claims           special assessments. In December 2006, a former M&M
                       through the Defense Finance and Accounting Service on          administrative employee, was sentenced to 90 days home
                       approximately 57,000 service members. The company              detention and 24 months probation release. During this
                       entered into a $10 million civil settlement from which         reporting period, two other employees entered guilty
                       some 53,000 current and former policy holders will have        pleas in the case. Another former M&M administrative
                       increased value under existing policies up to $60 million.     employee, pled guilty to making false statements, and a
                                                                                      former M&M sales manager, pled guilty to conspiracy and
                                                                                      making false statements. Their sentencing has not taken
                                  American Amicable Insurance used                    place. The investigation found that M&M employees
                                fraudulent insurance forms to file false              were directed by management to change labels on test
                               claims through the Defense Finance and
                                                                                      reports, certifications and/or mill reports to falsely reflect
                                 Accounting Service on approximately
                                       57,000 service members                         that non-conforming metals met the specifications called
                                                                                      for under various Government contracts. The acceptance
                                                                                      of these materials by the Government agencies, including
Financial Management




                       Molex Caribe, Inc., and BAE Systems Controls reached an        DoD, facilitated payment to M&M by wire transfer.
                       $86,529 administrative settlement with the Government
                       after a joint AFOSI and DCIS investigation found the           The owner of Miles Aviation is awaiting sentencing
                       companies manufactured and installed parts that did            after being convicted of 13 counts of making materially
                       not meet USAF specifications on the C-17 aircraft. The         fraudulent representation concerning the condition
                       investigation began after Boeing, the prime contractor         of aircraft parts in violation of the Aircraft Safety Act.
                       on the C-17 Aircraft Program, discovered and disclosed         The owner, who had won numerous Defense contracts,
                       to the USAF a problem with the Environmental System            purchased parts on the open market, and falsely certified
                       Fire Detection Control Panel (ESP) and the Fuel System         that the parts were new or new surplus when in fact they
                       Panel (FSP) during testing at their facility. C-17 aircraft    were used parts. The DCIS, AFOSI and Department
                       were grounded due to malfunctioning connectors in the          of Transportation Office of the Inspector General jointly
                       ESP and the FSP. BAE, a contractor working on the C-           investigated the case.
                       17 Program, installed the defective connectors into ESP
                       and FSP boxes manufactured at their plant. The cause       A commissioned employee of 1 Nation Technology
                       of the discrepancy was tied exclusively to Molex, a BAE    Corporation, a major contractor, was convicted of wire
                       subcontractor, relocating their connector manufacturing    fraud charges, sentenced to 5 months confinement and 3
                       to an offshore location. All aircraft connectors and       years supervised release, and debarred from Government
                       stockpiled connectors were retested, and all identified non-
                                                                                  contracting, as a result of a joint AFOSI and DCIS
                       conforming connectors were removed from inventory.         investigation. Civil actions are pending against 1 Nation.
                       The Air Force is considering suspension and debarment      AFOSI was alerted after a Defense Supply Center
                       action against the two companies.                          Columbus quality assurance inspector identified non-
                                                                                  conforming substituted parts from 1 Nation on seven
                       As a result of a joint DCIS, AFOSI, and DoE investigation, work orders. The parts were primarily microcircuits,
                       M&M International Aerospace Metals (M&M) and resolvers and other electronic components.
                       38                                                                                             Semiannual Report to Congress
Acquisition Process and
 Contract Management


                  4
                                    T
Acquisition & Contract Management
                                            he Department continues its distinction as the          In addition, changes such as the Federal Acquisition
                                            world’s largest purchaser of goods and services, but    Streamlining Act and the Clinger-Cohen Act while
                                            with that distinction comes the difficult challenge     intending to promote acquisition reform and flexibility
                                    of fully equipping the warfighter with high performing          have inhibited contracting officers’ abilities to use truth
                                    products and services at the right time, in the right           in negotiation protections, especially in regard to items
                                    quantity, and at a reasonable price. Balancing the service to   considered to be commercial acquisitions. Changes in
                                    the warfighter against the service to the taxpayer becomes      the Clinger-Cohen Act allowed items to be classified as
                                    increasingly difficult as the quantity of procurement           commercial if they were “of a type” or were merely offered
                                    actions and amount of dollars spent continues to grow           to the public. The Act eliminated the need to establish that
                                    while the procurement workforce has remained largely            a commercial market even existed. By imposing additional
                                    unchanged.                                                      regulatory constraints upon contracting officials in areas
                                                                                                    such as obtaining information from contractors, those
                                    Audit                                                           reforms have reduced contracting officials’ effectiveness.

                                    FY 2006 procurement spending of more than $304                  During the past 6 months, audits have focused extensively
                                    billion was 112.6 percent higher than amounts spent             on interagency procurements, oversight of acquisition
                                    as recently as FY 2000. However, the increase in                programs, and inappropriate use of commercial item
                                    procurement actions was even more dramatic during this          procurement procedures. The DoD IG works with the
                                    same period. Procurement actions have increased more            military service audit agencies to leverage audit efforts
                                    than 600 percent for actions in excess of $25,000. In FY        and to ensure that projects are coordinated to avoid
                                    2000, there were approximately 328,000 actions in that          duplication and minimize impact to operations.
                                    category, but by FY 2005 the number had increased to
                                    almost 2.4 million actions.                                     The DoD IG conducted a series of audits of FY 2005
                                    Adding to the difficulty in acquiring goods and services is     Department purchases made through four agencies.
                                    the decline in the acquisition workforce that oversees the      The DoD sent over $5.4 billion to the General Services
                                    Department’s procurement process. In the past decade,           Administration (GSA), the National Aeronautics and
                                    DoD procurement staff was cut by 10 percent to 26,000           Space Administration, the Department of Treasury, and
                                    personnel according to the Pentagon. The workforce              the Department of Interior (DoI) to award procurement
                                    from a decade ago oversaw Defense procurement of                actions for the Department. Those audits found a number
                                    approximately 258,000 transactions in excess of $25,000         of procurement problems related to the interagency
                                    and total DoD spending on procurement of $132                   purchases. DoD and the other agency officials did not
                                    billion.                                                        comply with laws and regulations when using these
                                                                                                    agreements.

                                       DoD IG works with the military service                       Recurring themes within the task orders the DoD
                                       audit agencies to leverage audit efforts and                 IG reviewed were lack of competition or unjustified
                                                                                                    sole source selections, inadequate justification of price
                                       to ensure that projects are coordinated
                                                                                                    reasonableness, and surveillance deficiencies. For 143 of
                                                                                                    193 task orders reviewed (74 percent) at the 4 agencies, the
                                    With the smaller workforce, procurement and program             DoD IG found that procurements were either awarded to
                                    officials looked for innovative ways to handle the              a contractor without competition or when documentation
                                    additional workload and increasingly turned to interagency      was inadequate to ensure adequate competition occurred.
                                    procurements to conduct acquisitions. The reduced               Two of the agencies did not adequately justify that the price
                                    workforce was also stretched thin when performing               was reasonable for 77 of 110 task orders (70 percent). In
                                    acquisition oversight required by the DoD 5000 series of        addition, more than 90 percent (123 of 136) of the task
                                    guidance.                                                       orders reviewed at 3 agencies either did not show that the
                                                                                                    Government had adequate surveillance or had adequate
                                                                                                    surveillance plans.



                                    40                                                                                             Semiannual Report to Congress
Surveillance is especially important under cost type           of problems because program officials did not treat the




                                                                                                                             Acquisition & Contract management
contracts because the contractor has no incentive to           radio system as an acquisition system as defined in DoD
control costs, yet that important control was missing for      Directive 5000.1, “The Defense Acquisition System,”
all but 13 task orders. In one particularly poor example of    May 12, 2003. Those problems included the failure
contracting, the DoI accepted a purchase request to fund       to properly perform test and evaluation or to obtain
the leasing of office space for the Counterintelligence        certification and accreditation of the system. Also, the
Field Activity. The 10 year, $100 million lease violated a     system was procured under a task order with the GSA and
myriad of laws and circumvented required congressional         exhibited many of the same problems found on our series
review of leases of that size. The action may potentially      of interagency purchase audits. Neither GSA nor DoD
violate the Antideficiency Act and could cost up to $2.7       program officials adequately justified price reasonableness
million more of taxpayers’ money annually.                     for $44.3 million of the $52.3 million awarded on the
                                                               task order, and surveillance over the program was lacking.
Based on the DoD IG audit results, in December 2006, In addition, program officials for the PACMERS–Hawaii
DoD and GSA signed a 24-point memorandum of program also entered into leases that wasted $14.1
agreement aimed at bridging the differences in policy, million by leasing radio equipment instead of buying it
training, and perceived responsibilities. So far, the agencies and by allowing a buyout option to be removed in the
have completed actions on half of the areas. DoD is also renegotiated leases.
in the process of establishing agreements with the other
agencies involved.                                             Two DoD IG audits also found problems with commercial
                                                               contracting practices similar to problems found on
Several DoD IG audits also found problems with program prior audits of the C-130J Aircraft and the 767 Tanker
office adherence to the DoD 5000 series of guidance. On Program. On the audit of Commercial Contracting
the acquisition of the Precision Guided Mortar Munition for the Acquisition of Defense Systems, 83 percent of
Program, the DoD IG found that the program office did the 42 contracts valued at $4.4 billion reviewed by the
not require the contractor to design Increment I of the IG DoD showed that the contracting officers did not
munition program to meet a key performance parameter adequately justify the commercial nature of the items
specified in the operational requirements document.            being procured.




Precision Guided Mortar Munition

As a result, the Army increased the risk of program As a result, Truth in Negotiation Act protections and
reevaluation, reassessment, or termination by not satisfying other oversight requirements were not applied to these
the warfighter requirement.                                  contracts. Similarly, on the audit of the Commercial
                                                             Contract for Noncompetitive Spare Parts with Hamilton
The audit also found that the Army did not adequately Sundstrand Corporation, the DoD IG found that the Air
justify the warfighter’s need for the program’s Increment Force used questionable commercial item determinations
II to extend the operational range and may unnecessarily that exempted the corporation from the requirement to
incur programmed costs of at least $26 million while submit cost or pricing data. The expanded definition of
delaying the development of the program’s full-range commercial items removed the burden from contractors
operational capability needed for Increment III.             to show that they sold the items to customers in the
                                                             general public.
On the acquisition of the Pacific Mobile Emergency
Radio System (PACMERS), the DoD IG found a number


Department of Defense Inspector General                                                                             41
Acquisition & Contract Management
                                    As an example of an inadequate commercial market,             The AAA reported that the Army’s aviation community
                                    Hamilton Sundstrand had insufficient commercial sales         generally fell short in meeting the intent of the top-down
                                    to establish fair and reasonable prices from marketplace      capabilities identification process. Although the community
                                    pricing for terminal boards (NSN 5940-00-856-0853).           prepared the required Joint Capabilities Integration
                                    The price was established through price analysis of           and Development System (JCIDS) documentation and
                                    commercial sales even though commercial sales were            received approvals, the documents portrayed an Army-
                                    almost nonexistent. Commercial market sales were not          focused approach to satisfy Army capability needs. The
                                    for substantial quantities with an average buy quantity       community believed it satisfied the intent of the JCIDS
                                    of 1.29 units and total commercial sales over 4 years         process when staffing JCIDS documents. In addition,
                                    (2000 through 2003) of only 27 units. In comparison,          during 2006 the Army began contracting out the
                                    DoD purchased terminal boards in significantly higher         medical support mission at installations where aviation
                                    quantities with an average buy quantity of 116.75 units       units normally performed that mission. Therefore, the
                                    and total purchases over 6 years (2000 through 2005) of       AAA recommended that the aviation community reduce
                                    467 units.                                                    the total requirement for light utility helicopters by 48
                                                                                                  aircraft (valued at about $274 million), an action that
                                                                                                  would enable it to use the $274 million to meet other
                                                                                                  aviation needs.

                                                                                               The AAA performed a multilocation audit that evaluated
                                                                                               the Department of the Army’s implementation of
                                                                                               performance-based logistics (PBL) as a product support
                                                                                               strategy. The implementation process used didn’t facilitate
                                                                                               meeting DoD’s stated objectives, didn’t make sure project
                                                                                               managers used a business case analysis as the basis for
                                    Terminal Board, NSN 5940-00-856-0853                       selecting and designing support strategies, and didn’t
                                                                                               make sure reliable information on PBL implementation
                                    Also regarding commercial item procurements, the DoD was reported to DoD. The Assistant Secretary of the
                                    IG noted that in October 2006, the Air Force signed a Army (Acquisition, Logistics and Technology) agreed to
                                    modification to the contract for the C-130J aircraft to take all recommended corrective actions.
                                    convert the contract from a Federal Acquisition Regulation
                                    (FAR) Part 12, “Acquisition of Commercial Items,” The AAA reported that Aviation and Missile Life
                                    contract to a FAR Part 15, “Contracting by Negotiation,” Cycle Management Command didn’t develop accurate
                                    contract. The modification included a downward price procurement lead times to determine missile spare
                                    adjustment of approximately $364 million as a result of parts requirements because they often didn’t use correct
                                    the conversion. A July 2004, DoD IG report that found historical data and follow Army guidance. Consequently,
                                    the C-130J commercial acquisition strategy to be flawed the command overstated requirement projections by
                                    was the catalyst for the contract conversion.              about $12.7 million for the missile spare parts reviewed.

                                    The Army Audit Agency (AAA) reported that four of             The AAA performed a series of audits which focused on
                                    five product offices usually retained spare parts that were   two opportunities early in the system life cycle when the
                                    excess to program needs instead of transferring them to       materiel developer should consider maintenance support
                                    the supply system for reuse. Retaining the spare parts        strategies: the capability documents that should address
                                    occurred because product office personnel didn’t regularly    supportability from a requirements perspective and the
                                    review parts stored in a special materiel account or          supportability strategy that should outline the path for
                                    coordinate with item managers to identify available spare     pursuing support of the weapon system. The AAA focused
                                    parts. The Army could save about $11.2 million if it          on the overall strategy for three major end items and on the
                                    used the 3,588 spare parts the AAA identified to fill valid   sustainment of tactical software managed by 13 program
                                    customer demands.                                             managers. Managers did not routinely perform required
                                                                                                  analyses, rely on available expertise, or begin planning


                                    42                                                                                           Semiannual Report to Congress
early in the acquisition process. The Assistant Secretary of defense acquisition program to develop a national launch




                                                                                                                        Acquisition & Contract management
the Army (Acquisition, Logistics and Technology) agreed capability that satisfies the Government’s National
to take all recommended corrective actions.                  Launch Forecast requirements. The audit determined
                                                             that the FY 2007 President’s Budget submission was not
The Naval Audit Service (NAVAUDSVC) concluded always supported or accurate, and EELV procurement
that the Naval Supply Systems Command and its obligations were correctly supported and accurate.
Consolidated Card Program Management Division are Specifically, Launch and Range Systems Program
taking adequate action to improve the awareness of those Office personnel did not base the launch service budget
responsible for reviewing purchase card transactions estimates on the independent cost estimate. As a result,
of potential “ghost” vendors and “ghost” transactions. the EELV FY 2007 budget submission was overstated.
“Ghost” vendors are fictitious entities created for the sole Reducing unsupported budget estimates makes $242
purpose of committing fraud. “Ghost” transactions are million available through the Future Years Defense
those purposely made with real or shell companies for Program to fund other valid requirements. Conversely,
goods never delivered and/or services not performed with only $0.147 million of $23.997 million (0.6 percent) of
the intent to defraud the government.                        FY 2004 unliquidated obligations required deobligation.
                                                             Management took action to deobligate $0.147 million
The NAVAUDSVC determined that Earned Value during the audit.
Management (EVM), a primary DoD internal
management control process for managing cost, Although the Air Force is authorized under the Security
schedule, and performance of acquisition programs; has Assistance Training Program to provide training for foreign
not functioned as intended. EVM was not effectively personnel, the Arms Export Control Act, as amended,
implemented and overseen on Naval Acquisition requires that Foreign Military Sales (FMS) training be
programs and the Under Secretary of Defense for provided at no cost to the United States Government,
Acquisition, Technology, and Logistics (USD (AT&L)) except as authorized by law. The AFAA disclosed that
did not clearly identify the roles and responsibilities or Air Force personnel did not properly identify and include
define accountability for the key players involved in the required cost elements in the FMS flying training tuition
implementation of EVM. Additionally, USD (AT&L) did rate calculation and consistently applied FMS flying
not ensure that the Defense Contract Management Agency training tuition pricing factors and methods. Specifically,
(DCMA), as the designated executive agent for EVM, Air Force financial managers did not properly account for
adequately performed its executive agent responsibilities. $24 million of FMS flying training costs and adequately
Consequently, Department of the Navy (DON) decision consider all cost elements when computing FY 2005
makers do not have reasonable assurance that reported FMS flying training tuition rates. Nor did they apply
EVM information is accurate, reliable, complete, or consistent tuition pricing factors and methods to compute
used for decision-making purposes, increasing DON’s FMS flying training tuition rates for FY 2005. As a result,
vulnerability to fraud, waste, and abuse. The Naval Audit military and civilian personnel-related cost pools for FY
Service recommended and the Assistant Secretary of the 2005 FMS flying training were erroneous, resulting in a
Navy, Research, Development, and Acquisition concurred net understatement of $7 million. Further, the Air Force
to advise and request USD (AT&L) establish: (1) policy FMS financial community did not establish consistent
and procedures identifying roles and responsibilities of flying training tuition rates.
all organizations involved in effectively implementing,
coordinating, and overseeing EVM with Department of Overall, the AFAA found that program personnel were
Defense; and (2) uniform policy outlining enforcement successful in implementing core, network, and desktop
actions to be taken when Project Managers and contractors services. However, program personnel could improve the
do not comply with EVM policy and procedures and network/server consolidation program by implementing
contractual requirements.                                    additional server consolidation, developing and
                                                             implementing program performance metrics, monitoring
The Air Force Audit Agency (AFAA) initiated an audit new server acquisition, and improving Information
due to the $14.4 billion cost growth in the Evolved Technology (IT) asset accountability. Specifically, the Air
Expendable Launch Vehicle (EELV) program, a major Force could save at least $1.1 million over the Future Years


Department of Defense Inspector General                                                                        43
Acquisition & Contract Management
                                    Defense Program (FYDP) by consolidating 141 additional       KBR, Incorporated (KBR), a major Defense contractor,
                                    servers and redistribute manpower to other critical areas.   agreed to pay the Government $8 million as a result of
                                    In addition, the lack of metrics reporting hindered Air      a civil settlement to resolve allegations of false claims;
                                    Force management from accurately assessing program           conspiracy; false statements; falsely making, altering,
                                    progress and benefits and making effective management        forging documents; theft of Government funds; violations
                                    and budgetary decisions.                                     of the anti-Kickback Act; bid rigging; and product
                                                                                                 substitution. The settlement resulted from a DCIS and
                                    Further, program personnel did not effectively continue      CID joint investigation that found KBR over billed the
                                    the consolidation program for servers purchased on or        Government for logistical services the company performed
                                    after October 1, 2002. They lost the opportunity to          under Army contracts in the Balkans.
                                    consolidate an additional 290 servers with an estimated
                                    savings of at least $2.3 million over the FYDP or realize    AIT Worldwide Logistics, Inc. (AIT) agreed to pay a
                                    the productivity increases associated with the reduced       civil settlement of $4.2 million to resolve allegations in
                                    number of servers. Finally, installation-level personnel     a qui tam complaint. A joint DCIS, NCIS, and FBI
                                    did not maintain accurate IT asset accountability records    investigation found that Air Cargo Expediters Inc. (Air
                                    or properly dispose of excess servers. By accurately         Cargo), an independent contractor of AIT, submitted
                                    recording the status codes for 3,770 servers, the Air        inflated quotes to the Government that were not based
                                    Force could avoid budgeting for at least $33.1 million to    on their lowest applicable tenders, and AIT benefited
                                    purchase replacements of those assets no longer needed       financially from the business generated by Air Cargo.
                                    and improve visibility over IT assets.
                                                                                                 A man and two women were sentenced to a total of 76
                                    Investigations                                               months in prison and ordered to pay $1.55 million in
                                                                                                 penalties and restitution after pleading guilty to charges
                                    The DCIOs devote substantial resources toward the            including conspiracy to submit false claims and tax
                                    prevention, detection, investigation, and prosecution of     evasion. A joint DCIS, CID, IRS and General Services
                                    crimes involving the acquisition and contract management     Administration (GSA) Inspector General investigation
                                    processes, which impact DoD programs. Such crimes            found that two individuals, both former GSA employees,
                                    include: defective pricing; cost and labor mischarging;      used their positions to arrange no-show, no-work jobs
                                    progress payment fraud; Fast Pay fraud; Government           for the third individual with two companies that held
                                    Purchase Card fraud; Anti-Trust Act violations; and          GSA contracts to provide information technology-related
                                    economic espionage. Several investigative efforts are        support services to the Army.
                                    highlighted below.
                                                                                                 As a result of a joint investigation conducted by the DCIS,
                                                                                                 CID, NCIS, FBI, and IRS, a major Defense contractor
                                       A DCIS, NCIS, and FBI investigation found                 and two of its employees pled guilty in connection with a
                                       that Air Cargo Expediters Inc. submitted                  scheme to defraud the Department of Defense. Ace and
                                       inflated quotes to the Government                         Company, Inc., pled guilty to wire fraud in the scheme
                                                                                                 and the company owner pled guilty to failure to file a
                                    Analytical Laboratories and AAR Contractor Inc.              tax return. The owner was ordered to serve 6 months in
                                    Environmental Services were ordered to pay $22.9             prison and 3 years supervised release, and to pay a $30,000
                                    million in restitution after being convicted of making       fine and $196,322 in restitution. The owner and Ace also
                                    false statements and claims; violating the Clean Air Act;    have reached an agreement in principle to settle civil false
                                    and engaging in racketeering. They were also debarred        claims totaling $300,000. A company employee, pled
                                    from future Government contracting. An investigation,        guilty to wire fraud and failure to file a tax return. He
                                    conducted jointly by CID, IRS, and EPA, found that           awaits sentencing. The investigation revealed that Ace
                                    the companies committed the offenses while working on        Inc. had not performed the tests, and had fabricated test
                                    asbestos removal contracts.                                  results for the purpose of obtaining DoD contracts and
                                                                                                 subcontracts.



                                    44                                                                                          Semiannual Report to Congress
S   ignificant Activities


                      5
                              T
                                      his chapter highlights significant accomplishments
                                      of the Inspector General (IG) as well as                       Joint Warfighting
                                      the Department of Defense (DoD) audit,                           and Readiness
                              investigative, and inspections communities. Significant
                              accomplishments are based on management challenge areas
                              identified by the IG. The IG annually assesses the most      The challenge of Joint Warfighting and Readiness is to
                              crucial management and performance challenges faced by       provide the right force, personnel, equipment, and supplies
                              the DoD based on the findings and recommendations of         in the right place at the right time and in the right quantity,
                              audits, inspections, and investigations conducted during     across the full range of military operations. To meet that
                              the year. Our significant accomplishments help the           challenge, the Department is transforming its logistics
                              Department focus their efforts on mitigating management      capabilities to support fully integrated, expeditionary,
                              challenges identified by the IG. The Inspector General       networked, decentralized, and adaptable forces. The
                              Summary of Management Challenges is included in the          Department is also transforming its infrastructure through
Significant Accomplishments




                              DoD Performance and Accountability Report. For the           base realignment and closures to an efficient, cost-effective
                              Fiscal Year 2006 Performance and Accountability Report,      structure. In making recommendations for realignment
                              the following challenges were identified:                    and closure, the Department gave priority consideration
                                                                                           to military value, particularly mission capability and the
                              • Joint Warfighting and Readiness                            impact on operational readiness, joint warfighting, and
                              • Human Capital                                              training.
                              • Information Security and Privacy
                              • Financial Management (Chapter 3)                           Audit
                              • Acquisition Process and Contract Management
                              (Chapter 4)                                               In addition to the joint warfighting and readiness
                              • Health Care                                             audits previously discussed in the GWOT chapter, the
                                                                                        Department of Defense audit community issued other
                              The DoD IG works with the Military Service audit agencies reports on joint warfighting and readiness, logistics, and
                              to leverage audit efforts and to ensure that projects are base realignment and closure. Some of those reports are
                              coordinated to avoid duplication and minimize impact to discussed below.
                              operations.
                                                                                           The DoD IG issued a report that discusses National
                              The Defense Criminal Investigative Organizations             Guard and Reserve controls over recruitment incentives.
                              (DCIOs) – comprised of the Defense Criminal Investigative    That report addresses whether controls over recruitment
                              Service; the U.S. Army Criminal Investigation Command;       incentives were sufficient. The National Guard and
                              the Naval Criminal Investigative Service; and the Air        Reserves offer cash incentives to Service members who
                              Force Office of Special Investigations – and the United      identify and aid in enlisting new recruits. As of October
                              States Marine Corps Criminal Investigation Division,         31, 2006, the Army received 16,203 referrals and paid
                              support each of the Secretary of Defense Management          260 sponsors. As a result of new legislation, the amount
                              Challenges with highly trained special agents, forensic      of the referrals was increased from $1,000 to $2,000.
                              experts, analysts, investigators, and support personnel      Although the report identified that the controls were
                              who protect the military and civilian men and women of       adequate at the time of the review, the Army agreed to a
                              the Department by combating crimes, both domestically        recommendation to review the adequacy of the controls
                              and overseas.                                                as a result of increases in the amount of the incentive and
                                                                                           an increase in the pool of eligible personnel to submit a
                              Chapters 3 and 4 address the management challenge areas      request for the incentive.
                              of financial management and acquisition process and
                              contract management.                                    The DoD IG issued a report that discusses transportation
                                                                                      policies, procedures, and processes implemented to meet
                                                                                      DoD customer demands. The report discusses whether
                                                                                      DoD customers were following policies and procedures

                              46                                                                                            Semiannual Report to Congress
for requesting supplies and whether DoD transportation       to Cecil Field by taking
managers were using the most effective transportation        the designated actions in
mode to meet customer requests. In summary, while Army       Recommendation No.
customers generally followed policies and procedures         193. The DoD IG letter
outlined in DoD and Army guidance, the DoD IG                to the President cited
identified three areas where the Army could improve          that because Florida did
procedures in the requisition process. Army guidance         not take actions required
was not updated to accurately reflect responsibilities for   in the recommendation,
oversight of the Army requisition process. In addition,      the IG was not able to certify compliance with the Base
the Army used air transportation to repetitively ship        Realignment and Closure Commission’s criteria.
some supplies to the U.S. Central Command Area of
Responsibility. Finally, procedures for shipping supplies    The Army Audit Agency (AAA) issued a classified report
to units with an air line of communication designation       that identified process weaknesses in how the Army




                                                                                                                            Significant Accomplishments
did not follow Army guidance. Actions taken by the           allocated capabilities or units to the weapons of mass
Army should improve the processes so that the most           destruction (WMD) consequence management mission.
effective mode of transportation is used to meet customer    It also identified systemic shortfalls in how the Army
requests.                                                    measured the readiness of units assigned to Homeland
                                                             Defense missions. The Army should define the process
The DoD IG issued three reports that discuss force structure it would follow for allocating units and capabilities to the
changes in the U.S. Pacific Command (PACOM). The WMD mission and change the readiness reporting process
first report discusses war reserve materiel at Andersen to better assess the preparedness of units for Homeland
Air Force Base. Quality assurance evaluators were not Defense missions.
assigned to provide oversight of critical war reserve
materiel as required by Air Force instruction. The second An AAA audit concluded that the U.S. Army, Europe and
report discusses programming for increased annual costs. Seventh Army needed to identify military and contracted
The Navy, Air Force, and Marine Corps must identify and personnel and funding required to complete maintenance
plan for increased annual costs that will result from the requirements for 1st Infantry Division at the direct
planned changes to the force structure in the Pacific in support and below maintenance levels. In addition, 1st
order to present adverse effects on the quality of life for Infantry Division units needed to improve the processes
Service members and dependents and the readiness of U.S. for prioritizing, executing, and monitoring reconstitution
forces in PACOM. The third report discusses roles and maintenance requirements at the direct support and
responsibilities of headquarters and support functions. below maintenance levels. Because of the overall lack
PACOM and the Services had not reduced or eliminated of management direction, 1st Infantry Division did not
redundancies and unnecessary roles and functions that meet the 180 day timeframe to complete reconstitution.
were the result of force reductions, installation closures,
and restructured command and control functions that The Army’s project manager for Reset needed to improve
may have eliminated the need for some headquarters forecasting of requirements and funding of reset sites. The
and support functions. PACOM and its sub unified project manager overstated FY 2005 reset requirements for
commands continue to undergo significant changes in U.S. Army, Europe and Seventh Army and the 1st Cavalry
force structure. Eliminating unnecessary functions will Division by 60 and 43 percent, respectively, and funded
benefit PACOM and the Services by providing more reset sites using Army wide average costs instead of site
effective command and control, use of human resources, historical costs. As a result, some sites received funding
and support to the warfighter.                               that was not commensurate with requirements. Also, the
                                                             Army could reduce contract reset costs by establishing
The DoD IG issued a letter that discussed the 2005 benchmarks and advising commands to have their
Defense Base Closure and Realignment Commission’s subordinate units dedicate teams of military mechanics
Report Recommendation No. 193 regarding Cecil Field, to support reset efforts for specified time periods. That
Florida. The citizens of Jacksonville, Florida voted against action could save as much as $42 to $58 million over the
returning Cecil Field to the military and therefore the next 2 fiscal years.
State of Florida was not able to pursue the Navy’s return

Department of Defense Inspector General                                                                            47
                              To augment Senior Focus Group efforts underway to              for mobility, (b) had 36 excess and 52 duplicate vehicles
                              optimize energy usage, the Air Force Under Secretary           ($9.3 million) for deployment or base support, and (c) did
                              requested the Air Force Audit Agency (AFAA) determine          not have 128 other vehicles ($16.2 million) required for
                              whether the Air Force had an effective aviation fuel           deployment. Deleting authorizations and redistributing
                              optimization program. Auditors concluded the Air Force         excess equipment would result in a potential monetary
                              could better optimize aviation fuel use through centralized    benefit of $8.5 million for equipment and $5.4 million
                              visibility and implementation of a formalized fuels            for vehicles currently in a buy position. The remaining
                              management program with clearly defined policies and           equipment and vehicles could be redistributed to future
                              procedures, goals, metrics, and incentives. By establishing    RED HORSE locations, reducing start-up costs by up to
                              an overarching program, the Air Force could reasonably         $24.5 million for equipment and vehicles.
                              achieve a 5 percent reduction in the first year, providing
                              $250 million in annual savings and $1.5 billion over the       In addition, RED HORSE units positioned unneeded
                              Future Years Defense Program. In addition, although            mobility kits in the Continental United States (CONUS),
Significant Accomplishments




                              accurate data are essential for establishing baselines and     maintaining old, outdated, unreliable, and immobile
                              measuring program results, the Air Force did not have an       equipment in kits. Further, the Air Force did not have
                              effective method to obtain reliable and consistent aviation    plans to deploy CONUS RED HORSE items with
                              fuel consumption data. Air Force management agreed             units, and units did not typically deploy items with each
                              potential monetary benefits will occur, but determined the     unit rotation. Finally, mobility kit equipment was not
                              amount to be $600 million because of cultural differences      sufficiently used for deployment or training. Reducing
                              between the Air Force and the airline industry and delay       CONUS deployment packages from six to three, and
                              in completing technological enhancements in Air Force          positioning these packages for deploying RED HORSE
                              aircraft.                                                      squadrons would eliminate the need for support equipment
                                                                                             and vehicles valued at $5.7 and $48.7 million, respectively.
                              The AFAA disclosed that propulsion managers did not            Distributing the excess and deleting authorizations for
                              accurately compute TF39 engine repair requirements             equipment and vehicles currently in a buy position would
                              and properly identify spare engines in the Propulsion          result in a potential monetary benefit of $24.7 million.
                              Requirements System so that excess engines could be used       The remaining assets could be redistributed to any future
                              to reduce engine repairs. Specifically, propulsion managers    RED HORSE locations.
                              did not use correct flying hours, offset depot repairs with
                              on-hand serviceable engines, and adjusts estimates when        The AFAA determined that Air Force personnel did not
                              actual data were available. As a result, propulsion managers   adequately account for deployed assets or report accurate
                              overestimated TF39 repairs by 249 engines valued at            information in supply systems. The auditors estimated
                              approximately $606 million for FYs 2005 through                that activities Air Force-wide lost accountability for
                              2012. In addition, Propulsion Requirements System              5,800 assets valued at $108.0 million, reported incorrect
                              calculations included invalid engine locations, inaccurate     deployed locations for 15,373 assets valued at $213.2
                              maintenance rates, and incorrect repair times resulting in     million, and incorrectly reported the deployment status
                              37 excess spare engine requirements. Properly computing        of 2,689 assets valued at $104.7 million. Also, personnel
                              spare engines could reduce future repair requirements by       were not properly assigned as accountable and responsible
                              an additional $84 million.                                     officials and did not adequately account for equipment
                                                                                             and vehicles at deployed locations. During FYs 2004 and
                              Although Rapid Engineer Deployable Heavy Operational           2005, personnel recorded inventory adjustments for more
                              Repair Squadron Engineer (RED HORSE) officials                 than 7,700 lost, damaged, or destroyed assets valued at
                              appropriately rented vehicles for training and home            $68 million. Finally, Air Force personnel did not establish
                              station use, the AFAA disclosed they did not appropriately     allowance standards and authorizations or properly
                              equip squadrons for wartime, training, and non-war             validate vehicle requirements at deployed locations. As a
                              operations, or position mobility kits to best support the      result, over $81 million was spent in FYs 2004 and 2005
                              RED HORSE mission. Specifically, RED HORSE units               to lease vehicles with no assurance that only the minimum
                              (a) had 2,290 excess equipment items ($29.1 million)           numbers of vehicles necessary to support the mission were
                              and 700 equipment shortages ($6.1 million) required            leased.


                              48                                                                                            Semiannual Report to Congress
Investigations
                                                                    A DCIS special agent conducting an investigation
DCIS works to ensure that our warfighters have the
equipment necessary to effectively accomplish thier
mission by focusing significant resources on the theft,
diversion, and illegal transference of Defense technology
and other property through their DCIS Technology
Protection Program. This program currently oversees
investigations involving the illegal diversion of strategic
technologies and U.S. Munitions List items, some of
which have been targeted by proscribed nations and
terrorist organizations that pose a threat to national
security. Technology protection investigations have grown




                                                                                                                               Significant Accomplishments
to encompass approximately 15 to 20 percent of DCIS’
active caseload. The Department of Homeland Security,           Following a joint investigation by DCIS and Immigration
FBI, and various members of the Intelligence Community          and Customs Enforcement (ICE), ITT Corporation,
recognize DCIS as a significant partner in the on-going         Night Vision Division (ITT-NV), pled guilty to one
battle against counter-proliferation and illicit technology     count each of Export of Defense Articles Without a
transfer.                                                       License and Omission of Statements of Material Facts in
                                                                Arms Exports Reports, both violations of the Control of
The DCIS Product Substitution Program investigates the          Arms and Exports and Imports Act. The company agreed
introduction of counterfeit material and other forms of         to a $100 million settlement, which included a $2 million
unauthorized product substitution or non-conforming             criminal fine, $28 million forfeiture, $20 million Arms
products into the procurement system. Those cases               Export Control Act penalty; and $50 million suspended
continue to be DCIS’ highest priority for deterrence,           fine for corrective and remedial actions related to research
investigation, and prosecution. Product substitution            and development for next generation of night vision
investigations currently comprise approximately 15              capabilities. According to information obtained during the
percent of the DCIS active case inventory. An area of           investigation, ITT-NV exported or caused to be exported
increased emphasis is readiness enhancement through             defense-related technical data to the People’s Republic of
vigorous detection and investigation of defective or            China and the United Kingdom without first obtaining
substituted products that involve either safety of flight       a license or written approval from the U.S. Department
issues or have a critical application.                          of State. The data included information about a laser
                                                                countermeasure, known as a “light interference filter,” for
Some DCIO cases impacting joint warfighting and                 military night vision goggle systems.
readiness follow.




                   U.S. Attorney and DCIS SAC brief at a press conference regarding the ITT Corporation case.

Department of Defense Inspector General                                                                                49
                              A joint DCIS and CID investigation, initiated based on         various Defense items, including radar and guidance parts
                              allegations of false claims by American President Lines        for military aircraft, and smuggle those items to Indonesia.
                              (APL), found the company over billed the Government            Additionally, the individuals tried to purchase and illegally
                              in connection with Surface Deployment and Distribution         export machine guns, sniper rifles, and other weapons
                              Command (SDDC) contracts for port storage, reefer plug-        worth more than $1 million. They also inquired about
                              in charges, and reefer maintenance charges in Afghanistan      purchasing Sidewinder missiles and strafing ammunition.
                              and Pakistan. Based on its own calculation of amounts          One of the co-conspirators agreed to the forfeiture of
                              over billed, the company agreed to reimburse SDDC              $600,480 that was seized during the investigation and is
                              $5.58 million to resolve all allegations.                      awaiting sentencing. Another was sentenced to 8 months
                                                                                             imprisonment and deportation upon release. The
                                                                                             remaining two are awaiting sentencing.

                                                                                             A Defense Reutilization and Marketing Service (DRMS)
Significant Accomplishments




                                                                                             area manager received a prison sentence, was ordered to
                                                                                             pay restitution, and lost his federal position after being
                                                                                             convicted of one count of conspiracy to violate the Arms
                                                                                             Export Control Act and the International Traffic in Arms
                                                                                             Regulations and one count of conspiracy to defraud the
                                                                                             United States. The area manager for Red River Army
                                                                                             Depot was sentenced to 18 months in prison and 36
                                                                                             months of supervised release for the first conviction. He
                                                                                             was also sentenced to 15 months in prison, 36 months
                                     DCIS special agents conducting an investigation.        of supervised release, and payment of restitution to the
                                                                                             United States in the amount of $108,692 for the second
                                                                                             conviction. He will serve the sentences concurrently. A
                              Two former government contractor employees received            joint investigation conducted by the DCIS, ICE, and the
                              prison sentences and were ordered to pay fines and             Defense Logistic Agency’s Criminal Investigations Activity
                              restitution after entering guilty pleas in charges resulting   found that the area manager conducted an unauthorized
                              from an investigation conducted jointly by the DCIS,           sale during an authorized auction of sensitive and
                              CID, FBI and the IRS. A former KBR, Inc., procurement          restricted military technology, to include High Mobility
                              manager was sentenced to a year in prison and three years      Multi-wheeled Vehicles, as well as other weapons and
                              supervised release. He also was ordered to pay $380,130        equipment, to foreign nationals. The incident occurred
                              in restitution. He previously pled guilty to wire fraud        at Camp Doha, Kuwait.
                              and conspiracy to launder money related to the award
                              of two subcontracts valued at $21.8 million to Tamimi          Two Indonesian nationals pled guilty to and are awaiting
                              Global Company (Tamimi), a KBR subcontractor. A                sentencing on violations of conspiracy to violate the Arms
                              former Tamimi director of operations, who previously           Export Control Act and the International Traffic in Arms
                              pled guilty for his role in the scheme, was sentenced to       Regulations and Laundering Monetary Instruments. A
                              51 months imprisonment, and ordered to pay $133,860            joint DCIS and ICE investigation revealed that the two
                              in restitution, and a $10,000 fine. The investigation was      acquired sensitive military technology from an undercover
                              based on allegations of kickbacks and gratuities solicited     business that was being run by federal agents. They also
                              and/or received by KBR employees under an Army                 obtained a night vision device and holographic weapons
                              contract awarded to KBR for logistical support of military     sights for the Liberation Tamil Tigers Elam a Sri Lankan
                              operations in Iraq.                                            Rebel/terrorist group. Three other defendants face federal
                                                                                             charges in the case.
                              As a result of a joint DCIS and ICE investigation, an
                              Indonesian businessman and three co-conspirators pled A Chinese national was sentenced to 14 months in prison
                              guilty to charges of conspiracy to violate the Arms Export and forfeiture of $17,130 in connection with his guilty
                              Control Act. The individuals attempted to purchase plea to a single count of Smuggling Goods Out of the


                              50                                                                                            Semiannual Report to Congress
United States. He was arrested following his meeting            of credentials from so-called “diploma mills.” Diploma
with an undercover agent during which he purchased over         mills are nontraditional schools that are not accredited
$17,000 worth of Generation III night vision equipment          by organizations recognized by the U.S. Department of
and combat optics, all represented by the agent as stolen       Education. For those individuals sampled and reviewed,
from the US Military. He then attempted to smuggle the          the Naval Audit Service validated all degrees claimed.
equipment out of the country. DCIS and ICE conducted            The Naval Audit Service found, however, that Office of
the investigation.                                              Civilian Human Resources needed to improve controls on
                                                                documentation contained in official personnel folders to
Al Riyadh Laboratories & Electric Company, Advanced ensure that degrees are being validated with each change
Company for Trading and Contracting, the Fadan in employment status as required by OPM.
Contracting Company, Ahmed Dayekh, and six other
individuals associated with the above three companies were           making sure the military and civilian
debarred from contracting with the U.S. Government for
                                                                     workforce are appropriately sized, well




                                                                                                                              Significant Accomplishments
a period of three years as a result of submitting false claims,
totaling $114,000 for the lease of vehicles at Balad Air             trained, well supported operationally
Base Iraq. An AFOSI investigation found that, on three
separate occasions, the subjects submitted false claims for The AFAA determined that the Air Force did not always
repairs on leased vehicles that were allegedly damaged properly use Air Reserve Component (ARC) personnel
through negligence by service members. Subsequent (Air National Guard [ANG] and Air Force Reserve) to
independent inspections on the leased vehicles revealed train active duty personnel consistent with Title 10 and
no damages existed and no repairs were accomplished.            Title 32 requirements. Specifically, training provided by
                                                                8 of 11 ARC units was not for the primary benefit of
A security guard employed by L-3 Communications, a the reserve component involved in a common mission,
logistics support contractor for the Special Operations incidental to the primary purpose of training ARC
Forces Support Activity in Lexington, Kentucky, pled personnel, or necessary to maintain instructor capability
guilty to theft of Government property and was sentenced for a Title 10 training mission. Although Air Force use of
to 8 months in prison and ordered to pay a $20,000 fine. ARC forces to train active duty personnel took advantage
A DCIS investigation revealed that the security guard of an experienced and stable cadre of instructors and
stole military equipment, including AN/PRC-112 and resulted in training efficiencies, using ARC forces in that
AN/PRC-90 radios, military rifle scopes, binoculars, manner could violate public law. On October 17, 2006,
global positioning equipment, and cameras. He then sold the President signed into law House Resolution 5122, the
the property, worth approximately $85,000, on eBay.             “John Warner National Defense Authorization Act for
                                                                Fiscal Year 2007,” which authorized the use of Active Guard
                                                                and Reserves (AGRs) and Technicians to provide training
                Human Capital                                   to other components, civilians, and foreign military
                                                                personnel. Although the Air Force received legislative
                                                                relief, auditors recommended Air Force management to
Challenges for the DoD’s Human Capital area include formalize unit federal training missions.
making sure that the military and civilian workforce
are appropriately sized, well trained, well supported Investigations
operationally, and capable of supporting current and
future needs.                                                   The DCIOs undertook several initiatives to raise
                                                                community awareness of fraud, waste, and abuse against
Audit                                                           the DoD, and take proactive approaches to detect public
                                                                corruption, internal weaknesses, and systemic failures in
The Naval Audit Service issued a report on the validation an effort to combat corruption in the Department. They
of Navy civilian educational credentials. That report also investigate crimes against persons.
followed up on Office of Personnel Management (OPM)
guidance addressing the critical issues surrounding the use


Department of Defense Inspector General                                                                              51
                                                                                            accurately report the number of employees required to
                                     Information Security                                   receive or complete information assurance awareness
                                                                                            training in its FY 2005 Federal Information Security
                                         and Privacy                                        Management Act (FISMA) responses. As a result,
                                                                                            DoD, OMB, and congressional committees may make
                                                                                            management and budgetary decisions about technology
                                                                                            operations and security based on erroneous information
                                                                                            reported in the DoD annual FISMA response.

                                                                                            The Naval Audit Service verified that management
                                                                                            controls over protected personal information (PPI) were
                                                                                            adequate within Naval District Washington (NDW)
                                                                                            operations and systems to reduce the risk of unauthorized
Significant Accomplishments




                                                                                            disclosure. The Naval Audit Service found that the
                                                                                            NDW Privacy Act (PA) Coordinator did not administer
                                                                                            the NDW PA Program in accordance with Department
                                                                                            of Navy (DoN) guidance. Additionally, NDW program
                                                                                            offices did not always properly use, collect, safeguard,
                                                                                            and dispose of PPI; nor were there contingency plans in
                              The Department of Defense continues to be challenged          place to address the compromise of information. Those
                              by the need to provide a robust information security          weaknesses primarily existed because NDW personnel
                              program for its data, systems, operations, and initiatives.   did not adhere to established guidance, priority was
                              The DoD has not adopted National Institute of Standards       given to PA requests and responses rather than the overall
                              and Technology (NIST) standards or NIST guidelines            management of PPI, and the NDW PA Coordinator
                              established in Special Publications, nor has it issued        did not provide proper oversight. Improperly managing
                              updated DoD Directives and Instructions to reflect those      PPI increases the risk of violation of individual privacy
                              standards and guidelines. Further, it does not yet have a     rights by wrongful disclosure or transmission, which
                              comprehensive, enterprise-wide inventory of information       could result in legal and monetary liability for DON,
                              systems, to include warfighting mission area systems,         and subject employees and contract personnel to the risk
                              nor has it yet settled on a standard working definition       of identity theft. Recommendations were made to the
                              of “system” for purposes of management oversight and          Commandant, Naval District Washington who agreed to
                              congressional and Office of Management and Budget             take corrective action.
                              (OMB) reporting. Lack of progress in meeting these
                              challenges severely hampers the ability of the DoD            The Naval Audit Service issued two audit reports on
                              to protect operational information for the warfighter         disposal of protected personal information in the San
                              and privacy data for all employees, as well as perform        Diego, California, area. At both locations audited, the
                              basic fiduciary responsibilities and oversight for DoD        Naval Audit Service found that material sent to recycling
                              information technology expenditures.                          facilities contained protected personal information. The
                                                                                            Naval Audit Service recommended that each location
                                                                                            render protected personal information unrecognizable
                              Audit                                                         prior to releasing it for recycling.
                              The DoD IG issued a report that discusses information
                                                                                            The AFAA determined that Air Force officials could
                              assurance of Missile Defense Agency (MDA) information
                                                                                            improve the management of the Theater Deployable
                              systems. MDA did not accurately report the security status
                                                                                            Communications (TDC) Program in four of five critical
                              of information systems or include required supporting
                                                                                            areas. Specifically, personnel could not provide supporting
                              documentation for the certification and accreditation of
                                                                                            documentation to validate requirements for 38 TDC
                              the Ballistic Missile Defense System (BMDS) Security
                                                                                            packages valued at more than $75.8 million, and personnel
                              Authorization Agreement. MDA officials did not
                                                                                            at one unit stated they had no mission requirement for


                              52                                                                                          Semiannual Report to Congress
modules authorized but not on hand, valued at $556,831;       networking equipment to the Departments of Energy and
units did not maintain the required TDC equipment             Defense. They are awaiting trial in the Western District
to accomplish their mission; and personnel did not            of Washington. According to information found during
ensure all units assigned TDC equipment also received         a joint investigation by the DCIS, AFOSI, NCIS, and
the proper readiness spares package. In addition, unit        the Department of Energy Office of Inspector General,
personnel did not record all TDC equipment valued at          EGLOBE Solutions, Inc., intentionally substituted non-
over $7.9 million in the appropriate Air Force systems.       certified Sun computer servers, and sold CISCO Systems
Further, TDC users did not always record and program          computers equipment to the DoD from unauthorized
personnel did not fully evaluate maintenance data to          distribution channels, without valid software licenses
identify the operational readiness and effectiveness of       or warranties. Loss to the Government totaled over
TDC equipment. Finally, Air Force personnel did not           $788,000.
effectively track field change orders through completion
making systems potentially vulnerable to obsolete or




                                                                                                                             Significant Accomplishments
incompatible software or hardware, as well as safety issues
from improperly functioning equipment. Conversely,
while documentation supporting TDC modifications
was not always adequate, Air Force personnel generally
performed adequate evaluations of TDC equipment
modification proposals.

Investigations

                                                                DCIS special agents conduct information security training.

                                                            As a result of a joint investigation by DCIS; Bureau of
                                                            Alcohol, Tobacco, Firearms and Explosives; the FBI; and
                                                            the New York State Police, a former Marine was sentenced
                                                            to 210 months imprisonment and 20 years supervised
                                                            release after pleading guilty to the transportation of
                                                            child pornography and possession of ammunition by
                                                            a prohibited person. The man, who was previously
                                                            discharged from the Marines for wrongful disposition of
                                                            U.S. Government property, was discovered distributing
DCIOs special agents investigate computer intrusions child pornography over the internet. During a search of
involving DoD systems, as well as denial of service his residence, he was found to illegally possess explosives
attacks, virus and worm activity, and misuse that adversely and ammunition.
affect DoD’s Global Information Grid. They regularly
coordinate and train with other national intelligence and         Financial Management
law enforcement agencies involving counterintelligence,
criminal and fraud computer-evidence processing,
analysis, and diagnosis in computer investigations and See Chapter 3 for Financial Management significant
computer forensics. Several examples of Information accomplishments.
Technology investigations follow.
                                                                   Acquisition Process and
The president and vice president of EGLOBE Solutions,                Contract Management
Inc., were charged with conspiracy, mail fraud, and
counterfeit trademark for their role in the sale of counterfeit
and non-conforming CISCO Systems, Incorporated, and See Chapter 4 for Acquisition Process and Contract
                                                                Management significant accomplishment.

Department of Defense Inspector General                                                                                53
                                                                                         As of March 31, 2007, health care fraud constituted 8
                                              Health Care                                percent of the 1,543 DCIS Open Cases.

                                                                                          The MHS completed the Medical Readiness Review
                              The Military Health System (MHS) must provide in January 2007. The Under Secretary of Defense for
                              quality health care for approximately 9.2 million eligible Personnel and Readiness and the Director for Program
                              beneficiaries within fiscal constraints while facing growth Analysis and Evaluation established a medical readiness
                              pressures, legislative imperatives, and inflation. The review (MRR) to provide a comprehensive evaluation of
                              MHS challenge is magnified because it must provide DoD’s medical readiness posture. Specifically, the MRR
                              health support for the full range of military operations evaluated medical readiness capabilities, casualty estimates
                              and sustain the health of all those entrusted to its care.  and medical risks, medical capability needs, and medical
                                                                                          readiness resources. The MRR developed an inventory
                                                                                          of current medical readiness capabilities and identified
Significant Accomplishments




                                                                                          capabilities required for supporting various mission
                                                                                          scenarios. The MRR also developed FYs 2008 through
                                                                                          2013 manpower projections for medical readiness.

                                                                                         Audit

                                                                                         DoD IG resources focused on cost and quality issues.
                                                                                         The DoD IG continued audits of the Controls Over the
                                                                                         TRICARE Overseas Program, the Third Party Collection
                                                                                         Program, and the Supplemental Funds Used for Medical
                                                                                         Support for the GWOT (GWOT). The DoD IG also
                                                                                         completed an audit that focused on the process used to
                                                                                         report adverse events involving DoD beneficiaries in the
                                                                                         military treatment facilities.

                                                                                          During the second phase of the TRICARE Overseas
                                                                                          Program project the audit team provided significant
                                                                                          support to an ongoing DCIS health care investigation.
                                                                                          Phase one focused on program controls in the Philippines;
                                                                                          phase two of the project is focusing on the accuracy of
                                                                                          TRICARE overseas claim payments made to providers
                                                                                          in countries other than the Philippines and the potential
                                                                                          need for worldwide implementation of price caps for
                              A major challenge to the Department is sufficient oversight health care services provided overseas.
                              of the growing cost of health care. The frequency and
                              duration of military deployment further stresses the MHS The Assistant Secretary of Defense for Health Affairs
                              in both Active and Reserve Components. The DoD requested an audit of the Third Party Collection Program.
                              Budget for health care costs in FY 2007 is $39.4 billion, The program allows DoD to collect for health care
                              including $21.2 billion in the Defense Health Program provided to beneficiaries with health insurance other than
                              appropriation, $6.6 billion in the Military Departments’ TRICARE. A statistical sample of outpatient care showed
                              military personnel appropriations, $.4 billion for military that MHS administrators could improve collections
                              construction, and $11.2 billion for the contributions to with additional focus on procedures to identify patients’
                              the DoD Medicare Eligible Retiree Health Care Fund insurance status and to submit and follow up on insurance
                              to cover future costs of health care for Medicare eligible claims. The DoD IG is conducting the audit jointly with
                              retirees, retiree family members, and survivors. Part of AAA.
                              the challenge in delivering health care is combating fraud.

                              54                                                                                       Semiannual Report to Congress
                                                               2003 through 2005 TRICARE claims data disclosed that
   Medco Health Solutions (Medco) agreed                       private sector employers improperly billed TRICARE for
   to pay the United States $155 million plus                  medical services provided to military beneficiaries by off-
   interest to settle allegations that the company             duty Air Force health care providers. By law, TRICARE
                                                               cannot reimburse for medical treatment rendered by
   submitted false claims to the Government
                                                               active duty health care providers while in an off-duty
                                                               status (either acting as a sole proprietor or employed in
The Deputy Assistant Secretary of Defense for Clinical and a medical practice or hospital). Implementing controls
Program Policy asked the DoD IG to audit the Quality to identify erroneous claims will provide in excess of
Assurance Review Procedures in the DoD Healthcare $572,000 in monetary savings over the Future Years
System. The DoD IG reported that each of the seven Defense Program.
military treatment facilities visited maintained certification
from the Joint Commission on Accreditation of Healthcare Investigations




                                                                                                                             Significant Accomplishments
Organizations and had active and ongoing programs for
patient safety and risk management. However, healthcare The DCIOs conduct significant investigations involving
managers in the health system did not have sufficient TRICARE, a managed healthcare insurance program
visibility of medical incident events. Improved guidance administered by the Assistant Secretary of Defense
as well as consistent implementation and reporting from (Health Affairs) that provides health care to active duty
the patient safety and risk management programs will help and retired military personnel and their family members.
military health system managers monitor and improve the To ensure that DoD provides quality patient care to
quality of medical care in the military health system and DoD beneficiaries, the DCIOs have aggressively pursued
mitigate the risk of financial loss.                           health care investigations involving “harm to patient,”
                                                               corruption, kickbacks, and allegations with significant
AAA issued a report on contracts for medical goods TRICARE impact. Some investigations highlighting
and services for the Army’s Western Regional Medical their success follow.
Command. Four contracts reviewed had requirements
that were valid and justified, and Madigan Army Medical Medco Health Solutions (Medco) agreed to pay the United
Center used the services performed under each contract States $155 million plus interest to settle allegations that
as intended. Western Regional Medical Command used a the company submitted false claims to the Government;
unique team process that engaged the customer, command, solicited and accepted kickbacks from pharmaceutical
and the contracting office to identify the requirements manufacturers to favor their drugs; and paid kickbacks
and determine whether the deliverables were valid. In our to health plans to obtain business. Medco, the nation’s
opinion, the Position Management Review Team process second largest pharmacy benefit management company,
used by command was the essential key to ensuring the manages the prescription drug benefits of over 60 million
validity of the contracts.                                     Americans, including TRICARE beneficiaries. The
                                                               settlement resulted from a DCIS, Department of Health
The AFAA disclosed that military treatment facility and Human Services Office of the Inspector General
commanders could provide effective medical library (HHS OIG), and Office of Personnel Management Office
services at less cost by promoting and expanding the of the Inspector General investigation.
Air Force Medical Service virtual (on-line) library and
closing existing physical libraries. Closing the 13 physical Crawford and Company, Incorporated, a major healthcare
libraries and maximizing virtual library usage will allow management services contractor, agreed to pay the
the Air Force to achieve a cost savings of approximately Government $1.4 million as a result of a civil settlement to
$12.5 million over the Future Years Defense Program resolve allegations of filing false claims. An investigation
by reducing library personnel costs and eliminating found that Crawford submitted false claims for payment
redundant material requirements.                               for healthcare management, vocational rehabilitation,
                                                               employment, and related worker’s compensation services
The AFAA determined that the Air Force Surgeon General provided in the context of federal employees injured
oversight of medical off-duty employment needed on the job and veterans referred for such services. The
improvement. Specifically, an analysis of calendar years

Department of Defense Inspector General                                                                             55
                              investigation, conducted by DCIS, AFOSI, Department           Evaluation of DoD Efforts to Combat Trafficking in
                              of Labor Office of the Inspector General, US Postal Service   Persons (TIP): In response to the National Security
                              Office of the Inspector General, US Postal Inspection         Presidential Directive-22, the Secretary of Defense and
                              Service, and the State of New York, was initiated based       Deputy Secretary of Defense TIP policy memoranda, and
                              on previous investigations that established that Crawford     congressional interests, the Inspections and Evaluations
                              officials routinely directed its employees to fraudulently    directorate evaluated the effectiveness of DoD efforts to
                              bill customers.                                               successfully combat trafficking in persons. The report
                                                                                            was published in November 2006 and made 14 major
                              Comprehensive Cancer Centers, Inc. (CCC) entered into         recommendations in the areas of coordination, training,
                              a civil agreement to pay the Government $900,000 to           policy, and metrics. As a result of the recommendations
                              resolve a qui tam complaint alleging that CCC knowingly       and IG work in that area, the Department published
                              submitted false claims to TRICARE, Medicare, and other        DoD Instruction 2200.01, “Combating Trafficking in
                              federal health insurance programs. CCC managed an             Persons (CTIP),” February 16, 2007, incorporating all
Significant Accomplishments




                              outpatient cancer center known as the Comprehensive           appropriate recommendations. In addition, the Defense
                              Cancer Center at Desert Regional Medical Center               Federal Acquisition Regulation (DFAR) was modified
                              (DRMC) pursuant to an agreement between CCC and               to provide additional controls involving DoD contracts
                              Tenet Health Systems, Inc. (Tenet). DRMC is a medical         performed outside the United States. Those controls also
                              facility owned and operated by Tenet. DCIS and HHS            apply to subcontracts.
                              OIG investigated the allegations.
                                                                                            Corporal Tillman Review
                              Other Significant
                              Accomplishments
                              Trafficking in Persons




                                                                                            On March 26, 2007, at simultaneous briefings with the
                                                                                            family, Congress, and the press, the IG released a “Review
                                                                                            of Matters Related to the Death of Corporal Patrick
                                                                                            Tillman, U.S. Army.” The review, conducted by the DoD
                                                                                            IG Investigative Policy and Oversight (IPO) directorate,
                                                                                            responded to an Army Inspector General request, based
                                                                                            on Congressional and family interest, and involved the
                                                                                            actions taken by the chain of command following the
                                                                                            friendly fire death of Corporal Tillman in Afghanistan on
                                                                                            April 22, 2004. IPO scoped their review to determine
                                                                                            whether investigations were adequate, whether Army
                                                                                            notification of next of kin complied with regulations and
                                                                                            whether documentation to justify the posthumous award
                                                                                            of the Silver Star was accurate.
                              56                                                                                          Semiannual Report to Congress
During the review, the DoD IG found that Corporal             Presidential Rank Awards
Tillman’s chain of command made critical errors in
reporting his death and in assigning investigative            The President has publicly recognized two senior executives
jurisdiction in the days following his death, resulting in    within the Department of Defense Inspector General for
the chain of command bearing ultimate responsibility for      “long term accomplishments” and selected them to receive
the inaccuracies, misunderstandings, and perceptions of       2006 Presidential Rank Awards.
concealment which led to the review. Those errors, in
part, contributed to omissions and inadequacies in the         Recipients of the award are “nominated by their agency
three command investigations that followed Corporal            heads, evaluated by boards of private citizens, and
Tillman’s death.                                               approved by the President.” Winners are recognized as
                                                               strong leaders, professionals…who achieve results and
Additionally, the review concluded that Army officials consistently demonstrate strength, integrity, industry, and
failed to properly update family members when an a relentless commitment to excellence and service.




                                                                                                                            Significant Accomplishments
investigation was initiated into Corporal Tillman’s death
and that the justification for his Silver Star contained Acting DoD Inspector General Thomas F. Gimble received
inaccuracies.                                                  the Presidential Rank Award for Distinguished Executive.
                                                               Mr. Paul Granetto, Assistant Inspector General and
The DoD IG recommended that the Acting Secretary Director, Defense Financial Auditing Service, received the
of the Army consider appropriate corrective action with Presidential Award for Meritorious Senior Professional.
respect to nine officials, including four generals, identified
as accountable for the regulatory violations and errors in
judgment. Additionally, IPO recommended that the
Army initiate a review of the Silver Star award to ensure
it meets regulatory requirements. Prior to the review’s
release, the Army changed policy to include a delay in the
approval of posthumous valor awards until completion
of pending investigations, and strengthened guidance
concerning next of kin notification.

The U.S. Army Criminal Investigation Command
concurrently released the results of their investigation to
determine if there was any criminality involved in the
death of Corporal Tillman and the Afghanistan soldier
killed with him, and in the wounding of two additional
U.S. soldiers. Their investigation, with which the IG
concurred, concluded that the deaths and woundings were
accidental and the results of friendly fire. Additionally,
they found no ill will towards Corporal Tillman by other
members of his platoon.




                                                                Acting Principal Deputy Inspector General Richard T. Race
                                                                          presents the Presidential Rank Awards.

Department of Defense Inspector General                                                                              57
                              Defense Criminal Investigative Service Turns 25

                                                        The Defense Criminal Investigative
                                                        Service recognized its 25th anniversary
                                                        during this reporting period. DCIS
                                                        has 325 special agents. DCIS devotes
                                                        investigative resources to terrorism,
                                                        product substitution, computer crimes,
                                                        illegal technology transfers, and public
Significant Accomplishments




                                                        corruption.




                              58                                             Semiannual Report to Congress
I
nspector General
Components

                   6
                               T
                                      his chapter describes the DoD IG organizational     Significant Open
                                      structure and the duties and roles of each          Recommendations
                                      component.
                                                                                          Managers accepted or proposed acceptable alternatives for
                                                                                          99 percent of the 279 DoD IG audit recommendations
                                 Deputy Inspector General                                 rendered in the first 6 months of FY 2007. Many
                                       for Auditing                                       recommendations require complex and time consuming
                                                                                          actions, but managers are expected to make reasonable
                               The Office of the Deputy Inspector General for Auditing    efforts to comply with agreed upon implementation
                               (ODIG-AUD) conducts audits on all facets of Department     schedules. Although most of the 1,127 open actions on
                               of Defense (DoD) operations. The work results in           DoD IG audit reports being monitored in the follow-
                               recommendations for reducing costs, eliminating fraud,     up system are on-track for timely implementation, there
                               waste, and abuse of authority, improving performance,      were 214 reports more than 12 months old, dating back
                               strengthening internal controls, and achieving compliance  as far as 1994, for which management did not complete
                               with laws, regulations, and policies. Audit topics are     actions to implement the recommended improvements.
                               determined by law, by requests from the Secretary of       Significant open recommendations that have yet to be
                               Defense and other DoD leadership, by Hotline allegations,  implemented are listed below.
                               congressional requests, and internal analyses of risk in
                               DoD programs.                                               • Recommendations made in 1997 and subsequent
                                                                                           years to make numerous revisions to the DoD Financial
                               DoD Audit Community                                         Management Regulations; clarify accounting policy
Inspector General Components




                                                                                           and guidance; improve accounting processes, internal
                               The defense audit community consists of the DoD controls over financial reporting, and related financial
                               Inspector General (IG), the Army Audit Agency, the systems compliance; and develop a plan for performance
                               Naval Audit Service, and the Air Force Audit Agency. characteristics and training requirements for the DoD
                               As a whole, the organizations issued 220 reports, which financial management workforce have resulted in initiatives
                               identified the opportunity for almost $2.15 billion in that are underway to correct financial systems deficiencies
                               monetary benefits. Appendix A lists reports issued by and enable the Department to provide accurate, timely,
                               central DoD internal audit organizations. Appendix B and reliable financial statements. Also, a June 2006 audit
                               lists DoD IG reports with potential monetary benefits, report stated that implementation of Army accounting
                               and Appendix C statistically summarizes audit follow-up systems needed to eliminate more than $72.2 billion in
                               activity.                                                   unsupportable accounting adjustments and $1.2 trillion
                                                                                           in unresolved abnormal balances has been delayed for the
                               The Defense Contract Audit Agency (DCAA) provided second year. Originally scheduled for implementation in
                               financial advice to contracting officers in 14,760 audits September 2005, the Defense Departmental Reporting
                               during the period. The contract audits resulted in over System – Budgetary (part of the Business Enterprise
                               $7.4 billion in questioned costs and funds that could be Information Services) now has an October 2007 estimated
                               put to better use. Appendix D contains the details of completion date for parallel testing with the legacy system
                               the audits performed. Contracting officers disallowed and validation to ensure that abnormal balances and year-
                               $140.3 million (45.6 percent) of the $307.7 million end balances are correctly processed and reported.
                               questioned as a result of significant post-award contract
                               audits during the period. The contracting officer • Recommendations from multiple reports in the
                               disallowance rate of 45.6 percent represents a significant high-risk area of personnel security. Some of the most
                               increase from the disallowance rate of 13.5 percent for the significant recommendations include: development of a
                               prior reporting period. However, the number of audits prioritization process for investigations; establishment
                               exceeding the guidelines has increased by 33.6 percent to of minimum training and experience requirements and
                               $2.6 billion in costs questioned overage and not resolved a certification program for personnel granting security
                               and dispositioned. Additional details of the amounts clearances; issuance of policy on the access by all
                               disallowed are found in Appendix E.                         contractors, including foreign nationals, to unclassified

                               60                                                                                       Semiannual Report to Congress
but sensitive DoD Information Technology (IT) systems;        award a pharmaceutical returns contract that will ensure
establishment of policy on access reciprocity and a           the costs for services provided are reasonable and the
single, integrated database for Special Access Programs;      credits received are complete, and trends are analyzed to
implementation of steps to match the size of the              determine whether to modify inventory levels or ordering
investigative and adjudicative workforces to the clearance    practices. Implementation of the improvements is
workload; development of DoD-wide backlog definitions         ongoing.
and measures; monitoring the backlog using the DoD-
wide measures; and improvement of the projections of          • Recommendations made in 2004, 2005 and 2006
clearance requirements for industrial personnel. Progress     regarding the Performance-Based Logistics Program (PBL)
on the unprecedented transformation of the personnel          that include: refining a process for the PBL process for
security program is slow but steady. Issues are being         reporting and institutionalizing a common data collection
actively addressed by interagency working groups.             and reporting system to include Life Cycle Sustainment
                                                              Metrics and Special Interest Items; development of PBL
• Recommendations made in 2004 to define network              strategies to balance logistics support and improvements
centric warfare and its associated concepts; formalize        in cost effectiveness of logistics products and services;
roles, responsibilities, and processes for the overall        establishing management and oversight written procedures
development, coordination, and oversight of DoD               for PBL contracts; and ensuring PBL initiatives are fully
network centric warfare efforts; and develop a strategic      implemented for weapon systems. Progress is being made
plan to guide network centric warfare efforts and monitor     but the actions are not complete.
progress. DoD guidance was updated to reflect relevant
definitions that were developed. Limitations in funding         Deputy Inspector General




                                                                                                                           Inspector General Components
have necessitated deferring revisions to the applicable DoD
Directive and Instruction until FY 2008, and ongoing               for Investigations
experiments delayed development of the strategic plan.
                                                           The Office of the Deputy Inspector General for
• Recommendations made in 2004 to clarify guidance on Investigations (ODIG-INV) comprises the criminal and
the differences between force protection and antiterrorism the administrative investigative components of the DoD
in DoD policies and procedures. DoD revised its applicable IG. The Defense Criminal Investigative Service is the
guidance in October 2006. The Services are now in criminal investigative component of the DoD IG. The
process of updating their corresponding guidance.          non-criminal investigative units include the Directorate
                                                           for Investigations of Senior Officials (ISO), the Directorate
• Recommendations made in 2003, 2004, and 2005 to for Military Reprisal Investigations (MRI), and the
address issues regarding information systems security, Directorate for Civilian Reprisal Investigations (CRI).
including completion of the information security
certification and accreditation process for various DoD Defense Criminal Investigative
systems and development of an adequate Plan of Action and Service
Milestones to resolve critical security weaknesses. Those
actions need to be completed to address requirements of DCIS is tasked with the mission to protect America’s
the Federal Information Security Management Act and warfighters by conducting investigations in support
related OMB guidance. Although some actions were of crucial national defense priorities. DCIS conducts
initiated, they are not adequate to correct the identified investigations of suspected major criminal violations
deficiencies, nor were they adequately incorporated in the focusing mainly on terrorism, product substitution/
revision to the applicable instruction.                    defective parts, cyber crimes/computer intrusion, illegal
                                                              technology transfer, and other crimes involving public
• Recommendations made in 2004 in the Health Care             integrity including bribery, corruption, and major theft.
issue area. Those include improvements in the acquisition     DCIS also promotes training and awareness in all elements
of direct care medical services such as: an initiative to     of the DoD regarding the impact of fraud on resources and
more effectively and efficiently employ contract medical      programs by providing fraud awareness presentations.
personnel throughout the Military Health System, and


Department of Defense Inspector General                                                                           61
                               Reportable Judgments                                       Task Force is to increase civil and criminal enforcement
                                                                                          where it can have the greatest effect, including defective
                                                   During this reporting period, pricing, product substitution, misuse of classified and
                                                   investigations conducted by the procurement sensitive information, false claims, grant
                                                   Defense Criminal Investigative Service fraud, labor mischarging, fraud involving foreign military
                                                   returned over $158 million to the sales, ethics and conflict of interest violations, and public
                                                   U.S. Government through criminal, corruption associated with procurement fraud. The Task
                                                   civil, and administrative judgments.   Force also focuses on maximizing information sharing
                                                                                          amongst enforcement agencies tasked with investigating
                                                   Reportable judgments on health care fraud, waste, and abuse.
                                                   investigations accounted for over $135 	
                                                   million. These judgments resulted Directorate for Investigations
                               from a total of five investigations involving individual of Senior Officials
                               health care providers, hospitals and health care systems,
                               and pharmaceutical companies. One single investigation
                                                                                          The DoD IG Directorate for Investigations of Senior
                               accounted for $132.4 million.
                                                                                          Officials conducts investigations into allegations against
                                                                                          senior military and civilian officials and performs oversight
                               Public corruption investigations accounted for over $12
                                                                                          of senior official investigations conducted by the military
                               million of the returned monies. One single investigation
                                                                                          departments.
                               accounted for $8 million.
Inspector General Components




                                                                                          Figures 1 and 2 (page 63) show results of activity on senior
                               Financial crime and procurement fraud, to include
                                                                                          official cases during the first 6 months of FY 2007. On
                               defective products, accounted for over $11 million of the
                                                                                          April 1, 2007, there were 183 ongoing investigations into
                               returned monies. One single investigation accounted for
                                                                                          senior official misconduct throughout the Department,
                               $5.6 million.
                                                                                          representing a slight decrease from September 30, 2006,
                                                                                          when we reported 186 open investigations. Over the
                               National Procurement Fraud                                 past 6 months, the Department closed 147 senior official
                               Task Force                                                 cases, of which 21 (14 percent) contained substantiated
                                                                                          allegations.
                               DCIS continues to play an extremely active role in the
                               National Procurement Fraud Task Force (NPFTF). Directorate for Military
                               NPFTP was created by Deputy Attorney General Paul J.
                                                                                          Reprisal Investigations
                               McNulty on October 10, 2006, to promote the prevention,
                               early detection and prosecution of procurement fraud.
                                                                                          The DoD IG Directorate for Military Reprisal Investigations
                               “Procurement fraud cheats American taxpayers and harms
                                                                                          (MRI) conducts investigations and performs oversight of
                               the government’s efforts to obtain the goods and services
                                                                                          investigations conducted by the Military Department
                               needed for its mission,” said Deputy Attorney General
                                                                                          and Defense Agency Inspectors General (IGs). Those
                               McNulty when the Task Force was formed. “At a time
                                                                                          investigations pertain to:
                               of heightened concern for our nation’s security, every tax
                               dollar is precious. We simply cannot tolerate fraud and
                                                                                          • Allegations that unfavorable actions were taken against
                               abuse in government contracting.”
                                                                                          members of the Armed Forces, non-appropriated fund
                                                                                          employees, and Defense contractor employees in reprisal
                               The Task Force is chaired by the Assistant Attorney
                                                                                          for making protected communications.
                               General for the Criminal Division, and currently includes
                               DCIS, the Military Criminal Investigative Organizations,
                                                                                          • Allegations that members of the Armed Forces were
                               the FBI, numerous Inspectors General throughout
                                                                                          referred for mental health evaluations without being
                               government, federal prosecutors from United States
                                                                                          afforded the procedural rights prescribed in the DoD
                               Attorneys offices across the country and representatives
                                                                                          Directive and Instruction.
                               from the Criminal, Civil, Antitrust and Tax Divisions
                               of the Department of Justice. A primary goal of the
                               62                                                                                          Semiannual Report to Congress
            Figure 1: Nature of Substantiated Allegations Against
                    Senior Officials During 1st Half FY 07

                                   Other
                                 Misconduct                                               Failure to Act
                                    33%                                                        5%

                                                                                                              Abuse of
                                                                                                              Authority
                                                                                                                26%




               Misuse/Waste




                                                                                                                                 Inspector General Components
                                                                           Sexual
                 of Govt                                                Improprieties
                Resources                                                   8%
                   28%
                                    147 Cases Closed                  21 Substantiated

                            Figure 2: DoD Total Senior Offical Cases
                                        FY 2002 - FY 2007

                                                                                      This chart shows the total number of
    600                                                                               senior official investigations conducted
                503
                                                           489
                                                                                      in DoD over the past six fiscal years.
    500               460           466              472
                                                                         503
                                                                               468
                                          427                                                      416

    400
                                                                                             327

    300

    200                                                                                                              147
                                                                                                               124
                                                                                     86
    100                     70
                                                57               52
                                                                                                         73

                                                                                                                           21

        0
                  FY02               FY03             FY04                FY05                 FY06              FY07

                                          Opened           Closed              Substantiated
Department of Defense Inspector General                                                                                     63
                               Whistleblower Reprisal Activity                                allegations that service members were referred for mental
                                                                                              health evaluations in reprisal for making protected
                               During the reporting period, MRI and the Military              communications.
                               Department IGs received 243 complaints of whistleblower
                               reprisal. We closed 216 cases during this period. Of           Directorate for Civilian
                               those cases, 143 were closed after preliminary analysis        Reprisal Investigations
                               determined further investigation was not warranted. Full
                               investigations were conducted for 73 cases, resulting in 12    The mission of the Civilian Reprisal Investigations
                               substantiated cases.                                           Directorate (CRI) is to conduct and oversee allegations of
                                                                                              whistleblower reprisal made by DoD civilian employees
                               The MRI and the Military Departments currently have            and submitted to the DoD IG. CRI also provides support
                               338 open cases involving allegations of whistleblower          to DoD component Inspectors General regarding civilian
                               reprisal.                                                      reprisal cases, ensures DoD IG compliance with the
                                                                                              Office of Special Counsel’s Section 2302(c) whistleblower
                               Examples of Substantiated                                      protection certification program, and conducts outreach
                               Whistleblower Reprisal Cases                                   to stakeholders of DoD’s whistleblower protection
                                                                                              program.
                               An Army National Guard sergeant alleged that in reprisal
                               for making EO, IG and Congressional complaints,                Deputy Inspector General
                               he was issued an unfavorable evaluation report, not                      for Intelligence
                               recommended for an award for service in Iraq and was
Inspector General Components




                               restricted from contacting a member of Congress. After The Office of the Deputy Inspector General for Intelligence
                               an Army investigation substantiated the sergeant’s reprisal (ODIG-INTEL) audits, evaluates, monitors, and reviews
                               allegation, a supervisor received a letter of reprimand.    the programs, policies, procedures, and functions of
                                                                                           Intelligence Community, Special Access Programs, and
                               A major in the Air National Guard alleged that her Nuclear Surety issues within the DoD. The ODIG-
                               commander, who suspected she made an IG complaint, INTEL oversees the intelligence-related activities within
                               relieved her of her duties and restricted her from making the DoD Components, primarily at the DoD, Service, and
                               protected communications outside her chain of command. Combatant Command levels, ensuring that intelligence
                               An Air Force investigation substantiated the allegation and intelligence-related resources are properly, effectively,
                               against the commander. Corrective action is pending.        and efficiently managed. The ODIG-INTEL also
                                                                                           conducts oversight of Service and Defense agency reviews
                               An Air Force staff sergeant alleged he received a Letter of security and counterintelligence within all DoD test
                               of Admonishment and an unfavorable evaluation report and laboratory facilities. The Office of Deputy Inspector
                               in reprisal for reporting faulty aircraft maintenance General for Intelligence is a center of excellence dedicated
                               to his chain of command. An Air Force investigation to enhancing the capabilities of the DoD intelligence
                               substantiated the staff sergeant’s allegations. Corrective activities through an informed and authoritative oversight
                               action is pending.                                          program.

                               Referrals for Mental Health                                    The DoD IG, the IGs of the Department of the Air
                               Evaluations                                                    Force, Defense Intelligence Agency, National Geospatial-
                                                                                              Intelligence Agency, National Reconnaissance Office, and
                               We closed 27 cases involving allegations of improper           National Security Agency/ Central Security Service; the
                               referrals for involuntary mental health evaluations during     Army Audit Agency; the Naval Audit Service; the Air
                               the reporting period. In 18 of those cases, we substantiated   Force Audit Agency; the Naval Criminal Investigative
                               that command officials and mental health care providers        Service, and the Defense Contract Audit Agency
                               failed to follow the procedural requirements under             completed 113 intelligence-related and other classified
                               DoD Directive 6490.1, “Mental Health Evaluations of            and sensitive reports. The reports are categorized into the
                               Members of the Armed Forces.” We did not substantiate

                               64                                                                                           Semiannual Report to Congress
                          Figure 3: Intelligence Related Reports

   DoD Management                 DoD IG        Defense Agencies Military Departments               Total
     Challenge Area
    Joint Warfighting                 0                 32                      1                     33
      and Readiness
     Human Capital                    0                 10                      1                     11
       Information                    0                  3                      3                      6
   Security and Privacy
       Acquisition                    1                  8                      4                     13
      Processes and
         Contract
      Management
        Financial                     2                  9                      3                     14
      Management
       Health Care                    0                  0                      0                      0
          Other                       3                 23                     10                     36
          Total                       6                 85                     22                    113

areas shown in Figure 3 (above). A listing and highlights




                                                                                                                        Inspector General Components
of the 113 reports can be found in the Classified Annex to     Deputy Inspector General
this report and a summary of the each report is included       for Policy and Oversight
in the Classified Annex.
                                                             The Office of the Deputy Inspector General for Policy
The Intelligence Community Inspectors and Auditors           and Oversight provides oversight and policy for Audit
General continued to coordinate and share information        and Investigative activities within DoD; manages the
to improve the effectiveness and efficiency of oversight     DoD Hotline; conducts inspections and evaluations;
of DoD intelligence activities. Within the intelligence      provides technical, statistical, and quantitative advice
community, the Intelligence Community Inspectors             and support to IG projects; conducts data mining;
General Forum serves as a mechanism for sharing              monitors corrective actions taken in response to IG and
information among inspectors general whose duties            Government Accountability Office (GAO) reports; and
include audit, evaluation, inspection, or investigation      serves as DoD central liaison with GAO on reports and
of programs and operations of Intelligence Community         reviews regarding DoD programs and activities.
elements. The Forum met on December 17, 2006, and
March 27, 2007. See the Classified Annex to this report Audit Policy and Oversight
for information on those meetings.
                                                           The Office of Assistant Inspector General for Audit
Within DoD, the Joint Intelligence Oversight Coordination Policy and Oversight (APO) provides policy direction
Group comprises senior representatives from the Office and oversight for audits performed by over 6,500 DoD
of the Secretary of Defense, the inspectors general of the auditors in 24 DoD organizations, ensures appropriate
Defense intelligence agencies, and military department use of non-federal auditors and their compliance with
audit, evaluation, and inspection organizations. The auditing standards and ensures that contracting officials
objectives of the Group are to improve the effectiveness comply with statutory and regulatory requirements when
and efficiency of DoD oversight of intelligence activities resolving contract audit reports. During the reporting
by identifying areas needing more emphasis and period, APO completed three hotline reviews on contract
deconflicting oversight programs. The Group held its audit issues related to progress payment reviews, Earned
quarterly meeting December 9, 2006. See the Classified Value Management System reviews, incurred cost audits,
Annex to this report for information on the meeting.


Department of Defense Inspector General                                                                        65
                               and time and attendance; one contract audit followup          coordinated before release. The Directorate distributes
                               hotline review on TRICARE failing to comply with              information regarding GAO activities to DoD auditing
                               Federal Acquisition Regulation (FAR) requirements for         and other oversight organizations to facilitate identifying
                               a sole source award; one follow-up review to determine        unnecessary overlap or duplication. During this 6-month
                               if a Certified Public Accounting firm we referred to          period, the Directorate processed 87 reviews and 144 draft
                               the American Institute of Certified Public Accountants        and final reports.
                               for inadequate work had corrected a Single Audit Act
                               compliance review; and one quality control review of an       Data Mining Directorate
                               internal review audit organization.
                                                                                             The DoD IG Data Mining Directorate continues its
                               APO staff also participated on six DoD and Government-        primary mission of expanding and enhancing the use of
                               wide working groups that address significant issues           data mining with computer assisted auditing techniques
                               impacting DoD audit and accountability professionals;         as analysis tools to combat fraud, waste and abuse in DoD
                               provided DoD comments on three draft auditing and             programs.
                               accounting standards and policy documents to ensure
                               policy guidance for all DoD auditors and accountants          During this reporting period, the DoD IG Data Mining
                               focus on accountability and transparency; coordinated the     Directorate worked jointly:
                               IG review of 19 revisions to the procurement regulations,
                               commenting on four to ensure the revisions do not             • DoD IG and the Service Audit communities on 23
                               adversely impact DoD; and provided training to internal       audit reports covering various topics within the DoD
                               auditors on how to perform peer reviews in accordance         community;
Inspector General Components




                               with the President’s Council on Integrity and Efficiency
                               guidance, and on the revisions to Government Auditing         • DoD IG and the Service MCIO communities on 85
                               Standards to ensure an understanding of the changes to        investigations involving criminal activity.
                               assist in proper and timely implementation by the over
                               6,500 DoD auditors.                                           In addition, the Data Mining Directorate supported four
                                                                                             Government IGs in setting up their own data mining
                               Report Followup and GAO                                       efforts.
                               Liaison Directorate
                                                                                             DoD Hotline
                               The Report Followup and GAO Liaison Directorate
                               monitors the progress of agreed-upon corrective actions       The DoD IG hotline continues its primary mission of
                               taken by DoD managers in response to IG and GAO report        providing a confidential and reliable means for DoD civilian
                               recommendations. The Directorate obtains and evaluates        and contractor employees, military service members, and
                               documentation of progress and completion of corrective        the public to report fraud, waste, mismanagement, abuse
                               actions, and maintains a complete record of actions taken.    of authority, threats to homeland security and leaks of
                               During this 6-month period, final corrective action was       classified information for the Department of Defense.
                               completed on 87 reports and 336 recommendations. The
                               Directorate also oversees a process to facilitate mediation   Also, we continued an aggressive marketing campaign
                               of disputes regarding IG recommendations to achieve           that has included responding to 397 requests from DoD
                               agreement.                                                    contractors and the military services for DoD IG Hotline
                                                                                             fraud, waste and mismanagement posters.
                               The Directorate also serves as the DoD central liaison
                               with GAO on matters concerning GAO reviews and                During this reporting period, the DoD IG hotline received
                               reports regarding DoD programs and activities. That           6,455 contacts from the public and members of the DoD
                               includes monitoring ongoing reviews to facilitate             community, initiated 837 investigations and closed 1,107
                               appropriate DoD actions. That also includes monitoring        cases. We received 26 Congressional inquiries and 119
                               and facilitating the preparation of DoD responses to          investigative referrals from the Government Accountability
                               GAO reports to ensure the responses are appropriately         Office.

                               66                                                                                           Semiannual Report to Congress
In an effort to increase the ability of our military,        Technical Assessment
contractors, and civilians in the Southwest Asia region to   Directorate
report allegations of fraud, waste, and abuse, the DoD
IG established a special toll-free Defense Hotline number,    The Technical Assessment Directorate provides
which is accessible from Qatar, Afghanistan, and Iraq.        technical advice to the DoD and conducts assessments
The DoD IG developed three Southwest Asia specific            to improve the economy, efficiency, and effectiveness
hotline posters and began distribution to major military      of Defense programs, operations, and oversight. The
units and commands throughout the theater during this         directorate focuses on acquisition, program management,
reporting period.                                             engineering, and information technology issues. During
                                                              the reporting period, the Directorate provided technical
Inspections and Evaluations                                   expertise and assessments that expanded the audit coverage
Directorate                                                   of systems engineering and information assurance. As a
                                                              result, Defense programs for systems engineering and
The Office of the Assistant Inspector General for Inspections information security are improved in audited systems.
and Evaluations conducts objective and independent
customer-focused management and program inspections Office of Communications
addressing areas of interest to Congress and the DoD, and
provides timely findings and recommendations leading to and Congressional Liaison
positive change in programs.
                                                              The Office of Communications and Congressional
                                                              Liaison (OCCL) supports the DoD IG by serving as the




                                                                                                                           Inspector General Components
Investigative Policy and                                      contact for communications to and from Congress, and by
Oversight Directorate                                         serving as the DoD IG Public Affairs Office. The OCCL
                                                              also includes the Freedom of Information Act Requester
The Office of the Assistant Inspector General for Service Center/Privacy Act (FOIA/PA) Office.
Investigative Policy and Oversight evaluates the
performance and develops/implements policy for the In addition, the OCCL provides staff support and serves
DoD law enforcement community and the non-criminal as the liaison for the DoD IG to the President’s Council on
investigative offices of the DoD. The Directorate also Integrity and Efficiency (PCIE) and the Defense Council
manages the IG Subpoena Program for the DCIOs and on Integrity and Efficiency (DCIE).
administers the DoD Voluntary Disclosure Program,
which allows contractors a means to report potential In January 2007, the DoD IG became the Chairman
internal civil or criminal fraud matters.                     of the newly established PCIE Information Technology
                                                              Committee.       OCCL also supports the DoD IG
Quantitative Methods                                          participation in the PCIE by publishing the Journal of
Directorate                                                   Public Inquiry.

The Quantitative Methods Directorate ensures that            OCCL organizes and supports meetings of the DCIE,
quantitative methods, analyses, and results used in DoD      which are also chaired by the DoD IG. The DOD IG
IG products are defensible. The Directorate accomplishes     holds quarterly DCIE meetings. DCIE meetings are
that by providing expert statistical/quantitative support    used as a forum to discuss issues related to oversight
and advice to DoD IG projects, and by assessing the          within DoD. During the last reporting period the DCIE
quantitative aspects of DoD IG products prior to their       discussed many topics including information technology
release. Quantitatively defensible products employ           security, evaluating emergency preparedness, the timeliness
methodology that is technically sound and appropriate        of military criminal investigations, the Federal Equal
for the objectives of the project, employ analyses that      Employment Opportunity complaint program, and DoD
are performed correctly and are consistent with the          purchase made through other agencies. In addition, at
methodology, and appropriately present the quantitative      each meeting different member organizations provide
results.                                                     mission briefings which enable the DCIE members to


Department of Defense Inspector General                                                                           67
                               better understand how their oversight roles are related     on Armed Services regarding “Department of Defense
                               within the Department. During this reporting period the     contracting for services and inter-Agency contracting.”
                               briefings were provided by the National Guard Bureau,       Mr. Gimble addressed the findings from joint audits
                               National Security Agency, and National Reconnaissance       completed at four agencies: GSA, the Department of the
                               Office.                                                     Interior, the Department of the Treasury, and the National
                                                                                           Aeronautics and Space Administration. Collectively, those
                               Comments on Legislation/                                    agencies awarded 54,022 contract actions valued at about
                               Testimony                                                   $5.4 billion for DoD during FY 2005. To conduct the
                                                                                           audits, the DoD IG reviewed 352 contract actions valued
                               Section 4(a) of the Inspector General Act requires the      at about $1.0 billion.
                               Inspector General “to review existing and proposed
                               legislation and regulations relating to the programs and     On November 11, 2006, Mr. Thomas F. Gimble,
                               operations of [the Department of Defense]” and to            Principal Deputy Inspector General, Department of
                               make recommendations “concerning the impact of such          Defense, testified before the Permanent Subcommittee on
                               legislation or regulations on the economy and efficiency     Investigations Senate Committee on Homeland Security
                               in the administration of programs and operations             and Governmental Affairs regarding IG audit report,
                               administered or financed by [the Department] or the          “Management and Use of the Defense Travel System.”
                               prevention and detection of fraud and abuse in such          Mr. Gimble discussed the audit findings. Specifically, the
                               programs and operations.” The DoD IG is given the            Department could not provide supporting documentation
                               opportunity to provide information to Congress by            to substantiate all DTS and legacy system cost data. As
                               participating in congressional hearings and briefings.       a result, it was not possible for the IG to determine
Inspector General Components




                                                                                            whether DTS was the most cost-effective way to meet the
                               On March 20, 2007, Mr. Thomas F. Gimble, Acting Department’s travel management needs or even to fully
                               Inspector General Department of Defense testified before quantify cost savings that might have been realized by
                               the Senate Judiciary Committee regarding “Combating using DTS.
                               War Profiteering: Are We Doing Enough to Investigate
                               and Prosecute Contracting Fraud and Abuse in Iraq.” The DoD IG sponsored a legislative proposal for the
                               Mr. Gimble described the current efforts of the Defense National Defense Authorization Act for FY 2008 that
                               Criminal Investigative Service (DCIS), the criminal would require federal contractors to inform their employees
                               investigative arm of the DoD Inspector General. in writing of their whistleblower rights. In addition, the
                               Specifically Mr. Gimble detailed how the IG was engaged DoD IG also regularly reviews new and revised regulations
                               in investigating DoD-related matters pertaining to the proposed by the Department of Defense. During this
                               Iraqi theater, to include Kuwait, since the start of the reporting period, the DoD IG reviewed 108 draft issuances
                               war.                                                         or re-issuances of DoD directives, instructions, manuals,
                                                                                            and policy guidance.
                               On January 18, 2007, Mr. Thomas F. Gimble, Acting
                               Inspector General Department of Defense, testified before
                               the House Armed Services Committee regarding the
                               “Audit of Reconstruction and Support Activities in Iraq.”
                               Mr. Gimble discussed the IGs efforts to (1) establish an in-
                               country oversight presence, (2) expand oversight coverage
                               of funds that are predominantly being executed in the
                               United States, and (3) improve interagency coordination
                               and collaboration to minimize duplicative efforts within
                               the oversight community.

                               On January 17, 2007, Mr. Thomas F. Gimble, Acting
                               Inspector General Department of Defense, testified before
                               the Subcommittee on Readiness, Senate Committee

                               68                                                                                         Semiannual Report to Congress
                                             APPENDIX A

                           REPORTS ISSUED BY CENTRAL DOD
                           INTERNAL AUDIT ORGANIZATIONS




                                                                                                                           Appendix A
   Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and consulting reports
   issued by the Army Audit Agency.

   Copies of reports may be obtained from the appropriate issuing office by calling:

   	       DoD OIG							                                                   Army Audit Agency
   	       (703) 604-8937						                                             (703) 681-9863
   	       http://www.dodig.mil						                                       http://www.hqda.army.mil/aaaweb

   	       Naval Audit Service						                                        Air Force Audit Agency
   	       (202) 433-5525						                                             (703) 696-7904
   	       http://www.hq.navy.mil/NavalAudit				                            www.afaa.hq.af.mil

   							

       Summary of Number of Reports by Management Challenge Area
                    October 1, 2006 to March 31, 2007


                                                                        DoD OIG           Military Depts.           Total
   Joint Warfighting and Readiness                                         11                   33                    44
   Human Capital                                                            -                   17                    17
   Information Security and Privacy                                         8                    11                   19
   Acquisition Processes/Contract Management                               17                    37                   54
   Financial Management                                                    38                    32                   70
   Health Care                                                              1                     5                    6
   Other                                                                    2                     8                   10
    Total                                                                  77                   143                  220
   For information on intelligence-related reports, including those issued by other Defense agencies, refer to the classified
   annex to this report.

   * Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
   5(a)(6) (See Appendix B)




Department of Defense Inspector General                                                                             69
                                                     D-2007-069 Force Structure             A-2007-0052-ALE Reconstitution—
              Joint Warfighting                      Changes in the U.S. Pacific            Direct Support and Below
                and Readiness                        Command – Programming                  Maintenance in U.S. Army, Europe
                                                     for Increased Annual Costs             and Seventh Army (01/17/07)
                                                     (03/12/2007)
                         DoD IG                                                             A-2007-0053-ALE Reconstitution—
                                                     D-2007-070 Force Structure             Supply Management Operations
Appendix A




                                                     Changes in the U.S. Pacific            in U.S. Army, Europe and Seventh
             D-2007-001 Information                  Command – Roles and                    Army (01/19/07)
             Operations Activities in Southwest      Responsibilities of Headquarters and
             Asia (CLASSIFIED) (10/06/2006)          Support Functions (03/12/2007)         A-2007-0054-ALR Followup Audit
                                                                                            of Aviation Tracked Components,
             D-2007-002 Use of DoD Resources         D-2007-076 Force Structure             U.S. Army Aviation and Missile
             Supporting the Hurricane Katrina        Changes in the U.S. Pacific            Life Cycle Management Command
             Disaster (10/16/2006)                   Command – Guam (CLASSIFIED)            (01/16/07)
                                                     (03/26/2007)
             D-2007-010 The Army Small Arms                                                 A-2007-0061-ALL Asset Visibility in
             Program That Relates to Availability,                                          Support of Operation Iraqi Freedom
             Maintainability, and Reliability of       Army Audit Agency
                                                                                            and Operation Enduring Freedom—
             the Small Arms Support for the                                                 Army Reserve Equipment, Fort
             Warfighter (11/02/2006)                 A-2007-0002-ALA Army Aviation          McCoy and Fort Dix Mobilization
                                                     Capabilities (10/16/06)                Stations (01/30/07)
             D-2007-034 Transportation
             Policies, Procedures, and Processes     A-2007-0005-FFP Logistics Support      A-2007-0070-FFE Followup Audit
             Implemented to Meet DoD                 for Operation Enduring Freedom—        of Range Inventory, Deputy Chief of
             Customer Demands (12/14/2006)           Philippines (10/12/06)                 Staff, G-3/5/7 (02/06/07)
             D-2007-049 Equipment Status of          A-2007-0015-ALE Maintenance            A-2007-0071-ALE Reconstitution of
             Deployed Forces Within the U.S.         of Left Behind Equipment in U.S.       Secondary Items, U.S. Army, Europe
             Central Command (CLASSIFIED)            Army, Europe and Seventh Army          and Seventh Army (02/12/07)
             (01/25/2007)                            (10/31/06)
                                                                                            A-2007-0075-ALL Asset Visibility in
             D-2007-051 Department of Defense        A-2007-0027-FFE Followup Audit         Support of Operation Iraqi Freedom
             Inspector General’s Report on the       of Installation Preparedness for       and Operation Enduring Freedom,
             2005 Defense Base Closure and           Weapons of Mass Destruction            3d Infantry Division, Fort Stewart
             Realignment Commission’s Report         (11/29/06)                             (02/15/07)
             Recommendation #193 Regarding
             Cecil Field, Florida (01/25/2007)       A-2007-0047-ALR Tracked and            A-2007-0088-ALE Reset of Aviation
                                                     Wheeled Vehicle Assets, U.S. Army      Assets, U.S. Army Aviation and
             D-2007-064 Implementation of            TACOM Life Cycle Management            Missile Life Cycle Management
             the Commanders’ Emergency               Command (01/25/07)                     Command (03/08/07)
             Response Program in Afghanistan
             (02/28/2007)                            A-2007-0048-FFF Reserve                A-2007-0093-ALL Cost-
                                                     Component Soldier Mobilization         Effectiveness of Transitioning
             D-2007-068 Force Structure              Accountability—Material Weakness,      Selected Functions Performed at the
             Changes in the U.S. Pacific             Deputy Chief of Staff, G-3/5/7         Theater Distribution Center (Task
             Command – Andersen Air                  (01/09/07)                             Order 87) from Contingency to
             Force Base War Reserve Materiel                                                Sustainment Contracting, Audit of
             (03/12/2007)

             70                                                                                      Semiannual Report to Congress
LOGCAP Operations in Support of           F-2007-0003-FC2000 Crash              A-2007-0049-FFF Soldier
Operation Iraqi Freedom (03/09/07)        Damaged or Disabled Aircraft          Assignment Procedures for Lifecycle
                                          Recovery Program (11/27/2006)         Management, Deputy Chief of Staff,
A-2007-0095-FFH FY 06                                                           G-1 (01/17/07)
Supplemental Funding for the              F-2007-0001-FC4000 Termination
Global War on Terrorism, U.S. Army        of Purchases for Excess On-Order      A-2007-0050-FFM Independent
Medical Command (03/08/07)                Parts (12/12/2006)                    Auditors Report for FY 06 American




                                                                                                                      Appendix A
                                                                                Red Cross Financial Statements
A-2007-0104-ALL Cost-                     F-2007-0004-FC2000 Aircraft Bills     (03/19/07)
Effectiveness of Transitioning            of Material (12/29/2006)
Work Under the Logistics Civil                                                   Naval Audit Service
Augmentation Program Contingency          F-2007-0006-FC2000
Contract to Sustainment                   Communication, Navigation,
Contracting, Audit of LOGCAP              Surveillance/Air Traffic Management   N2007-0003 Validation of Navy
Operations in Support of Operation        Modification (01/05/2007)             Civilian Educational Credentials
Iraqi Freedom (03/23/07)                                                        (10/31/06)
                                          F-2007-0003-FC4000 Government
 Naval Audit Service                      Furnished Materiel (01/26/2007)               Air Force
                                                                                      Audit Agency
                                          F-2007-0004-FC4000 Deployed
 N2007-0022 Naval Coastal Warfare         Assets (01/26/2007)                   F-2007-0001-FB2000 Military
Active/Reserve Rebalancing Plan                                                 Personnel Data System Controls
(CLASSIFIED) (03/26/07)                   F-2007-0008-FC2000 TF39               (11/20/2006)
                                          Depot Engine Repair Requirements
         Air Force                        (02/02/2007)                          F-2007-0001-FD1000 Air
                                                                                Force Materiel Command
       Audit Agency
                                          F-2007-0002-FD3000 Cryptologic        Base Realignment and Closure
                                          Linguist Force Management             Requirements Planning
F-2007-0001-FC2000 Commercial             (CLASSIFIED) (02/02/2007)             (11/20/2006)
Maintenance for Exchangeable
Assets (11/20/2006)                       F-2007-0004-FD3000 Space              F-2007-0002-FD1000 Air Force
                                          Range and Ground Systems Asset        Space Command Base Realignment
F-2007-0002-FC2000 Distribution           Management (03/07/2007)               and Closure Requirements Planning
of Depot Maintenance Workload,                                                  (11/20/2006)
Fiscal Years 2005 - 2007                  F-2007-0008-FB1000 Aviation Fuel
(11/20/2006)                              Optimization (03/09/2007)             F-2007-0003-FD1000 Base
                                                                                Realignment and Closure
F-2007-0004-FD1000 Rapid                                                        Disposition Planning (11/20/2006)
Engineer Deployable Heavy                     Human Capital
Operational Repair Squadron                                                     F-2007-0005-FC2000 Selected
Engineer Equipment (11/20/2006)                                                 Aspects of Fiscal Year 2004 Planned
                                           Army Audit Agency                    Labor Application (12/29/2006)
F-2007-0001-FD2000 Medical
Personnel Readiness Training                                                    F-2007-0002-FD4000 External Fill
(11/20/2006)                              A-2007-0043-FFH Capital               Actions (01/05/2007)
                                          Purchases and Minor Construction,     F-2007-0003-FD4000 Air Reserve
F-2007-0001-FD3000 F-15 Flying            Fort Belvoir (01/10/07)               Component Aviation Incentive Pay
Hour Program (11/20/2006)                                                       (01/19/2007)



Department of Defense Inspector General                                                                        71
             F-2007-0006-FD1000 Air Mobility      D-2007-031 The Effects of             N2007-0014 Interim Report
             Command and Air Force District       Hurricane Katrina on the Defense      – Disposal of Protected Personal
             of Washington Base Realignment       Information Systems Agency            Information at Marine Corps Base,
             and Closure Requirements Planning    Continuity of Operations and Test     Camp Pendleton, CA (02/15/07)
             (01/19/2007)                         Facility (12/12/2006)
                                                                                        N2007-0016 Information Systems
             F-2007-0004-FD4000 Selective         D-2007-039 Information                Restoration and Data Recovery
             Reenlistment Bonus (02/02/2007)      Assurance of Missile Defense          Related to Hurricane Katrina
Appendix A




                                                  Agency Information Systems            (02/23/07)
             F-2007-0003-FD3000 Use of Air        (FOR OFFICIAL USE ONLY)
             Reserve Component Forces to Train    (12/21/2006)                          N2007-0018 Interim Report
             Active Duty Personnel (02/02/2007)                                         – Disposal of Protected Personal
                                                  D-2007-040 The General and            Information at Naval District
             F-2007-0005-FD4000 Advanced          Application Controls over the         Washington, DC (03/01/07)
             Distributed Learning (03/07/2007)    Financial Management System
                                                  at the Military Sealift Command
             F-2007-0006-FD4000 Civilian          (01/02/2007)                                  Air Force
             Deployments (03/15/2007)                                                         Audit Agency
                                                  D-2007-056 Integrated Accounts
             F-2007-0007-FD4000 Ancillary         Payable System Compliance with
             Training (03/15/2007)                the Defense Business Transformation   F-2007-0001-FB4000 Selected
                                                  System Certification Criteria         Aspects of Computer Network
                                                  (2/07/2007)                           Intrusion Detection (FOR
                 Information                                                            OFFICIAL USE ONLY)
              Security & Privacy                                                        (12/12/2006)
                                                    Army Audit Agency
                                                                                        F-2007-0002-FB4000 Selected
                        DoD IG                    A-2007-0067-FFI Long-Haul             Aspects of Theater Deployable
                                                  Communication Requirements and        Communications (02/02/2007)
             D-2007-006 Hurricane Katrina         Funding Process, U.S. Army Reserve
             Disaster Recovery Efforts Related    Command (02/14/07)                    F-2007-0003-FB4000 Follow-up
             to Army Information Technology                                             Audit, Air Education and Training
             Resources (10/19/2006)               A-2007-0068-FFI Long-Haul             Command Information Security
                                                  Communication Requirements and        Program and Practices (02/02/2007)
             D-2007-022 Defense Information       Funding Process, Army National
             Systems Agency Controls of the       Guard (02/15/07)                      F-2007-0004-FB4000 Security
             Center for Computing Services                                              of Remote Computer Devices
             Placed in Operation and Tests of      Naval Audit Service                  (FOR OFFICIAL USE ONLY)
             Operating Effectiveness for the                                            (03/13/2007)
             Period December 1, 2005, through
             July 31, 2006 (11/15/2006)           N2007-0004 Management of
                                                  Privacy Act Information at Naval         Acquisition
             D-2007-024 Management and            District Washington (11/21/06)        Process/ Contract
             Use of the Defense Travel System                                              Management
             (11/13/2006)                         N2007-0012 Interim Report
                                                  – Disposal of Protected Personal
             D-2007-025 Acquisition of the        Information at Naval Base San                    DoD IG
             Pacific Mobile Emergency Radio       Diego, CA (02/02/07)
             System (FOR OFFICIAL USE
             ONLY) (11/22/2006)
             72                                                                                  Semiannual Report to Congress
D-2007-005 Army Acquisition               D-2007-043 Controls Over the         A-2007-0012-ALR Purchase of
Executive’s Management Oversight          Army, Navy, and Air Force Purchase   Modern Burner Units, Office of the
and Procurement Authority for             Card Programs (01/10/2007)           Product Manager, Force Sustainment
Acquisition Category I and II                                                  Systems (10/26/06)
Programs (10/12/2006)                     D-2007-044 FY 2005 DoD
                                          Purchases Made Through the           A-2007-0020-ALA Followup Audit
D-2007-007 FY 2005 DoD                    Department of the Interior           of Generators, Office of the Project




                                                                                                                      Appendix A
Purchases Made Through the                (01/16/2007)                         Manager, Mobile Electric Power,
General Services Administration                                                Fort Belvoir (01/10/07)
(10/30/2006)                              D-2007-045 Acquisition of the
                                          Precision Guided Mortar Munition     A-2007-0029-FFE Monitoring and
D-2007-008 Acceptance and                 Program (FOR OFFICIAL USE            Oversight of Formerly Used Defense
Surveillance of F 16 Mission              ONLY) (01/10/2007)                   Sites, U.S. Army Corps of Engineers
Training Center Simulation Services                                            (12/01/06)
(11/01/2006)                              D-2007-047 Air Force Acquisition
                                          Executive’s Management Oversight     A-2007-0032-ALI Quality
D-2007-023 FY 2005 DoD                    and Procurement Authority for        Improvement Support System
Purchases Made Through the                Acquisition Category I and II        (12/07/06)
National Aeronautics and Space            Programs (01/23/2007)
Administration (11/13/2006)                                                    A-2007-0034-ALL Cost of
                                          D-2007-055 Contract                  Maintenance on Watercraft
D-2007-026 Competition of                 Administration of the Water          Equipment in Army Prepositioned
the 5.56-Millimeter Carbine               Delivery Contract Between            Stocks, U.S. Army Sustainment
(FOR OFFICIAL USE ONLY)                   the Lipsey Mountain Spring           Command, Rock Island (12/05/06)
(11/22/2006)                              Water Company and the United
                                          States Army Corps of Engineers       A-2007-0035-FFP Logistics Support
D-2007-032 FY 2005 DoD                    (02/05/2007)                         Contract—Maintenance of High
Purchases Made Through the                                                     Mobility Multipurpose Wheeled
Department of the Treasury                D-2007-062 Department of the         Vehicles and Heavy Expanded
(12/08/2006)                              Navy Purchases for and from          Mobility Tactical Trucks, Eighth
                                          Governmental Sources (02/28/2007)    U.S. Army (01/10/07)
D-2007-033 The Requirements
Process for the Army Multi-Mission        D-2007-066 Navy Acquisition          A-2007-0037-FFP Followup Audit
Radar and the Marine Corps Multi-         Executive’s Management Oversight     of Government Purchase Card
Role Radar System (12/14/2006)            and Procurement Authority for        Management Controls, U.S. Army
                                          Acquisition Category I and II        Contracting Command, Korea
D-2007-036 Contracting Practices          Programs (03/09/2007)                (12/14/06)
at the Major Range and Test
Facilities Base (12/27/2006)                Army Audit Agency                  A-2007-0038-FFP Contract
                                                                               Modifications, Area III, U.S. Army
D-2007-038 U.S. Army Corps of                                                  Installation Management Agency,
Engineers’ “Operation Blue Roof ”         A-2007-0004-ALM Depot-Level          Korea Region Office (12/15/06)
Project in Response to Hurricane          Maintenance Workload Reporting—
Katrina (12/22/2006)                      Fiscal Year 2004 (10/12/06)          A-2007-0040-ALL Procedures for
                                                                               Managing the Overage Reparable
D-2007-042 Potential                      A-2007-0006-ALL Offline              Items List at the Tactical Wheeled
Antideficiency Act Violations on          Purchases, Fort Bliss Training       Vehicle Refurbishment Center
DoD Purchases Made Through                Activities (10/19/06)                (01/16/07)
Non-DoD Agencies (01/02/2007)


Department of Defense Inspector General                                                                        73
             A-2007-0041-FFH Government            A-2007-0082-ALR Procurement            F-2007-0001-FD4000 T-3A Aircraft
             Purchase Card, Red River Army         Lead Times—Missiles, U.S. Army         Management (11/20/2006)
             Depot (12/20/06)                      Aviation and Missile Life Cycle
                                                   Management Command (02/22/07)          F-2007-0003-FB2000 Microsoft
             A-2007-0046-ALM Sustainment                                                  Enterprise License Agreement
             Planning for Maintenance Support      A-2007-0083-FFS Strategic              (11/27/2006)
             (02/02/07)                            Management System Contract
                                                   (03/01/07)                             F-2007-0001-FC1000 Foreign
Appendix A




             A-2007-0051-FFH Capital                                                      Military Sales F-16 Aircraft
             Purchases and Minor Construction      A-2007-0084-FFE Reduction of           Regeneration (11/27/2006)
             Projects, Fort Bliss (01/11/07)       Contaminated Waste at Army
                                                   Depots (02/22/07)                      F-2007-0001-FC3000 Wind
             A-2007-0058-ALM Depot-Level                                                  Corrected Munitions Dispenser
             Maintenance Workload Reporting—       A-2007-0096-FFH Proper Use of          Program Management (12/12/2006)
             FY 05, Office of the Deputy Chief     Non-DOD Contracts, U.S. Army
             of Staff, G-4 (03/08/07)              Medical Command (03/22/07)             F-2007-0002-FC1000 Foreign
                                                                                          Military Sales Tuition Rate
             A-2007-0059-ALC U.S. Army              Naval Audit Service                   Determination (01/26/2007)
             Center of Military History Contract
             Management, Office of the Director                                           F-2007-0006-FB1000 Evolved
             of the Army Staff (01/31/07)          N2007-0001 Department of the           Expendable Launch Vehicle Fiscal
                                                   Navy Controls to Ensure Vendor         Year 2007 President’s Budget
             A-2007-0063-FFE Use of                Legitimacy (10/16/06)                  Submission and Current Obligations
             Performance-Based Contracting for                                            (02/02/2007)
             Environmental Cleanup (01/26/07)      N2007-0002 Oversight of Earned
                                                   Value Management for Naval                    Financial
             A-2007-0069-ALM Followup Audit        Acquisition Programs (10/24/06)
             of Depot-Level Maintenance for
                                                                                                management
             Secondary Items Phase I—Repair        N2007-0007 Diminishing
             Versus Procurement Decisions, U.S.    Manufacturing Sources and Material
             Army Communications-Electronics       Shortages for Selected Major                      DoD IG
             Life Cycle Management Command         Platforms at Program Executive
             (03/07/07)                            Office (Submarines) and Program        D-2007-003 Internal Controls
                                                   Executive Office (Integrated Warfare   over the Army General Fund, Note
             A-2007-0072-ALM Army’s Process        Systems) (12/05/06)                    3, “Fund Balance With Treasury,”
             and Controls for Effectively                                                 Disclosures (10/10/2006)
             Implementing Performance-Based        N2007-0010 Sustaining the
             Logistics, Office of the Assistant    Acquisition Workforce (01/19/07)       D-2007-004 Accounting for
             Secretary of the Army (Acquisition,                                          Department of the Navy General
             Logistics and Technology)             N2007-0020 Department of the           Fund Accounts Receivable
             (02/09/07)                            Navy Contracts with Colleges and       (10/12/2006)
                                                   Universities (03/16/07)
             A-2007-0073-ALR Followup Audit                                               D-2007-009 Internal Controls
             of Management of Consigned                    Air Force                      Over Inventory Stored at Defense
             Inventory, Office of the Deputy                                              Logistics Agency Distribution
                                                         Audit Agency
             Chief of Staff, G-4 (02/07/07)                                               Depots (11/01/2006)

             A-2007-0077-FFH Capital Purchase      F-2007-0002-FB2000 Network/
             and Minor Construction Projects for   Server Consolidation (11/20/2006)
             Category C Activities (02/21/07)
             74                                                                                    Semiannual Report to Congress
D-2007-011 Independent Auditor’s          D-2007-021 Independent Auditor’s       D-2007-048 Reporting of Navy
Report on the FY 2006 Department          Report on the DoD FY 2006              Sponsor Owned Material Stored
of the Navy General Fund Financial        Special-Purpose Financial Statements   at the Space and Naval Warfare
Statements (11/08/06)                     (11/08/06)                             Systems Centers (01/26/2007)

D-2007-012 Independent Auditor’s          D-2007-027 Vendor Pay                  D-2007-052 Independent
Report on the FY 2006 Navy                Disbursement Cycle, Air Force          Auditor’s Report on the DoD




                                                                                                                      Appendix A
Working Capital Fund Financial            General Fund Payments to Vendors       FY 2006 Detailed Report of the
Statements (11/08/06)                     (11/24/06)                             Funds Obligated for National
                                                                                 Drug Control Program Activities
D-2007-013 Independent Auditor’s          D-2007-028 Controls Over Army          (01/29/2007)
Report on the FY 2006 Army                Cash and Other Monetary Assets
Working Capital Fund Financial            (11/24/06)                         D-2007-053 National Guard and
Statements (11/08/06)                                                        Reserve Controls Over Recruitment
                                          D-2007-029 Auditability Assessment Incentives (01/31/2007)
D-2007-014 Independent Auditor’s          of the Defense Intelligence
Report on the FY 2006 Air Force           Agency Business Processes for the  D-2007-057 Use and Controls over
General Fund Financial Statements         Identification, Documentation, and Military Interdepartmental Purchase
(11/08/06)                                Reporting of Property, Plant, and  Requests at the National Geospatial-
                                          Equipment (11/30/06)               Intelligence Agency (02/13/07)
D-2007-015 Independent Auditor’s
Report on the FY 2006 Air Force           D-2007-030 Management of               D-2007-058 Controls over the
Working Capital Fund Financial            the Iraq Security Forces Fund in       Army, General Fund, Fund Balance
Statements (11/08/06)                     Southwest Asia - Phase I (12/08/06)    With Treasury Journal Voucher
                                                                                 Adjustments (02/08/07)
D-2007-016 Independent Auditor’s          D-2007-035 FY 2006 Air Force
Report on the FY 2006 U.S. Army           Basic Allowance for Housing            D-2007-059 Vendor Pay
Corps of Engineers, Civil Works,          (12/14/2006)                           Disbursement Cycle, Air Force
Financial Statements (11/08/06)                                                  General Fund: Financial Accounting
                                          D-2007-037 Endorsement of              (02/09/07)
D-2007-017 Endorsement of                 the Management Letter on
Qualified Opinion on the FY 2006          Internal Controls over Financial       D-2007-060 Management of
Medicare-Eligible Retiree Health          Reporting for the FY 2006 DoD          the Iraq Security Forces Fund
Care Fund Financial Statements            Medicare-Eligible Retiree Health       in Southwest Asia - Phase II
(11/08/06)                                Care Fund Financial Statements         (02/12/2007)
                                          (FOR OFFICIAL USE ONLY)
D-2007-018 Independent Auditor’s          (12/19/2006)                           D-2007-061 Defense Finance and
Report on the FY 2006 Army                                                       Accounting Service Dayton Network
General Fund Financial Statements         D-2007-041 Navy General Fund           Compliance with the Prompt
(11/08/06)                                Vendor Payments Processed by           Payment Act (03/01/07)
                                          Defense Finance and Accounting
D-2007-019 Endorsement of the             Service (01/02/2007)                   D-2007-063 Agreed Upon
Unqualified Opinion on the FY                                                    Procedures Covering the Financial
2006 Military Retirement Fund             D-2007-046 Independent Auditor’s       Reporting for Nonappropriated
Financial Statements (11/08/06)           Report on the Department of            Fund Instrumentalities and Related
                                          Defense FY 2006 Application of         Activities (03/01/07)
D-2007-020 Independent Auditor’s          Agreed-Upon Procedures (01/16/07)
Report on the FY 2006 DoD
Agency-Wide Financial Statements
(11/08/06)

Department of Defense Inspector General                                                                          75
             D-2007-065 Controls Over the         A-2007-0026-FFD Regional
             Prevalidation of DoD Commercial      Overhead Rates, Headquarters,       Naval Audit Service
             Payments (03/02/07)                  U.S. Army Corps of Engineers
                                                  (11/30/06)                         N2007-0008 Auditor General
             D-2007-071 Air Force General Fund                                       Advisory – Summary of Department
             Disbursements as Reported in the  A-2007-0028-ALO Common Levels         of the Navy Government
             Statement of Budgetary Resources  of Support, U.S. Army Installation    Commercial Purchase Card Program
             (03/15/2007)                      Management Command (12/07/06)
Appendix A




                                                                                     Controls (12/15/06)
             D-2007-072 Attestation of            A-2007-0033-FFH Medical Funding    N2007-0009 Auditor General
             the Defense Logistics Agency’s       for the Global War on Terrorism,   Advisory – Department of the
             Contingent Legal Liability Audit     U.S. Army Medical Command          Navy’s Use of Hurricane Katrina
             Readiness Assertion (03/20/2007)     (12/07/06)                         Relief Funds (01/03/07)
             D-2007-073 Financial Data            A-2007-0039-FFP Global War on      N2007-0017 Ordnance Information
             Processed by the Medical Expense     Terrorism Supplemental Funding,    System (02/28/07)
             and Performance Reporting System     Tripler Army Medical Center
             (03/21/2007)                         (12/21/06)
                                                                                              Air Force
             D-2007-074 Endorsement of            A-2007-0042-ALR Followup Audit            Audit Agency
             the Deloitte & Touche LLP            of Materiel Returns, U.S. Army
             Management Letter on FY 2006         Materiel Command (12/20/06)        F-2007-0001-FB1000 Office of
             Military Retirement Fund Financial                                      Special Investigations Confidential
             Statements (FOR OFFICIAL USE         A-2007-0045-FFM Global Combat      Investigative Contingency Funds
             ONLY) (03/21/2007)                   Support System—Army (Field         (11/20/2006)
                                                  Tactical) Financial Requirements
             D-2007-075 Department of the         (01/05/07)                         F-2007-0002-FB1000 Improper
             Army Purchases from Governmental                                        Payments Information Act of 2002
             Sources (03/22/2007)                 A-2007-0060-FFP Review of the      - Travel Payments (11/20/2006)
                                                  Army’s Management Control
             D-2007-077 Timeliness of Payments    Process FY 06, Eighth U.S. Army    F-2007-0003-FB1000
             for Reenlistment Bonuses in the      (01/24/07)                         Hurricane Katrina Federal
             Army (03/28/2007)                                                       Emergency Management Agency
                                                  A-2007-0062-ALO Followup Audit     Reimbursements (11/20/2006)
                                                  of Funding Execution Task Force
              Army Audit Agency
                                                  Sinai, XVIII Airborne Corps and    F-2007-0001-FB3000 Operations
                                                  Fort Bragg (01/25/07)              Support Systems Accounts Payable
             A-2007-0024-FFH Attestation                                             (11/27/2006)
             Review of Army and Air Force         A-2007-0087-ALE Attestation
             Exchange Service Employee Benefits   Examination of Suggestion Number   F-2007-0005-FD1000 Utilities
             (11/29/06)                           EUHD06017C Under the Army          Privatization Economic Analysis
                                                  Suggestion Program (02/22/07)      - Second Phase Fiscal Year 2006
             A-2007-0025-ALO Mission                                                 (11/27/2006)
             Requirements for U.S. Army           A-2007-0098-ALC Followup
             Installation Management Command      Audit of Realignment Phase 2       F-2007-0002-FB3000 Operations
             (11/22/06)                           Field Operating Agencies, U.S.     Support Systems Customer
                                                  Army Center of Military History    Agreements (12/29/2006)
                                                  (03/16/07)



             76                                                                                Semiannual Report to Congress
F-2007-0002-FC4000 Equipment               D-2007-054 Quality Assurance
Transformation Initiative                 in the DoD Healthcare System          Naval Audit Service
(12/29/2006)                              (02/20/2007)
                                                                               N2007-0005 Implementation
F-2007-0003-FB3000 Military                 Army Audit Agency                  of Documented Environmental
Equipment Baseline - Electronic                                                Management Systems at Selected
Pods (01/19/2007)                                                              Navy and Marine Corps Facilities




                                                                                                                    Appendix A
                                          A-2007-0022-FFH Contracts            (11/30/06)
F-2007-0007-FC2000 Organic                for Medical Goods and Services,
Project Order Management                  Western Regional Medical             N2007-0006 Selected Military
(01/26/2007)                              Command (11/22/06)                   Construction, Navy Projects
                                                                               Proposed for Fiscal Year 2008
F-2007-0004-FB3000 Operations
                                                  Air Force                    (12/04/06)
Support Systems Operating Costs
(02/02/2007)                                    Audit Agency
                                                                               N2007-0011 Interim Report
                                                                               – Internal Controls Over the Base
F-2007-0005-FB1000 Follow-up              F-2007-0002-FD2000 Follow-up         Operating Support Contract at
Audit, Civilian Premium Payments          Audit, Primary Care Managers’        Naval Air Station Pensacola, FL
(02/02/2007)                              Productivity (11/27/2006)            (01/31/07)

F-2007-0007-FB1000 Cancellation           F-2007-0003-FD2000 Military          N2007-0013 Auditor General
of Unused Airline Tickets                 Treatment Facility Referral          Advisory – Relocation of the
(02/16/2007)                              Management Services (11/27/2006)     Office of the Commander, Navy
                                                                               Installations Command (02/06/07)
F-2007-0005-FB3000 Financial              F-2007-0004-FD2000 Management
Recording of Heritage Assets and          of Medical Library Services          N2007-0015 Southwest Region
Stewardship Land (03/09/2007)             (01/05/2007)                         Fleet Transportation (02/21/07)

F-2007-0007-FD1000 Construction           F-2007-0005-FD2000 Medical Off-      N2007-0019 Quality Control
Funds (03/13/2007)                        Duty Employment (02/16/2007)         Review – Academic Degrees
                                                                               and Certifications Reported in
F-2007-0009-FB1000 Headquarters                                                the Defense Audit Management
Air Force Resource Management                         Other
                                                                               Information System for Selected
- Miscellaneous Obligation/                                                    Naval Audit Service Personnel
Reimbursement Documents                                                        (03/06/07)
(03/13/2007)                                         DoD IG
                                                                               N2007-0021 Hurricane Relief
F-2007-0006-FB3000 Air Force                                                   Funds for Military Family Housing
Working Capital Fund Fiscal Year                                               Construction at Gulfport and
2005 Accounting Adjustments               D-2007-050 Interagency Review        Stennis Space Center, Mississippi
(03/15/2007)                              of U.S. Export Controls for China,   (03/27/07)
                                          (01/31/2007)
       Health Care                                                             N2007-0023 Improving the Navy’s
                                          D-2007-067 DoD Initiatives for       Environmental Assessment Process
                                          Combating Weapons of Mass            Under the National Environmental
                                          Destruction (FOR OFFICIAL USE        Policy Act (03/27/07)
             DoD IG                       ONLY) (03/30/2007)




Department of Defense Inspector General                                                                        77
                                                      appendix B
                   DoD IG Audit Reports Issued Containing Quantifiable
                              Potential Monetary Benefits

                                                                                            Potential Monetary Benefits
                                        Audit Reports Issued                                Disallowed     Funds Put to
                                                                                              Costs 1
                                                                                                             Better Use
             D-2007-025 Acquisition of the Pacific Mobile Emergency Radio System
             (11/22/2006)                                                                           N/A              $ 6,500,000
             D-2007-032 FY 2005 DoD Purchases Made Through the Department of
             the Treasury (12/08/06)                                                                N/A              $19,600,000
Appendix B




             D-2007-035 FY2006 Air Force Basic Allowance for Housing
             (12/14/2006)                                                                           N/A               $5,600,000
             D-2007-045 Acquisition of the Precision Guided Mortar Munition
             Program (1/10/2007)                                                                    N/A              $26,000,000
             D-2007-055 Contract Administration of the Water Delivery Contract
             Between the Lipsey Mountain Spring Water Company and the United
             States Army Corps of Engineers (2/05/2007)                                             N/A               $8,189,000
             D-2007-061 Defense Finance and Accounting Service Dayton Network
             Compliance with the Prompt Payment Act (3/01/2007)                                     N/A                $18,760
             Totals                                                                                                 $65,907,760
             1
                 There were no DoD IG audit reports during the period involving disallowed costs.

             *Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section
             5(a)(6) (See Appendix A).




             78                                                                                           Semiannual Report to Congress
                                           appendix C
                                          followup activities

DECISION STATUS OF DOD OIG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
  RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                  Status                                     Number
                                                                                          Funds Put To Better Use 1
A.      For which no management decision had been made by the
        beginning of the reporting period.                                      36                   $123,100
B.	     Which were issued during the reporting period.                           81                   $65,908
        Subtotals (A+B)                                                         117                  $189,008
C.	     For which a management decision was made during the                     68                    $92,400
        reporting period.

       (i) 	     dollar value of recommendations that were agreed to
                 by management.
                 - based on proposed management action
                 - based on proposed legislative action
       (ii)	     dollar value of recommendations that were not agreed




                                                                                                                            Appendix C
                 to by management.                                                          $92,4002
D.	      For which no management decision has been made by the
         end of the reporting period.                                     49                 $96,608
         Reports for which no management decision was made within
         6 months of issue (as of March 31, 2006).                        103                $56,700
1 There were no DoD OIG audit reports issued during the period involving “questioned costs.”
2 On these audit reports management has agreed to take the recommended actions, but the amount of agreed
monetary benefits cannot be determined until those actions are completed.
3 DoD OIG Report Nos. D-2005-054, “DoD Information Technology Security Certification and Accreditation
Process,” April 28, 2005; D-2005-094, “Proposed DoD Information Assurance Certification and Accreditation
Process,” July 21, 2005; D-2005-099, “Status of Selected DoD Policies on Information Technology Governance,”
August 19, 2005; D-2006-039, “Internal Controls Over the Compilation of the Air Force, General Fund, Fund
Balance With Treasury for FY 2004,” December 22, 2005; D-2006-041, “Operational Mobility: Gap-Crossing
Resources for the Korean Theater,” December 26, 2005; D-2006-042, “Security Status for Systems Reported in
DoD Information Technology Databases,” December 30, 2005; D-2006-044, “Controls Over the Export of Joint
Strike Fighter Technology,” January 11, 2006; D-2006-055, “Audit of Spare Parts Procurements from Transdigm,
Inc.,” February 23, 2006; D-2006-072, “Internal Controls Related to Department of Defense Real Property,” April
6, 2006; and, D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation,” September 22,
2006, had no management decision as of March 31, 2007, but action to achieve a decision is in process.

*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).




Department of Defense Inspector General                                                                                79
                                          Followup Status Report*


                              STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                          Period ending March 31, 2007
                                                 ($ in thousands)
                                                                              Funds Put
                                          Status                       Number to Better
                                                                                Use 1
                  OIG DoD
                    Action in Progress - Beginning of Period                                249           $2,100
                    Action Initiated - During Period                                         68           92,400
                    Action Completed - During Period                                         72          589,753
                    Action in Progress - End of Period                                      245           2,1002
                  Military Departments
                    Action in Progress - Beginning of Period                                632         1,691,999
                    Action Initiated - During Period                                        174         1,254,774
                    Action Completed - During Period                                        199         1,523,630
                    Action in Progress - End of Period                                      607         2,221,668

                  1 There were no OIG DoD audit reports issued during the period involving “questioned costs.”
                  2 On certain reports (from prior periods) with audit estimated monetary benefits of $6,628
Appendix C




                    million, we agreed that the resulting monetary benefits can only be estimated after completion
                    of management action, which is ongoing.

                  * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
                    Section 5(b)(2) & (3).




             80                                                                                   Semiannual Report to Congress
                                          appendix D
                      CONTRACT AUDIT REPORTS ISSUED1
                                 ($ in millions)
                    October 1, 2006 through March 31, 2007


                                           REPORTS          QUESTIONED FUNDS PUT TO
TYPE OF AUDIT           2
                                            ISSUED EXAMINED   COSTS3    BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                 9,466           $67,141.8             $503.8                  $64.94
Forward Pricing Proposals                      3,899          $100,979.2               ---                 $6,760.15
Cost Accounting Standards                      1,270            $194.6                $89.2                    ---
Defective Pricing                               125             (Note 6)              $25.6                    ---




                                                                                                                               Appendix D
Totals                                        14,760         $168,315.6             $618.6                $6,825.0


                                                       Notes
Note 1. This schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6
months ended March 31, 2007. This includes any audits that DCAA performed on a reimbursable basis for other govern-
ment agencies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both
“Questioned Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between avail-
ability of management information system data and legislative reporting requirements, there is minimal opportunity for
DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent DCAA
authentication.
Note 2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined
as:
Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are reason-
able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evalu-
ate a contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and
Special Audits, which include audits of terminations and claims.
Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices,
failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing
data (the Truth in Negotiations Act).
Note 3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations,
laws, and/or contractual terms.
Note 4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that
funds could be used more effectively if management took action to implement cost reduction recommendations.
Note 5. Represents potential cost reductions that may be realized during contract negotiations.
Note 6. Defective pricing dollars examined are not reported because the original value was included in the audits associated
with the original forward pricing proposals.

Department of Defense Inspector General                                                                                81
                                                                         appendix E
                                            STATUS OF action on
                                 significant post‑award contract audits1
                                        Period Ending March 31, 2007
                                                ($ in millions)
                                                                                Number of
                                                                                 Reports Costs Questioned Disallowed Costs6

                                Open Reports:

                                   Within Guidelines2                                 261                          $502.0                         N/A7

                                    Overage, greater than 6
                                    months3
                                                                                      685                     $1,661.2                                N/A

                                    Overage, greater than 12
                                    months4                                           356                          $892.6                             N/A

                                    In Litigation5                                     89                     $1,494.8                                N/A

                                Total Open Reports                                    1,391                   $4,550.6                                N/A
Appendix E




                                Closed Reports                                        265                          $307.7                 $140.3 (45.6%)

                                All Reports                                           1,656                   $4,858.3                                N/A

             1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjustments, accounting and related

             internal control systems, and noncompliances with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense Contract Management Agency, and

             TRICARE. Contract audit follow-up is reported in accordance with DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports.” Because of limited time

             between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.

             2 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Directive 7640.2 as described in footnotes 3 and 4 below.

             3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is resolved when the contracting officer determines

             a course of action which is documented and approved in accordance with agency policy.

             4 DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally, disposition is achieved when the

             contractor implements audit recommendations, the contracting officer negotiates a settlement with the contractor, or the contracting officer issues a final decision pursuant

             to the Disputes Clause.

             5 Of the 89 reports in litigation, 3 are under criminal investigation.

             6 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.

             7 N/A (not applicable)




             82                                                                                                                                   Semiannual Report to Congress
                                              appendix F
    Status of Dod oig reports more than 12 months old
                with final action pending 1,2
                    (As of March 31, 2007)
        Report                                                                        Reason Action Not                     Principle
                                          Description of Action
    Number/Title/Date                                                                    Completed                        Action Office
  94-062, Financial Status of Air    Changes to policy guidance to include         Coordination issues within DoD            USD(C)
Force Expired Year Appropriations, refunds receivable arising from matters in         continue to be addressed.
            3/18/1994                              litigation.

  96-156, Implementation of the   Implement system changes to correct                 Correction of this material             DFAS
DoD Plan to Match Disbursement weaknesses in the automated prevalidation             weakness involves a long-term
 to Obligations Prior to Payment,               process.                                        effort.
            6/11/1996

 97-112, Air Mobility Command          AMC is to develop a methodology for             Competing management               USTRANSCOM
  (AMC) Financial Reporting of         keeping PP&E current and providing                   priorities.                       DFAS
 Property, Plant, and Equipment      accurate and useful information to DFAS
      (PP&E), 3/19/1997               for preparation of financial statements.

97-134, Disposal of Munitions List        Change regulations to advance              Action had to be turned over          USD(AT&L),
Items in the Possession of Defense identification of munitions list items to the      to a support contractor for             DLA
     Contractors, 4/22/1997           early stages of the acquisition process.              implementation.

                                                Report is classified.              Extensive time required to revise          USD(I)
 98-049, DoD Sensitive Support
                                                                                               guidance
Focal Point System (U), 1/20/1998

                                      Issue accounting and billing policy for
 98-052, Defense Logistics Agency                                                    Publication of the DoD FMR              USD(C)
                                       requisitions under the Shelter for the
    Past Due Federal Accounts                                                      revision has been delayed pending
                                      Homeless Program. Chapter 5 of DoD
      Receivable, 1/22/1998                                                        the resolution of significant policy
                                       FMR Volume 11B is being revised to
                                                                                                 issues.
                                                  implement the
                                                     guidance.




                                                                                                                                            Appendix F
 98-063, Defense Logistics Agency     Revisions to DLA Instruction 4155.24,         A decision was made to combine             DLA
    Product Quality Deficiency        “Quality Assurance Program for DLA           the draft directive and instruction
       Program, 2/5/1998                    Inventory Control Points.”                back into a single regulation
                                                                                                 format.
    98-067, Access Reciprocity       Standardize Special Access Program (SAP)                                              USD(I), Army,
   Between DoD Special Access           eligibility implementing criteria and                                                Navy, AF
      Programs, 2/10/1998               develop a centralized SAP database.   Competing management priorities
                                                                              and extensive time to revise DoD
                                                                                        publications.



1 Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).
2 For this reporting period, there are no disallowed costs on reports over 12 months old with final action pending.




Department of Defense Inspector General                                                                                                83
                98-100, Fund Balance With      Issue Standard Operating Procedures to the Implementation strategy changes                DFAS
                Treasury Account in the FY      DFAS centers for reporting undistributed     and unique reporting issues
              1996 Financial Statements of the balances in the monthly Accounting Report caused delays. DFAS revised the
             Defense Business Operations Fund,                   1307.                     format for the report, but the
                         4/2/1998                                                         related DoD FMR guidance has
                                                                                                 not been finalized.

              98-116, Accounting for Defense
                                                    Revise procedures for handling accounts          Competing management                DFAS
                  Logistics Agency Supply
                                                    receivable. Implement standard general                priorities.
                 Management Receivables,
                                                          ledger in accounting systems.
                         4/20/1998
                                                                                                 Competing management priorities
                                                      Implement peer review program and             and extended time needed to         USD(I)
              98-124, Department of Defense
                                                    establish continuing education standards     coordinate and issue DoD policy.
             Adjudication Program, 4/27/1998
                                                       and a program for the professional          Impacted by transformation of
                                                          certification for adjudicators.         the personnel security program.


              99-102, Chemical and Biological                 Report is classified.                                                      Army
              Warfare Defense Resources in the                                                         Lack of management
               U.S. European Command (U),                                                                 responsiveness
                         3/4/1999


              99-159, Interservice Availability     Revise Joint Service Regulation to require Delays have been experienced in           Army
                of Multiservice Used Items,           consistent item management wherever      coordinating and issuing policy.
                        5/14/1999                     economical and safe. Services provide
                                                     training on disposal authority for multi-
                                                   service used items and requirements related
                                                            to excess assets quantities.

                                                     Develop a process for identifying and
              99-186, DoD Export Licensing                                                          Delays in coordinating and          USD(P)
                                                    establishing assessment priorities related
                  Processes for Dual-Use                                                                  issuing policy.
                                                     to the cumulative effect of technology
               Commodities and Munitions,
                                                                    transfers.
                        6/18/1999


               D-2000-110, Export Licensing             Improve guidance regarding the              Delays in coordinating and         USD(P),
                at DoD Research Facilities,         determination of the need for “deemed”                issuing policy.             USD(AT&L)
                       3/24/2000                     export licenses in the event of foreign
                                                   national visits to, or assignments to, DoD
Appendix F




                                                                research facilities.

              D-2000-111, Security Clearance        Establishment of time frames to expedite     Corrective action delayed by the     USD(I), DSS
              Investigative Priorities, 4/5/2000             investigative priorities.           transfer of the personnel security
                                                                                                 investigative function from DSS
                                                                                                  to OPM. Awaiting funding for
                                                                                                   new electronic capability and
                                                                                                    issuance of policy guidance.




             84                                                                                                          Semiannual Report to Congress
  D-2000-134, Tracking Security        The current database will be modified to Extensive time/resources needed          DSS
  Clearance Requests, 5/30/2000       retain all pertinent historical information to modify an automated system.
                                     (including dates/times for every occurrence Impacted by transformation of
                                         -- e.g., deletions, case type, changes,  the personnel security program.
                                        cancellations, duplicates, conversions,
                                                   reinstatements, etc.)

    D-2000-139, Controls Over           Awaiting revisions to the Financial           Delays in coordinating and
                                                                                                                        USD(C)
  the Integrated Accounts Payable      Management Regulation, Volume 10,                    issuing policy.
         System, 6/5/2000                      Chapters 7 and 12.


 D-2000-140, Compilation of the                                                       Delays in coordinating and         DFAS
 FY 1999 Department of the Navy                                                    issuing policy, and extensive time
                                         DFAS is working with the Navy to
  Working Capital Fund Financial                                                       needed for system changes.
                                      reconcile inventory-related general ledger
      Statements, 6/7/2000
                                       account balances to supporting records.




 D-2000-153, Compilation of the         DFAS is implementing procedures to                                               DFAS
   FY 1999 Financial Statements       remove duplicate and abnormal balances.     Uncorrected and unexplained
 for Other Defense Organizations       Any remaining abnormal balances are to        abnormal balances have
     (ODO) - General Funds,            be accompanied by footnotes that fully continued to be submitted for the
           6/23/2000                    disclose the causes for these balances. preparation of the ODO financial
                                     DFAS is documenting the processes used to             statements.
                                       compile the ODO financial statements.

                                     USD(C) evaluating policy and systems
  D-2000-177, Revaluation of                                                          Delays in coordinating and        USD(C)
                                   changes to implement and support a latest
   Inventory for the FY 1999                                                                issuing policy.
                                    acquisition cost valuation method and a
Department of the Navy Working
                                     direct cost historical valuation method.
Capital Fund Financial Statements,
                                     These would be long-term solutions for
           8/18/2000
                                   improving the financial presentation of net
                                                     inventory.

  D-2001-018, Management and           Army assumed responsibility to update                                             Army
  Oversight of the DoD Weather           Joint Instruction AR 115-10/ AFI          Coordination and staffing issues
      Program, 12/14/2000                15-157, to require coordination of                  continue.
                                      meteorological, oceanographic, and space
                                      weather requirements across all Military


                                                                                                                                      Appendix F
                                      Departments to promote interoperability
                                               and avoid duplication.


   D-2001-037, Collection and          Develop, test and deploy Patient Safety       Additional time required to        ASD(HA)
  Reporting of Patient Safety Data              Reporting Program.                  obtain operational capabilities.
    Within the Military Health
        System, 1/29/2001




Department of Defense Inspector General                                                                                          85
                                                Actions are underway to improve the      Extensive time needed to establish      Army, Navy, AF
             D-2001-059, Armed Service Blood
                                             Defense Blood Standard System (DBSS) to        policy and implement other
              Program Readiness, 2/23/2001
                                              ensure that the system meets all user and               changes.
                                             mission needs, ensures asset accountability
                                              and inventory accuracy. Also actions are
                                             underway to ensure consistent deployment
                                                and use of DBSS throughout DoD.


             D-2001-065, DoD Adjudication Identify and process additional adjudicative                                            DSS, USD(I)
             of Contractor Security Clearances resources for Defense Industrial Security
             Granted by the Defense Security Clearance Office (DISCO). Establishment
                   Service, 2/28/2001            of continuing education standards to       Extensive time required to update
                                               facilitate the certification of professional          DoD guidance.
                                                    adjudicators. Issue guidance on
                                               professional certification and continuous
                                                 training program for all adjudicators.

               D-2001-071, Navy Financial           Revise the Defense FAR Supplement                                             USD(AT&L)
                                                                                                 Delays in coordinating and
             Reporting of Government-Owned         to include the updated DoD property
                                                                                                       issuing policy.
              Material Held by Commercial                accountability procedures.
               Shipyard Contracts, 3/2/2001
             D-2001-081, Financial Reporting        Modify the Washington Headquarters                                                WHS
             at the Washington Headquarters      Services Allotment Accounting System to
                    Services, 3/15/2001            correctly post prior period adjustments.
                                                                                            Extensive time required for system
                                                    Also, develop query interfaces for each
                                                                                                         changes.
                                                 general ledger account that can be used to
                                                  research detailed transactions supporting
                                                               account balances.
                                                     Modify the Financial Management
               D-2001-099, Use of Contract                                                       Extensive time required for         USD(C)
                                                    Regulation, Volume 11B, to include
             Authority for Distribution Depots                                                  changes to financial policies.
                                                    procedures that require that all use of
              by the Defense Logistics Agency,
                                                   contract authority is adequately posted
                         4/16/2001
                                                 and liquidated in the DoD working capital
                                                   fund accounting records at the activity
                                                                 group level.
               D-2001-109, DoD Payroll                                                           Management stated that the           DFAS
                                                  Develop the capability to maintain, and
              Withholding Data for FY 2000,                                                     recommended action was too
                                                      query, historical payroll data.
                       4/27/2001                                                                costly. Alternative long-term
                                                                                                    action is being taken.
Appendix F




                D-2001-124, U.S. Special                    Report is classified.                Extensive time required for            JS
              Operations Command Use of                                                        coordination and publication of
               Alternative or Compensatory                                                    DoD document. Awaiting copy of
             Control Measures (U), 5/18/2001                                                        finalized documents.
                 D-2001-129, Contracting      Implement procedures to better assess price                                             DLA
              Officer Determinations of Price   reasonableness and institute corrective            Funding shortages and a
               Reasonableness When Cost or           actions for future contracts.               reassessment of the planned
             Pricing Data Were Not Obtained,                                                          corrective actions.
                        5/30/2001
               D-2001-135, Prevalidation of      Develop cost-effective automated methods        Correction of this material          DFAS
              Intergovernmental Transactions,            to expand prevalidation.               weakness involves a long-term
                         6/6/2001                                                                          effort.




             86                                                                                                       Semiannual Report to Congress
 D-2001-141, Allegations to the                                                                                      USD(I), DSCA
 Defense Hotline on the Defense
                                      Amend DoD 5200.2-R to address security     Delays continue in preparation
 Security Assistance Management
                                       investigation requirements for foreign      and coordination of DoD
        System, 6/19/2001
                                          national contractor employees.                   guidance.


     D-2001-148, Automated               Issue policy to address information      Personnel turnover has delayed ASD(NII), USD(C)
     Transportation Payments,          assurance requirements for commercial    issuing and implementing policy.
            6/22/2001                           automated processes.
D-2001-153, Pentagon Reservation Forms are to be developed to identify the Implementation has been delayed              WHS
  Maintenance Revolving Fund,    appropriate construction costs to be used by higher management priorities.
           7/2/2001             in transferring completed projects from the
                                construction in progress account to the real
                                             property accounts.
 D-2001-155, Compilation of the        Maintain standard operating procedures                                           DFAS
 FY 2000 Navy Working Capital            and documentation to provide an
                                                                                   Corrective actions are being
   Fund Financial Statements,            audit trail, and maintain complete
                                                                                verified during an on-going audit.
           7/3/2001                     documentation and audit trails for
                                              budgetary information.
   D-2001-158, Compilation of           Management will establish an action     Management corrective actions on        DFAS
 the FY 2000 Army General Fund          plan to meet revised requirements for            schedule.
Financial Statements at the Defense        reconciling suspense accounts.
  Finance and Accounting Service
 Indianapolis (Sustaining Forces),
             7/13/2001

 D-2001-163, Accounting Entries Revise FMR, Volume 11B, Chapter 5 to           Publication of the DoD FMR              USD(C)
    Made in Compiling the FY      reflect changes to inventory valuation and revisions has been delayed due to
   2000 Financial Statements of   reporting; and revise DoD FMR, Volume           significant policy issues.
  the Working Capital Funds of      4, Chapter 3 to require the recoding of
 the Air Force and Other Defense accounts receivable for credits due when
    Organizations, 7/26/2001     DoD working capital fund supply activities
                                 return inventory items that do not conform
                                    to the purchase agreement or contract.


  D-2001-164, Implementation       USD(AT&L) define and build a financial        Organizational realignment of       USD(AT&L)
 of a Cost-Accounting System for     architecture that incorporates cost         program has delayed actions.
Visibility of Weapon Systems Life-  accounting requirements for weapon



                                                                                                                                     Appendix F
      Cycle Costs, 8/1/2001                system life cycle costs.


                                   Develop system changes to differentiate Management corrective actions on USTRANSCOM
D-2001-170, U.S. Transportation
                                   among USTRANSCOM, Air Mobility                   schedule.
Command’s Reporting of Property,
                                  Command (AMC), and Defense Courier
 Plant, and Equipment Assets on
                                 Service (DCS) assets. Reconcile all system
 the FY 2000 DoD Agency-wide
                                  records for USTRANSCOM, AMC and
 Financial Statements, 8/3/2001
                                    DCS against actual assets, and make a
                                 prior period adjustment. Create electronic
                                   interfaces between the logistics and the
                                  accounting systems for transferring data.




Department of Defense Inspector General                                                                                         87
              D-2001-189, Multiple Award             Reemphasize the need to ensure          Management actions are delayed       USD(AT&L)
             Contracts for Services, 9/30/2001    competition on multiple award tasks and      pending an audit of GSA
                                                         delivery order contracts.            contracts awarded for DoD.


              D-2002-004, Import Processing          Revise USFK Regulation 55-72 to                                                 USFK
               of DoD Cargo Arriving in the        update requirements and implement a        Management response delayed
              Republic of Korea, 10/4/2001         cost-efficient system for the automated   due to key personnel involvement
                                                    processing of customs forms using an        in annual RSO&I exercise.
                                                         electronic data interchange.

                                                      Improve guidance on criteria for          Delays in coordinating and          USD(C)
              D-2002-008, Controls Over the
                                                  proper and accurate receipt and invoice             issuing policy.
              Computerized Accounts Payable
                                                  documentation; improve organizational
             System (CAPS) at Defense Finance
                                                    structures to provide better internal
               and Accounting Service Kansas
                                                                  controls.
               City (DFAS-KC), 10/19/2002

                                                                                              Long-term corrective action on
               D-2002-010, Armed Services           Establish a plan, controls, assessment                                       Army, Navy, AF,
                                                                                                       schedule.
               Blood Program Defense Blood        requirements and training related to the                                         ASD(HA)
               Standard System, 10/22/2001        Defense Blood Standard System (DBSS)
                                                   upgrade. Also, establish procedures to
                                                 ensure effective deployment of those DBSS
                                                                   upgrades.

                                                            Report is classified.            Corrective actions are delayed by   Navy, PACOM
             D-2002-024, Navy Fleet Hospital
                                                                                                 changing requirements.
              Requirements (U), 12/12/2001

                D-2002-035, Protection of                   Report is classified.                 Extensive time required
                                                                                                                                   ASD(NII)
              Strategic Systems Against Radio                                                    for coordination of DoD
             Frequency Threats (U), 1/4/2002                                                           publications.
                D-2002-056, Controls Over                                                                                           USD(C)
              Vendor Payments Made for the
             Army and Defense Agencies Using   Revise the Financial Management
                                                                                                Delays in coordinating and
               the Computerized Accounting Regulation to incorporate the requirements
                                                                                                      issuing policy.
             Payable System (CAPS), 3/6/2002            of 5 CFR 1315.



                                                    Revise procedures to review terminal
               D-2002-060, Management of                                                    Original action is no longer the          DLA
Appendix F




                                                     items with no registered users in the
               Terminal Items at the Defense                                                optimum solution, alternative
                                                 Defense Inactive Item Program (DIIP), for
                Logistics Agency, 3/13/2002                                                      action is being taken.
                                                 obsolescence, and quantify the number of
                                                 terminal National Stock Numbers (NSNs)
                                                   that are determined to be obsolete after
                                                 NATO and foreign governments review the
                                                                   NSNs.




             88                                                                                                     Semiannual Report to Congress
      D-2002-073, Financial       Use transactional data from a centralized Slow system development process.          DFAS
   Management Ending Balance         database to populate general ledger
  Adjustments to General Ledger    accounts in the Defense Departmental
 Data for the Army General Fund, Reporting System (DDRS) Budgetary and
            3/27/2002              continue efforts to analyze and correct
                                     causes for current adjustments; Use
                                   transactional data to generate a general
                                    ledger data file for DDRS Budgetary.

                                                                                                                    USD(AT&L)
                                     Strengthen controls to modify contract
  D-2002-075, Controls Over the                                                     Corrective action requires
                                    with banks to prevent accounts from being
   DoD Purchase Card Program,                                                    long-term development of risk-
                                     reopened after notification to close, and
          3/29/2002                                                                     assessment tools.
                                       provide reports on oversight reviews.

                                                                                   Delays in coordinating and
                                    Revise Financial Management Regulation,                                          USD(C)
 D-2002-076, Funding Invoices to                                                         issuing policy.
                                      Chapter 10, Appendix B, number 7,
 Expedite the Closure of Contracts
                                   “Accounting Requirements for Expired and
  Before Transitioning to A New
                                   Closed Accounts, “ to require that the DoD
 DoD Payment System, 3/29/2002
                                   activity to which a program has transferred
                                    be responsible for providing current-year
                                                     funding.

    D-2002-088, Acquisition of        Implement improvements in defining                                            USD(AT&L)
                                                                                    Delays caused by successive
   the Joint Service Lightweight       operational requirements, evaluating
                                                                                 program restructures and need to
Standoff Chemical Agent Detector,    production readiness, and test planning.
                                                                                  reevaluate technology maturity.
             5/10/2002

                                      Comply with guidance for storage of                                             Army
 D-2002-091, Accountability and
                                   maintenance materiel and the preparation
 Control of Materiel at the Corpus                                                    Lack of management
                                   and submission of management reports for
 Christi Army Depot, 5/21/2002                                                           responsiveness.
                                   review; perform annual physical inventory
                                        and quarterly reviews of materiel.


 D-2002-103, Certification of the Through a contractor/government teaming                                           Army, NGB
 Reserve Component Automation      effort, establish functional performance Service desk ticketing procedures
   System (RCAS), 6/14/2002        measures to better assess both the initial had to be revamped resulting in
                                  and future impact of RCAS on supported rework of existing performance


                                                                                                                                   Appendix F
                                                 functionalities.                        indicators.



      D-2002-108, Standard
                                                                                                                     ASD(NII)
 Procurement System Certification
                                                                                      Draft DIACAP policy
    and Accreditation Process,                  Report is FOUO.
                                                                                     coordination continues.
           6/19/2002




Department of Defense Inspector General                                                                                       89
                                                                                               Extended time required to
                D-2002-109, Army Claims          Modify Chapters 1 and 3 of DoD FMR                                                USD(C)
                                                                                              develop and coordinate new
             Service Military Interdepartmental Volume 11A to include specific guidance
                                                                                                       guidance.
               Purchase Requests, 6/19/2002     for congressionally enacted pilot programs
                                                  that authorize interagency orders, other
                                                   than those used in the performance of
                                                 Economy Act orders and project orders.

                D-2002-117, Review of FY                                                        Competing management                 DIA
              2001 Financial Statement for the              Report is classified.                    priorities.
              Defense Intelligence Agency (U),
                        6/25/2002
               D-2002-122, Environmental    Develop a more detailed DoD instruction    Extended time required to                 USD(P&R)
             Community Involvement Program      on Sustainable Ranges Outreach.      develop and coordinate the new
               at Test and Training Ranges, Continue work on implementation of the          DoD Instruction.
                        6/28/2002           new Directive and development of the new
                                                           instruction.

              D-2002-127, Audit Report on          Implement a system to capture material                                           DFAS
              DoD Compliance with Internal            internal software costs; identify the  Long-term process to develop and
                Use Software Accounting             appropriate actions needed to properly    implement guidance; and slow
                  Standards, 7/9/2002              value and support all financial statement   system development process.
                                                     amounts and publish these actions in
                                                 financial improvement plans; update DoD
                                                 FMR Volume 4, Chapter 6; and develop a
                                                      strategy and a Key Milestone Plan.

                                                   DLA will modify the existing stock     Original action is no longer the           DLA
              D-2002-131, Terminal Items
                                                retention policy to review terminal items optimum solution, alternative
             Managed by the Defense Logistics
                                              that are excluded from the Defense Inactive      action is being taken.
             Agency for the Navy, 7/22/2002
                                                  Program (DIIP). In addition, plan to
                                               complete a new study to quantify the costs
                                                            of inactive items.

              D-2002-140, Measurement of      Establish and implement procedures        Delays were caused by installation      Army, Navy, AF,
             Water Usage by DoD Components to verify that the DCWASA routinely          and program compatibility issues            WHS
              Serviced by the DC Water and  inspects and reports results of inspections and other technical difficulties,
                 Sewer Service, 8/20/2002    for DoD-owned water meters; develop           and contract terminations.
                                              and implement effective controls and
                                             procedures to verify that the DCWASA
Appendix F




                                           accurately reads water meters; establish and
                                               implement a maintenance program.

             D-2002-153, Reprocessed Medical
                                                                                                                                Army, Navy, AF
               Single-Use Devices in DoD,
                                                                                              Significant time required to
                       9/30/2002                   Services issue SUD guidance (based on
                                                                                             develop Service-level guidance.
                                                 recently reissued ASD (HA) guidance) on
                                                   the reuse of single-use devices (SUD).




             90                                                                                                    Semiannual Report to Congress
                                       Develop integrated natural resource
  D-2003-001, DoD Integrated                                                       The plans for two installations    Army, Navy, AF
                                    management plans for military installations
  Natural Resource Management                                                        have been held up pending
                                     and coordinate the plans with the other
        Plans, 10/1/2002                                                           the resolution of litigation and
                                    Federal and State agencies involved in the
                                                                                         coordination issues.
                                                     process.

                                    Establish procedures to withhold payments
    D-2003-018, Validity of                                                       Action is being taken by                DFAS
                                       to contractors and vendors until they
   Registration in the Central                                                   management to implment a
                                      are properly registered with a valid Tax
  Contractor Registration (CCR)                                                manual, rather than an automated
                                        Identification Number in the CCR
     Database, 10/30/2002                                                                  solution.
                                                      database.

   D-2003-021, Export Controls                 Report is confidential.              Extensive time is needed to          USD(P),
    Over Biological Agents (U),                                                     coordinate and issue policy        USD(AT&L),
           11/12/2002                                                                       guidance.                 DATSD(C/BD)
                                  Revise DoD FMR to allow the Air Force            Publication of the DoD FMR            USD(C)
 D-2003-030, Financial Reporting
                                     to present all material categories of         revisions has been delayed due
     of Deferred Maintenance
                                 deferred maintenance as major asset classes        to significant policy changes
Information on Air Force Weapons
                                   in accordance with Federal accounting            resulting from OMB A-136
 Systems for FY 2002, 11/27/2002
                                                requirements.                                  revisions.

    D-2003-034, Adjustments to                                                                                           USD(C)
                                                                                     Extensive time required for
  the Intergovernmental Payments
                                        Revise the Financial Management             changes to financial policies.
        Account, 12/10/2002
                                     Regulation to specify the documentation
                                         required to support adjustments
                                      from account F3885, ‘Undistributed
                                     Intergovernmental Payments,’ to closed
                                                 appropriations.


                                    AT&L is working with OMB to address               Corrective actions are on        USD(AT&L)
   D-2003-056, Public/Private
                                   any overhead ambiguities in OMB Circular                  schedule.
  Competition for the Defense
                                     A-76, proposing additional guidance to
 Finance and Accounting Service
                                      clarify costing policies, and providing
Military Retired and Annuitant Pay
                                    definitions for direct and indirect costs as
       Functions, 3/21/2003
                                     well as a revised definition for overhead.
  D-2003-067, Recoveries of Prior        Revise the Financial Management                                              USD(C), DFAS
   Year Obligations, 3/21/2003       Regulation to be consistent with recovery
                                      reporting guidance issued by the OMB           Extensive time required for



                                                                                                                                       Appendix F
                                     and the Department of the Treasury; and        changes to financial policies.
                                      program the DFAS accounting systems
                                      to properly capture, record, and report
                                        recoveries of prior year obligations.
  D-2003-0071, Acquisition of                   Report is classified.                                                      MC
 Marine Corps Aircraft Simulators                                                  Guidance is in second staffing.
         (U), 4/2/2003
  D-2003-072, DoD Compliance         AF is updating guidance to be consistent                                              AF
 with the Uniformed and Overseas            with DoD level guidance.                Publication of AF Instruction
   Citizens Absentee Voting Act,                                                   was delayed to include pending
            3/31/2003                                                                revision of DoD guidance.




Department of Defense Inspector General                                                                                           91
               D-2003-073, Reliability of the               Report is classified.                 Corrective actions are on          NGA
              FY 2002 National Imagery and                                                               schedule.
                 Mapping Agency Financial
                Statements and Adequacy of
              Related Procedures and Controls
                       (U), 4/2/2003
                                                                                                  Competing management
             D-2003-074, Reliability of the FY              Report is classified.                                                     DIA
                                                                                                       priorities.
              2002 Defense Intelligence Agency
             Financial Statements and Adequacy
             of Related Procedures and Controls
                        (U), 4/7/2003

                 D-2003-076, Document                        Report is FOUO.                      Corrective actions are on          DLA
                Automation and Production                                                                schedule.
                   Service Public/Private
                  Competition, 4/8/2003

                                                   Restructure the DoD Explosives Safety
               D-2003-081, DoD Explosives                                                     Management corrective actions on    USD(AT&L)
                                                    Board and revise DoD guidance to
                Safety Program Oversight,                                                              schedule.
                                                     accurately reflect the Board’s roles
                        4/24/2003
                                                   and responsibilities. Develop a safety
                                                    management strategy that requires a
                                                   comprehensive DoD explosives safety
                                                                  program.



              D-2003-085, International DoD        AMC International Publication (AITP)                                          USTRANSCOM
                                                                                                 Alternative action is being
              Air Freight Tenders, 4/30/2003        No. 1 developed to articulate the air
                                                                                               pursued. Policy is being issued
                                                  transportation service needs of the DoD
                                                                                                 as an AMC International
                                                  for movement of its international freight
                                                                                                        Publication.
                                                                   traffic.


             D-2003-091, Reliability of the FY              Report is classified.                 Corrective actions are on           NSA
               2002 National Security Agency                                                             schedule.
             Financial Statement and Adequacy
             of Related Procedures and Controls
                       (U), 5/14/2003


               D-2003-095, Accounting for         Develop business practices for Navy fund Long-term process to develop and       DFAS, Navy
Appendix F




               Reimbursable Work Orders at         administrators to properly account for   implement improved business
              Defense Finance and Accounting       reimbursable work orders. Develop a       practices, methodologies, and
               Service Charleston, 6/4/2003        methodology and provide guidance to                  guidance.
                                                  prevent Navy fund administrators from
                                                    over obligating at the segment level.
                                                  Establish edit checks that align with the
                                                       business practices of the Navy.


                D-2003-096, Protection of                   Report is classified.              Long-term corrective action on Army, Navy, AF, JS,
             European Theater Systems Against                                                           schedule.                ASD(NII)
               Radio Frequency Threats (U),
                        6/4/2003




             92                                                                                                      Semiannual Report to Congress
  D-2003-098, Follow-Up Audit         Ensure that depot-level repair inventory                                             Army
 of Depot-Level Repairable Assets     at commercial contractors and at a DLA             Lack of management
    at Selected Army and Navy         storage facility is properly accounted for.           responsiveness.
     Organizations, 6/5/2003

  D-2003-105, Management of                       Report is FOUO.                                                       USD(AT&L)
 Developmental and Operational                                                           Lack of management
 Test Waivers for Defense System,                                                          responsiveness.
           6/20/2003

                                         The Director, Defense Procurement
  D-2003-106, Administration of                                                      Corrective actions are on          USD(AT&L)
                                         and Acquisition Policy (DPAP), will
   Performance-Based Payments                                                    schedule. Normal time required
                                       conduct an assessment of the benefits of
  Made to Defense Contractors,                                                   to update the FAR and DFARS.
                                       expanded performance-based payments
           6/25/2003
                                     implementation. It will address contracting
                                      officer compliance with FAR Part 32.10,
                                       and whether any changes are needed to
                                        those policies, the Performance-Based
                                          Payments User’s Guide, or training
                                                       resources.

    D-2003-110, Information               System enhancements to correct                                                USD(P&R)
    Technology Management:                   deficiencies are in process.           Extended time needed to develop
  Defense Civilian Personnel Data                                                        system enhancements.
  System Functionality and User
      Satisfaction, 7/27/2003
      D-2003-115, Allegations        Air Force will prepare an acquisition strategy                                      AF, DCMA
   Concerning the Administration       addressing logistics support for the 550-
  of Contracts for Electronic Flight series Electronic Flight Instruments (EFI)
                                                                                    Pursuing partnership to achieve
      Instruments, 6/30/2003          that address sustainment and spare parts.
                                                                                          SORAP decision.
                                      DCMA (at Lockheed Martin, Fort Worth,
                                     TX) will perform a Contractor Purchasing
                                               System Review (CPSR).
                                    Comply with DoD investment policy for            Long-term corrective action on       USD(C)
 D-2003-119, Controls Over DoD
                                   the DoD Medicare Eligible Retiree Health                   schedule.
  Medicare Eligible Retiree Health
                                    Care Fund; issue oversight procedures to
 Care Fund Investments, 7/31/2003
                                     ensure that the DFAS complies with the
                                    investment policy for the DoD Medicare
                                       Eligible Retiree Health Care Fund.
     D-2003-122, Financial      Issue guidance for unreconcilable contracts; Guidance delayed due to re-                  USD(C)



                                                                                                                                        Appendix F
 Management: Closing the Army’s update the DoD FMR to specifically address writing and coordination issues,
    1985 M1a1 Tank Contract      the requirement to maintain vouchers and     and competing priorities.
 (Contract DAAE07-85-C-A043),      supporting documentation to facilitate
           8/13/2003                 complete contract reconciliations.
   D-2003-128, The Chemical        As directed by USD(AT&L), Army develop                                             USD(AT&L), Army
    Demilitarization Program:        and prioritize a plan for the disposal of
                                                                                         Lack of management
 Increased Costs for Stockpile and  buried chemical warfare materiel. Upon
                                                                                            responsiveness.
 Non-Stockpile Chemical Disposal     receipt of the Army plan, USD(AT&L)
       Programs, 9/4/2003          determine which DoD component should
                                       be assigned to implement the plan.




Department of Defense Inspector General                                                                                            93
                                                       Emphasize the importance of controls
             D-2003-133, Report on Controls                                                                                           USD(C), DFAS
                                                       over the use of closed appropriations
             Over DoD Closed Appropriations,
                                                     and monitor compliance with applicable          Extensive time required for
                      9/15/2003
                                                       laws and regulations. DFAS establish         changes to financial policies.
                                                    specific standard procedures to ensure that
                                                   accounting personnel approve only legal and
                                                   proper adjustments to closed appropriations,
                                                      and validate the canceled balances and
                                                      report any potential Antideficiency Act
                                                                     violations.

                                                                                                                                          Army

             D-2003-134, System Security of the                 Report is FOUO
                                                                                                        Lack of management
             Army Corps of Engineers Financial
                                                                                                           responsiveness
              Management System, 9/15/2003


                                                 Review conducted and new standard      Normal time to write, coordinate,                 WHS
             D-2004-002, Acquisition: Selected
                                                 operating procedures developed and     approve, and implement guidance.
                Purchase Card Transactions
                                               implemented. Administrative instructions
               at Washington Headquarters
                                                         are being rewritten.
              Services and Civilian Personnel
             Management Service, 10/16/2003

                04-INTEL-02, DoD Security        Disparities between the contractor and    Extensive time required to update             USD(I)
             Clearance Adjudication and Appeals military/civilian personnel adjudicative          DoD Regulations.
                  Process (U), 12/12/2003      process will be eliminated with the pending
                                               revision to the DoD Regulation 5200.2-R.
               D-2004-003, Decontamination                     Report is classified.                 Extensive time required to          Navy, AF
                 Operation Preparedness of                                                          coordinate and issue policy.
              Continental U.S. Based Navy and
               Air Force Units (U), 10/8/2003
                                                                                                   JS, AF, Navy, USMC, PACOM
                                                                                                      are in process of updating
                                                               Report is classified.                                                  Army, AF, Navy,
              D-2004-007, Force Protection in                                                       their guidance based on DoD
                                                                                                                                       JS, PACOM,
             the Pacific Theater (U), 10/14/2003                                                  guidance published on 10/30/06.
                                                                                                                                            MC
                                                                                                   Army delay attributed to lack of
                                                                                                     management responsiveness.
                 04-INTEL-07, Audit of the                     Report is classified.                                                   ATSD(NCB)
                                                                                                  Long term corrective actions on
Appendix F




                 Physical Security of Nuclear
                                                                                                            schedule.
                  Weapons (U), 5/3/2004
                                                   Update Army Regulations 70-1and 71-9
                                                    to require combat developers to identify
                                                       interoperability and supportability
              D-2004-008, Implementation of                                                                                               Army
                                                   requirements in requirements documents
              Interoperability and Information
                                                   and update the requirements throughout
             Assurance Policies for Acquisition of
                                                     the life of the systems, as necessary, in      Coordination on issuance of
                 Army Systems, 10/15/2003
                                                    accordance with DoD Directive 4630.5            numerous related guidance.
                                                      and to require program managers to
                                                      obtain the Joint Staff J6 certifications
                                                     for interoperability in accordance with
                                                      Chairman of the Joint Chiefs of Staff
                                                              Instruction 6212.01B.




             94                                                                                                           Semiannual Report to Congress
     D-2004-009, Allegations           Develop policies and procedures requiring                                                Army
    Concerning Controls Over            the reconciliation of all transit subsidy
                                                                                  Continuous coordination of draft
   DoD Transit Subsidies Within        billings received from the Department of
                                                                                      policy and procedures.
   the National Capital Region,                      Transportation.
           10/14/2003
   D-2004-012, Sole-Source Spare        Report is FOUO. Corrective actions are         Corrective actions are on schedule.       Army
  Parts Procured From an Exclusive       complete on all but 1 of the report’s 8
       Distributor, 10/16/2003                     recommendations.
     D-2004-020, Allegations              Implement a formal acquisition policy
    Concerning Improprieties In        that integrates the existing roles of various Delay in obtaining legal approval.
     Awarding National Guard                Army National Guard and Federal                                                      NGB
      Contracts, 11/18/2003            communication and IT groups. Develop a
                                        process with measurable IT standards and
                                         defined business processes. Coordinate
                                        the requirements for help desk support to
                                            eliminate duplicate contract costs.

      D-2004-023, Financial       USACE is to prepare an information paper                   Lack of management                 Army
 Management: Corps of Engineers to outline a plan to address account phase                      responsiveness.
  Financial Management System general ledger correlation related weaknesses
 Accounting Processes, 11/18/2003    and system deficiencies, including a
                                    monthly status report that shows the
                                    progress in correcting these problems.

    D-2004-034, Environment:                Clarify requirements for internal          The Corps of Engineers guidance          Army
    Defense Hotline Allegations                        assessments.                     update is on hold pending the
   Regarding the Environmental                                                          revision of a higher level Army
  Compliance Assessment Process                                                                   regulation.
 at U.S. Army Corps of Engineers,
    Portland District, 12/4/2003
  D-2004-039, Cooperative Threat         Negotiate a transparency agreement that         Significant time is required for    USD(P), DTRA
  Reduction Construction Projects,       will allow US verification of the quantity        negotiations with sovereign
           12/18/2003                    and quality of the material stored in the                   nations.
                                        fissile material storage facility. Undertake
                                       sufficient activities to come into compliance
                                        with Russian environmental requirements
                                                  for water discharge rates.
 D-2004-041, The Security of the                                                                                                Army
Army Corps of Engineers Enterprise                                                           Lack of management
                                                    Report is FOUO.
 Infrastructure Services Wide-Area                                                              responsiveness.



                                                                                                                                             Appendix F
       Network, 12/26/2003
  D-2004-047, Implementation of     Program Managers will be able to store                                                      Army
  the DoD Management Control       acquisition documents in Virtual Insight
 Program for Army Category II and (VIS) so the Milestone Decision Authority Initial testing and evaluation date
      III Programs, 1/23/2004          can review document status from       delayed due to technical issues.
                                  development to document approval. Army Testing now complete and new
                                  Regulations will be updated to reflect new         milestones created.
                                             reporting procedures.
                                        Revised DoD guidance to clarify the roles                                               DAM
     D-2004-050, Management
                                        of responsible offices for the Cooperative
 Structure of the Cooperative Threat                                                       Extensive time required to
                                               Threat Reduction Program.
    Reduction Program, 2/5/2004                                                          coordinate and issue guidance.




Department of Defense Inspector General                                                                                                 95
                D-2004-053, Defense Threat        Develop detailed guidance on what should                                             WHS
                Reduction Agency Relocation       be considered when determining whether
                                                                                                   Extensive time required to
                     Costs, 2/19/2004              the relocation cost cap in section 8020 of
                                                                                                 coordinate and issue guidance.
                                                 the FY 2004 Appropriation Act has been, or
                                                                will be, exceeded.
             D-2004-055, DoD Source Approval                                                                                            DLA
              Process for Service & Sales, Inc.,                                                Change in strategy and extended
                                                 Develop guidance for the reevaluation of
               a Small Business Manufacturer,                                                    time needed to coordinate and
                                                    critical application item sources.
                         2/25/2004                                                                        issue policy.

                D-2004-057, Acquisition:      Conduct a study on existing DoD post- Management corrective actions on                USD(AT&L)
                Contracts Awarded for the     war strategy and establish responsibilities,   schedule.
              Coalition Provisional Authority  policies, and procedures for the rapid
               by the Defense Contracting        acquisition of necessary goods and
             Command-Washington, 3/18/2004 services in support of any future post-war
                                                   occupation or relief operations.
                  D-2004-059, Financial       Determine the appropriate useful life for          Long-term corrective action on        Army
             Management: Assets Depreciation all USACE-owned assets. Request a waiver                     schedule.
             Reported on the U.S. Army Corps   from the DoD FMR based on USACE-
              of Engineers FY 2002 Financial       unique mission requirements.
                  Statements, 3/16/2004

               D-2004-061, Export Controls:        Expand DoD guidance to encompass all                                              USD(P),
               Export Controlled Technology      export-controlled technology and enumerate                                         USD(AT&L)
                                                                                                   Extensive time required to
                at Contractor, University and         the roles and duties of responsible
                                                                                                   coordinate and issue policy
               Federally Funded Research and         personnel. Ensure incorporation of
                                                                                                           guidance.
               Development Center Facilities,     appropriate export compliance clauses into
                         3/25/2004                        solicitations and contracts.

                  D-2004-063, Financial            Improve the financial accountability for     Management corrective actions on       Army
             Management: Controls Over U.S.        buildings and other structures owned by               schedule.
             Army Corps of Engineers (USACE)                      USACE.
              Buildings and Other Structures,
                        3/26/2004
                                                                                                  Followup was held in abeyance
                                                                                                   until Analysis of Alternatives
                 D-2004-064, Acquisition:                                                                                           USD(AT&L)
                                                                                                  was completed. Now extended
             Acquisition of the Boeing KC-767A                Report is FOUO.
                                                                                                 time will be needed to complete
                Tanker Aircraft, 3/29/2004
                                                                                                    planning for a competitive
                                                                                                            acquisition.
Appendix F




             D-2004-065, DoD Implementation Revise Voting Assistance Program guidance                                                   AF
              of the Voting Assistance Program, to reflect recent changes to DoD guidance.
                          3/31/2004              Improve monitoring of voting assistance
                                                                                                  Publication of AF Instruction
                                                 program and training of service members
                                                                                                 was delayed to include pending
                                                and spouses. Establish civilian position for
                                                                                                   revision of DoD guidance.
                                                        Service Voting Action Officer.


                                                                                                 Long term corrective action on
              D-2004-068, Global Command                     Report is classified.                                                     USFK
                                                                                                  schedule pending document
              and Control System-Korea (U),
                                                                                                            review.
                        4/6/2004




             96                                                                                                        Semiannual Report to Congress
                                                                                     Long-term corrective action on
   D-2004-074, Reliability of the     The Army and the Air Force agreed to                                                  Army, AF
                                                                                   schedule. The Test Plan continues
     Automated Cost Estimating     jointly verify, validate, and accredit the next
                                                                                    to be refined as new features are
  Integrated Tools Software Model,           major release of software,
                                                                                    introduced and existing features
             4/23/2004
                                                                                              are improved.
   D-2004-078, Summary Report          The Director supports using technology                                             USD(AT&L)
    on the Military Departments’    transitioning as a performance rating criteria Actions delayed due to several
 Transition of Advanced Technology for science and technology personnel that issues unrelated to Environmental
 Programs to Military Applications, manage technologies that are more advanced              Liabilities.
             4/29/2004                             in development.
  D-2004-079, Reliability of the                                                                                              DIA
  Defense Intelligence Agency FY                   Report is classified.
                                                                                     Competing management priorities.
  2003 Financial Statements (U),
            4/29/2004
    D-2004-080, Environmental              Implement guidance to improve the
                                                                                                                          USD(AT&L)
 Liabilities Required to be Reported     development, recording, and reporting
  on Annual Financial Statements,         of environmental liabilities. Establish
               5/5/2004                     a quality control program to assess         The update to DoD guidance
                                          environmental liability processes and        has been delayed due to several
                                         controls. Issue guidance requiring that      issues unrelated to Environment
                                        future environmental liability electronic                Liabilities.
                                          cost estimating system efforts comply
                                        with Defense Environmental Restoration
                                            Program Management Guidance.

                                                                                      Long-term corrective actions on
  D-2004-082, DoD Installation
                                                   Report is classified.              schedule (EUCOM). Extended
    Disaster Preparedness and                                                                                             EUCOM, Navy
                                                                                       time needed to coordinate and
 Consequence Management in the
                                                                                       issue policy (Navy, AF). Other
  U.S. European Command (U),
                                                                                     implementation action delayed by
           5/24/2004
                                                                                     change in related guidance (Navy).

  D-2004-084, Antideficiency Act         Allocate all undistributed disbursements Management corrective actions on           DFAS
   Investigation of the Research,       to fund holders of DoD closed fixed-term           schedule.
 Development, Test and Evaluation       appropriations at statutory time of closing
   Defense-Wide, Appropriation           or provide alternate procedures that will
 Account 97 FY 1989/1990-0400,           provide positive assurance against future
             5/28/2004                              potential violations.
 D-2004-087, Health Care: DoD      ASD (HA), in coordination with the
                                                                                                           Army, AF, ASD(HA)
 Management of Pharmaceutical Military Surgeons General, develop standard


                                                                                                                                         Appendix F
   Inventory and Processing of  policies and procedures for pharmaceutical Extended time needed for update
    Returned Pharmaceuticals,     inventory management at the Military       of publications and contract
           6/17/2004           Treatment Facilities (MTFs) and also require             award.
                                  MTFs to use a pharmaceutical returns
                                                 company.

  D-2004-089, Acquisition of the            The U.S. Army Special Operations                                                 Army
  MH-47G Helicopter Service Life           Command (USASOC) will produce
  Extension Program, 6/14/2004             and Information Support Plan (ISP),             Lack of management
                                          in concurrence with the Joint Staff. In            responsiveness.
                                       addition, USASOC will submit a request for
                                        a one-year Interim Certificate to Operate.




Department of Defense Inspector General                                                                                             97
               D-2004-091, Management of                                                                                                   ASD(NII)
              Network Centric Warfare Within
                the Department of Defense,
                                                                                                    Funding limitations delay policy
                       6/22/2004                                Report is FOUO.
                                                                                                               revisions.



               D-2004-093, Acquisition and          The DLA will initiate a new fully                   Normal time needed for           Army, AF, DLA
                Management of Specialized        competitive acquisition for the containers.               implementation.
                Shipping and Unit-Owned             The Army and the Air Force will
             Containers and Related Accessories, improve controls over the acquisition and
                         6/30/2004                management of specialized shipping and
                                                          unit-owned containers.
              D-2004-094, Acquisition: Direct                                                           Normal time needed for
              Care Medical Services Contracts,                                                             implementation.
                                                                                                                                           USD(C),
                       6/24/2004                    Develip a process for future payments of
                                                                                                                                           ASD(HA)
                                                   FICA tax for individual set-aside contracts.
                                                   Establish a pilot program for the acquisition
                                                          of direct care medical services.


                                                               Report is classified.               Corrective actions are on schedule.       NSA
             D-2004-099, Reliability of National
             Security Agency FY 2003 Financial
                 Statements (U), 7/15/2004

                                                    Recommended actions are designed to Corrective actions are on schedule.                  Army
              D-2004-104, Purchase Card Use
                                                  provide guidance and strengthen controls
             and Contracting Actions at the U.S.
                                                 over use of the Government Purchase Card
             Army Corps of Engineers, Louisville
                                                   at the Louisville District and at USACE
                    District, 7/27/2004
                                                             Headquarters levels.

                                                       Update the performance metric on
              D-2004-106, Selected Controls                                                    Management corrective actions on             DFAS
                                                   suspense accounts to track the progress for
              Over Army Fund Balance With                                                               schedule.
                                                     reconciling the field accounting records
               Treasury at Defense Finance &
                                                      of suspense account balances with the
              Accounting Service Indianapolis,
                                                     summary Fund Balance With Treasury
                          8/5/2004
                                                                     balance.

                  D-2004-110, The Military            USD (AT&L) has undertaken several                 Normal time needed for           USD(AT&L),
                Departments’ Implementation          initiatives related to Performance Based              implementation.                Army, Navy
               of Performance-Based Logistics        Logistics (PBL). The Services will issue
               in Support of Weapon Systems,       policies and procedures for implementation
Appendix F




                         8/23/2004                                     of PBL.
               D-2004-114, The Followup on                                                                                                   Army
               the Government Accountability
                 Office and U.S. Army Audit                                                              Lack of management
                                                                Report is FOUO.
              Agency Recommendations for the                                                                responsiveness.
               U.S. Army Corps of Engineers,
                          9/21/2004
               D-2004-115, The Followup on                                                                                                   Army
               the Government Accountability
                 Office and U.S. Army Audit                                                              Lack of management
                                                                Report is FOUO.
              Agency Recommendations for the                                                                responsiveness.
               U.S. Army Corps of Engineers,
                          9/21/2004




             98                                                                                                            Semiannual Report to Congress
   D-2004-117, Defense Hotline          Develop management control                           Staffing delays.                   JS
    Allegations Concerning the       documentation for the Collaborative
   Collaborative Force-Building,  Force-Building, Analysis, Sustainment, and
    Analysis, Sustainment, and         Transportation System (CFAST).
 Transportation System, 9/24/2004


                                         Update the DoD FMR to require the
 D-2004-118, Army General Fund                                                       Long-term corrective action on        USD(C), DFAS
                                           disclosure of unresolved abnormal
 Controls Over Abnormal Balances                                                              schedule.
                                       balances for all proprietary and budgetary
  for Field Accounting Activities,
                                        general ledger accounts in the footnotes
             9/28/2004
                                          to the financial statements. Identify
                                          abnormal conditions impacting both
                                           budgetary and proprietary account
                                        balances; notify accounting activities of
                                      abnormal proprietary balances and require
                                         explanations of corrective actions; and
                                      resolve abnormal balances in the budgetary
                                                         accounts.


  D-2005-009, Pueblo Chemical-
                                                                                       Extensive time required to
  Agent-Destruction Pilot Plant                   Report is FOUO.                                                         USD(AT&L), Army
                                                                                       complete facility redesign.
       Project, 11/1/2004

 05-INTEL-13, Incident Reporting
                                                                                        Normal time needed for
   and Forensic Capabilities (U),                 Report is classified.                                                      ASD(NII)
                                                                                           implementation.
            5/27/2005


 05-INTEL-19, Nuclear Command                                                       Long-term corrective actions on
                                                  Report is classified.                                                    ATSD(NCBD)
      and Control, 6/30/2005                                                                  schedule.



  D-2005-020, Defense Logistics  DLA is identifying cost savings realized for Normal time needed to determine
   Agency Processing of Special  the Special Program Requirements (SPR) the full scope of realized monetary                    DLA
Program Requirements, 11/17/2004             Support Program.                            benefits.


                                   The contract has been logged and assigned
     D-2005-022, Financial        to a contractor supporting the Commercial
 Management: Contract Classified      Pay Services Contract Reconciliation



                                                                                                                                            Appendix F
 as Unreconcilable by the Defense    office for reconciliation. Based on the         Reconciliation work continues.            DFAS
 Finance and Accounting Service,     reconciliation, recovery actions will be
           12/2/2005                initiated for any identified overpayments
                                             made to the contractor.
                                                                                      Held in abeyance. POA&M
 D-2005-023, Information Systems
                                                                                        process is not correctly
 Security: Assessment of DoD Plan
                                                  Report is FOUO.                    incorporated in the DIACAP.             ASD(NII)
  of Action and Milestones Process,
                                                                                     Related to mediation cases D-
             12/13/2004
                                                                                             2005-054/94.
                                         Update Navy manpower and personnel
  D-2005-024, Management of           guidance to clearly define acceptable senior      Deployment of Total Force
  Navy Senior Enlisted Personnel        enlisted manning levels by establishing a Authorization and Requirements
   Assignments in Support of          minimum senior enlisted manning level as System (TFARS) delayed due to                   Navy
    Operation Iraqi Freedom,           the baseline for identifying senior enlisted large discrepancies reported during
          12/15/2004                    manning deficiencies that would require                   testing.
                                                   immediate action.

Department of Defense Inspector General                                                                                               99
                D-2005-026, Financial
              Management: Reliability of           USACE is implementing system changes
             U.S. Army Corps of Engineers,        to improve the reliability or recording and Management corrective actions on
                                                                                                                                             Army
              Civil Works, Fund Balance           reporting Fund Balance With Treasury and             schedule.
             With Treasury and Unexpended           Unexpended Appropriations accounts.
              Appropriations, 12/28/2004
                                                   Establish minimum training standards for
                                                   competition officials and DoD functional
               D-2005-028, DoD Workforce
                                                     and technical experts assigned to work
               Employed to Conduct Public
                                                      on public-private competitions, and
                Private Competitions Under                                                          Corrective actions are on schedule.   USD(AT&L)
                                                    advise the DoD component competitive
              the DoD Competitive Sourcing
                                                   sourcing officials concerning defining and
                     Program, 2/1/2005
                                                   documenting minimum education and/or
                                                            experience requirements.
                                                     Prepare and staff a DoD directive that
                                                    specifies the types of systems and system
                D-2005-033, Acquisition:
                                                      information capability requirements
                    Implementation of
                                                       to be included in the inventory for    Related to mediation case D-2005-
             Interoperability and Information                                                                                              ASD(NII)
                                                    Global Information Grid assets; and the                 099.
             Assurance Policies for Acquisition
                                                    responsibilities of DoD Components in
                of Navy Systems, 2/2/2005
                                                   populating and maintaining the inventory
                                                       for Global Information Grid assets.

             D-2005-034, Implementation of Issue policy to require program managers to
                                                                                                   Extensive time needed for
             Interoperability and Information prepare information support plans and obtain                                                    AF
                                                                                               coordination and issuance of policy
             Assurance Policies for Acquisition supportability certifications before milestone
              of Air Force Systems, 2/2/2005     decisions for system acquisition programs.

                D-2005-035, Existence of
                                                   USACE-wide implementation of corrective          Management corrective actions on
              U.S. Army Corps of Engineers                                                                                                   Army
                                                    actions regarding Buildings and Other                    schedule.
              Buildings and Other Structures,
                                                        Structures is being performed.
                        2/15/2005
               D-2005-037, Implementation          Army is developing policy for Performance
              of Performance Based Logistics       Based Agreements policty and automated                Normal time needed for
                                                                                                                                             Army
              for the Javelin Weapon System,                        tools.                                  implementation.
                          3/7/2005
             D-2005-045, FY 2004 Emergency                                                          Normal time for implementation.
                 Supplemental Funding for
                                                     DLA establish and distribute standard
               the Defense Logistics Agency,
                                                    operating procedures for calculating and                                                 DLA
                        5/9/2005
                                                    reporting incremental cost information.
Appendix F




                  D-2005-046, Financial             Correct the identified errors and perform
               Management: Independent               a review of other leased and transferred
               Examination of the Rights to        structures for similar types of rights errors;
                                                                                                      Long-term corrective action on
              U.S. Army Corps of Engineers         review and update policies and procedures                                                 Army
                                                                                                               schedule.
              Buildings and Other Structures,       to prevent future errors; and provide and
                        3/25/2005                 document training to consistently implement
                                                         the new policies and procedures.
                                                                                                                                             Army
                D-2005-051, Independent        USACE will establish an oversight process
              Examination of the Land Assets that provides periodic reviews by Civil Works
                                                                                             Corrective actions are on schedule.
                at the U.S. Army Corps of     headquarters of land asset transactions at the
             Engineers, Civil Works, 4/6/2005                activity level.




             100                                                                                                             Semiannual Report to Congress
D-2005-056, Reliability of the FY
2004 Financial Statements for the
                                                Report is classified.              Corrective actions are on schedule.        NGA
 National Geospatial-Intelligence
     Agency (U) 4/29/2005

D-2005-069, Audit of the General
                                                                                   Corrective actions are on schedule.
 and Application Controls of the
                                                 Report is FOUO.                                                              DFAS
  Defense Civilian Pay System,
           5/13/2005

   D-2005-074, Support for
  Reported Obligations for the
                                                Report is classified.              Corrective actions are on schedule.         NSA
  National Security Agency (U),
           6/28/2005
   D-2005-078, Audit of the          Ensure that ERGM program provides for          Long-term corrective action on
    Extended Range Guided           appropriate validation, testing, and funding             schedule.                        Navy
  Munitions Program, 6/15/2005                   of requirements.
    D-2005-093, Information
     Technology Management:
                                                 Report is FOUO.                   Corrective actions are on schedule      DFAS, DISA
 Technical Report on the Standard
    Finance System, 8/17/2005
   D-2005-096, DoD Purchases           DoD is establishing new policies and
    Made Through the General            revising the DoD FMR to improve
                                                                                      Corrective actions are being         USD(AT&L),
     Services Administration,       intergovernmental transactions, the use of
                                                                                             implemented                     USD(C)
            7/29/2005               Military Departmental Purchase Requests
                                         (MIPR), and assisted acquisitions.
     D-2005-097, Auditability
    Assessment of the Financial
    Statements for the Defense                  Report is classified.              Competing management priorities.            DIA
     Intelligence Agency (U),
             8/18/2005
                                                                                       Corrective actions are on
                                                                                              schedule.
                            Develop new controls and fully implement
D-2005-103, Development and existing controls to ensure that all resources
Management of the Army Game are safeguarded; and revise Navy guidance                                                         Navy
     Project, 8/24/2005      on accountability over pilferable property
                             to be consistent with the DoD guidance.




                                                                                                                                            Appendix F
                                      The USACE is establishing a
D-2005-108, Review of the U.S.
                               comprehensive correction action program
Army Corps of Engineers, Civil                                                      Lack of management attention
                                to ensure that the instructions provided
Works Balance Sheet Reporting                                                       in fully implmenting corrective           Army
                                 in the information papers are fully and
   and Financial Statement                                                                       action.
                                   consistently executed at all USACE
   Compilation, 9/16/2005
                                                 activities.
 D-2006-003, Security Controls      Action is being taken by the ASD (HA),
 Over Selected Military Health      USD (I), and the Military Departments              Normal time needed for             Army, Navy, AF,
  System Corporate Database,           to improve protection of sensitive                 implementation.                USD(I), ASD(HA)
          10/7/2005                               information.
 D-2006-004, Acquisition of the
                                                                                       Extensive time needed to
  Objective Individual Combat                   Report is FOUO.                                                            USD(AT&L)
                                                                                      coordinate and issue policy.
      Weapon, 10/7/2005




Department of Defense Inspector General                                                                                           101
              D-2006-007, Contracts Awarded The DCAA will conduct an audit of costs
                to Assist the Global War on     of task orders awarded under Contract           Normal time for DCAA to plan
                                                                                                                                          Army
             Terrorism by the U.S. Army Corps No. DACA78 03 D0002. Three of four                   and conduct an review.
                 of Engineers, 10/14/2005    recommendations in the report are complete.
                                                    The U.S. Army Corps of Engineers is
                 D-2006-009, Independent
                                                   updating policy and procedures, assessing
               Examination of Valuation and
                                                  system changes to the Corps of Engineers
             Completeness of U.S. Army Corps                                                   Corrective actions are on schedule.        Army
                                                 Financial Management System, and working
             of Engineers, Buildings and Other
                                                 to correct data accuracy deficiencies through
                   Structures, 9/28/2005
                                                        new regional assessment teams.
                                                   The AT&L will issue guidance defining
                                                    roles and responsibilities of contract
                  D-2006-010, Contract             administration personnel regarding the         Normal time to develop and
             Surveillance for Service Contracts, monitoring of contractor performance. The       implement new guidance and          USD(AT&L), Army
                        10/28/2005               Army will develop management controls to                procedures.
                                                  ensure contract surveillance is adequately
                                                        performed and documented.
                                                Improve internal controls of the FMS cash
               D-2006-011, Report on the
                                                management program. Establish adequate
             Foreign Military Sales Trust Fund                                                Corrective actions are on schedule.         DFAS
                                               audit trails to enable managers or auditors to
              Cash Management, 11/7/2005
                                                             verify disbursements.
                  D-2006-013, Report on
                                                 Require periodic training of reconcilers and
                 Compiling and Recording
                                                  certifying officers on policies, procedures,
               Financial Adjustments Related                                                   Corrective actions are on schedule.        Army
                                                  and responsibilities in reviewing Standard
              to DoD Commercial Payments,
                                                      Form 1081 financial adjustments.
                         11/8/2005
                                                 Assistant Secretary of the Air Force
                                              (Financial Management & Comptroller)
                                               will direct accounting stations to report
             D-2006-025, Report on Accuracy all contract financing payments to DFAS
             of Air Force Contract Financing  Denver. Affected accounting stations are Corrective actions are on schedule.                 AF
                  Amounts, 11/14/2005         in the process of changing their financial
                                             management systems to capture and report
                                               contract financing payments to DFAS
                                                                Denver.
                 D-2006-026, Air Force
              Operational Mobility Resources
                                                             Report is classified.             Corrective actions are on schedule.         AF
                in the Pacific Theater (U),
                       11/17/2005
Appendix F




                                               Increase production rates to expedite the
                                              replacement of older protective masks and
             D-2006-027, Contract Award and
                                               identify a nontoxic sealant alternative to
             Administration of Coupling Half                                              Corrective actions are on schedule.          USD(AT&L)
                                             replace the hexavalent chromium sealant on
              Quick Disconnect, 11/23/2005
                                             the coupling half quick disconnect in future
                                                            procurements.
                                           Revise DoD guidance to improve accounting
                                             of transition costs, tracking and reporting
               D-2006-028, DoD Reporting
                                            competition costs, validating and reviewing Normal time to review, revise and
                System for the Competitive                                                                                             USD(AT&L)
                                                 records, capturing contractors’ past      implement new guidance.
              Sourcing Program, 11/22/2005
                                           performance information, and tracking and
                                              monitoring the performance of MEOs.




             102                                                                                                        Semiannual Report to Congress
D-2006-029, Report on Potential
  Antideficiency Act Violations                                                     Extensive time needed to
 Identified During the Audit of                                                    investigate potential FMR
                                               Report is FOUO.                                                        Army
  the Acquisition of the Pacific                                                violations and to resolve related
Mobile Emergency Radio System,                                                             legal issues.
           11/23/2005
     D-2006-030, Report on
 Diagnostic Testing at the Defense
  Information Systems Agency,                  Report is FOUO.                Corrective actions are on schedule.     DISA
 Center for Computing Services,
           11/30/2005
    D-2006-031, Report on
Penetration Testing at the Defense
  Information Systems Agency,                  Report is FOUO.                Corrective actions are on schedule.     DISA
 Center for Computing Services,
           11/30/2005
                                 Establish procedures to ensure the
     D-2006-043, Financial
                              appropriate funding of the Army Game
 Management: Report on Army                                               Management corrective actions on
                              Project, determine if there have been any                                               Army
 Management of the Army Game                                                       schedule.
                             Antideficiency Act violations and report any
   Project Funding, 1/6/2006
                                     such violations, as required.
  D-2006-045, Endorsement of
   the Deloitte & Touche LLP
   Management Letter on the                                                   Management corrective actions on USD(P&R), Navy,
                                               Report is FOUO.
  FY 2005 Military Retirement                                                          schedule.                   DFAS
  Financial Statements Opinion
        Audit, 1/10/2006
 D-2006-046, Technical Report
    on the Defense Property                    Report is FOUO.                Corrective actions are on schedule.   USD(AT&L)
Accountability System, 1/27/2006
     D-2006-048, Report on
   Reliability of Financial Data
Accumulated and Reported by the                Report is FOUO.                Corrective actions are on schedule.     Navy
 Space and Naval Warfare System
       Centers, 1/31/2006
                                Direct Manpower Management Integration
                                  and Administration to review the errors
  D-2006-049, Audit of the FY      discussed in this report and verify the
 2004 Marine Corps Entitlements eligibility of Marines to receive the higher Corrective actions are on schedule.       MC



                                                                                                                                 Appendix F
   and Withholding, 2/10/2006   Basic Allowance for Housing, discontinuing
                                  the higher Basic Allowance for Housing
                                             where appropriate.
                               Cross SYSCOM Lean Six Sigma black belt
D-2006-050, Report on Accuracy
                               project is being completed that will include
  of Navy Contract Financing                                                Corrective actions are on schedule.       Navy
                               an end-to-end review of the disbursements
      Amounts, 2/7/2006
                                                  process.
D-2006-051, TRICARE Overseas
Controls Over Third Party Billing                                                  Normal time needed for
                                               Report is FOUO.                                                       ASD(HA)
  Agencies and Supplemental                                                           implementation.
            Health




Department of Defense Inspector General                                                                                  103
                                                (a.) Conduct and document annual
                                            information assurance awareness training;
             D-2006-052, DoD Organization (b.) establish clear procedures that designate
                 Information Assurance     organization-specific roles & responsibilities
               Management of Information       for tracking training and (c) verifying
                                                                                          Competing management priorities.           Army, Navy
             Technology Goods and Services      individual security clearances for all
              Acquired Through Interagency   Command employees & contractors; (d)
                 Agreements, 2/23/2006     begin using the Joint Personnel Adjudication
                                           System (JPAS) to validate individual security
                                                             clearances.
                                               Complete System Security Authorization
                                              Agreement (SSAA) process for the Ground-
                                              Based Midcourse Defense Communications
             D-2006-053, Select Controls for
                                               Network (GCN) in full compliance with
              the Information Security of the
                                              OMB Circular A-130 and DoD 8510.1-M.
             Ground-Based Midcourse Defense                                            Corrective actions are on schedule.              MDA
                                               Update the GCN configuration. Prepare
                Communications Network,
                                                 a contingency plan for GCN and an
                        2/24/2006
                                              Incidence Response Plan for GCN to meet
                                              requirements of DoDI 8500.2 and NISTS
                                                            Pub 800-34.
                                                       The USD(C) is developing a forum to
                                                        address development of solutions for
                                                        providing meaningful assessments of
                                                      contingent legal liabilities, and develop
               D-2006-054, DoD Process for
                                                    and implement a uniform methodology for Corrective actions are generally on     USD(C), Army,
                Reporting Contingent Legal
                                                   estimating, aggregating, and reporting them.         schedule.                     Navy, AF
                  Liabilities, 2/24/2006
                                                      The Services are working to ensure that
                                                   “Other Liabilities” and contingent liabilities
                                                       are fully supported and appropriately
                                                                     disclosed.
                                                The Air Force will conduct reviews of
                  D-2006-056, Financial
                                             potential ADA violations, review and revise
              Management: Report on Vendor
                                              existing policy guidance and training and           Normal time to revise and
                Pay Disbursement Cycle, Air                                                                                              AF
                                             emphasize the need for additional training           implement new guidance.
               Force General Fund: Contract
                                                in appropriations law and inherently
             Formation and Funding, 3/6/2006
                                                       governmental activities.
                 D-2006-057, Corrective
             Actions for Previously Identified
                Deficiencies Related to the
                                                              Report is classified.           Corrective actions are on schedule.       NGA
             National Geospatial-Intelligence
Appendix F




             Agency Financial Statements (U),
                        2/28/2006
                  D-2006-059, Air Force
                                                   The Air Force will perform analyses to
               Procurement of 60K Tunner
                                                 determine the best value approach and the Corrective actions are on schedule.           AF
             Cargo Loader Contractor Logistics
                                               feasibility of teaming with the Marine Corps.
                    Support, 3/3/2006
             D-2006-060, Systems Engineering                                                  Extended time needed to complete
              Planning for the Ballistic Missile               Report is FOUO.                and coordinate systems engineering        MDA
                 Defense System, 3/2/2006                                                           planning documents.
               D-2006-061, Source Selection
                 Procedures for the Navy
                                                               Report is FOUO.                Corrective actions are on schedule.   USD(AT&L)
                Construction Capabilities,
                       3/3/2006




             104                                                                                                       Semiannual Report to Congress
 D-2006-062, Internal Controls           Improve internal controls over the
 Over Compiling and Reporting          compilation and reporting of cost-to-
                                                                                  Corrective actions are on schedule.    AF
 Environmental Liabilities Data,       complete estimates for environmental
         3/15/2006                                  liabilities.
     D-2006-063, Financial
 Management: Report on Internal        Perform reviews and reconciliations of
   Controls Over Department          uncleared transactions, ensure appropriate    Transfer of the support resources
                                                                                                                        DFAS
    Expenditure Operations at         resolution, and enforce applicable DoD          have delayed the reviews.
 Defense Finance and Accounting                     FMR policy.
 Service Indianapolis, 3/10/2006
     D-2006-064, Financial
Management: Appropriated Funds Establish controls to ensure that the Program
Distribution Within the Program   Budget Accounting Fund Distribution        Corrective actions are on schedule.        DFAS
  Budget Accounting System,        Module edit tables are kept current.
           3/17/2006
                                     Improve the guidance and documentation
  D-2006-067, Controls Over                                                      Management corrective actions on
                                    for the export review process. Expand access                                        USD(P)
  Exports to China, 3/30/2006                                                             schedule.
                                            to USXPORTS within DoD.
                                     Report the existence of abnormal balances
     D-2006-068, Financial
                                       and the failure to reconcile beginning
  Management: Implementation
                                       account balances with prior year-end        Long-term corrective action on
    of the Business Enterprise                                                                                          DFAS
                                        balances as material internal control               schedule.
Information Services for the Army
                                      weaknesses in the Annual Statements of
    General Fund, 3/31/2006
                                             Assurance until corrected.




                                                                                                                                    Appendix F




Department of Defense Inspector General                                                                                       105
                                                        Appendix G
                                                                                  	
     Defense Criminal Investigative Organizations Statistics
	       The     Defense       Criminal      Investigative                                            600
Organizations (DCIOs), comprised of DCIS, the U.S.
                                                                                                                                           478
Army Criminal Investigation Command, the Naval                                                       500             449
Criminal Investigative Service, the Air Force Office of
Special Investigations, and the Marine Corps Criminal                                                400
Investigative Division, protect the military and civilian
men and women of the Department by combating                                                         300
crimes, both domestic and overseas, with highly trained
special agents, forensic experts, analysts, and support                                              200

personnel. Examples of the DCIO’s mission initiatives
and investigative accomplishments are detailed in                                                    100

Chapter 5 under the nine management challenges.
                                                                                                       0
                                                                                                                   Indicted            Convicted
	       Monetary recoveries of approximately                                           Terrorism                     12                     8
$384.6 million resulted from the investigations by                                     Procurement                   58                    39
the DCIOs, and are displayed by major categories in                                    Health Care                   13                    14
Figure 1 (below). Figure 2 (right) displays the total                                  Fraud
companies and individuals indicted and convicted                                       General Crimes                118                   135

is 449 and 478 respectively. Figure 3 (bottom, right)                                  Drug Related                  75                    126

displays the number of companies and individuals                                       Public                        28                    20
                                                                                       Corruption
suspended or debarred for this period were 26 and 89,                                  Other                         145                   136
respectively. 	                                                                                                        Figure 2

     $200,000,000                                                                                    60
                                      $183,418,636                     Total
                                                                    Monetary                               Total Suspensions 26    Total Debarments 89
     $180,000,000                                                  Recoveries
                       $159,117,492
                                                                   for FY 2007                       50
     $160,000,000                                                    Period 1
                                                                  $384,624,964
     $140,000,000                                                                                    40

     $120,000,000
                                                                                                     30
     $100,000,000

       $80,000,000                                                                                   20

       $60,000,000
                                                     $40,175,137                                     10
       $40,000,000

       $20,000,000                                                                                     0
                                                                     $1,913,699                            Suspend- Suspend-        Debar-       Debar-
                  $0                                                                                       Company   People        Company       People
                        Criminal         Civil         Admin.         Seizures
                                                                                      Terrorism                0              0        0           0
   Terrorism            $2,650,275         $0         $700,299           $0
                                                                                      Procurement              4              7       29           26
   Procurement         $46,569,791    $13,824,605    $33,231,626      $184,595
                                                                                      Health Care Fraud        0              0        1           1
   Health Care Fraud    $404,890      $153,200,324    $410,342        $151,737
                                                                                      General Crimes           0              3        0           2
   General Crimes       $1,072,806       $787         $302,206        $162,599
                                                                                      Drug Related             0              2        0           2
   Drug Related          $79,639        $9,125        $91,677            $0
                                                                                      Public Corruption        2              5        5           6
   Public Corruption    $131,095      $16,284,417     $82,000            $0
                                                                                      Other                    0              3        5           12
   Other               $108,208,996     $99,378      $5,356,987      $1,414,768

                                   Figure 1                                                                        Figure 3

106                                                                                                                        Semiannual Report to Congress
                                          Acronyms
Active Guard and Reserves (AGRs)                       Financial Improvement and Audit Readiness (FIAR)
Air Force Audit Agency (AFAA)                          Fiscal Year (FY)
Air Force Office of Special Investigations (AFOSI)     Foreign Military Sales (FMS)
Air Force Office of Special Investigations (AFOSI)     Fuel System Panel (FSP)
American President Lines (APL)                         Future Years Defense Program (FYDP)
Area of Responsibility (AOR)                           General Services Administration (GSA
Army Audit Agency (AAA)                                Global War on Terror (GWOT)
Audit Policy and Oversight (APO)                       Government Accountability Office (GAO)
Ballistic Missile Defense System (BMDS)                Government of Iraq (GoI)
Camp Fallujah, Iraq (LPL-CF)                           Headquarters, Air Force (HAF)
Chemical, Biological, Radiological, Nuclear, or high   Human Services Office of the Inspector General (HHS
yield Explosive (CBRNE) Enhanced Response Force        OIG)
Package (CERFP)                                        Hurricane Katrina Fraud Task Force (HKFTF),
Civilian Reprisal Investigations Directorate (CRI)     Immigration and Customs Enforcement (ICE)
Coalition Provisional Authority (CPA)                  Improper Payments Information Act (IPIA)
Combating Trafficking in Persons (CTIP)                Improvised Explosive Device (IED)
Common levels of support (CLS)                         Independent public accounting (IPA)
Comprehensive Cancer Centers, Inc. (CCC)               Information Technology (IT)
Continental United States (CONUS)                      Inspector General (IG)
Counterintelligence scope polygraph (CSP)              Integrated Accounts Payable System (IAPS)
Criminal Investigation Task Force (CITF)               Internal Revenue Service (IRS)
Defense Contract Audit Agency (DCAA)                   International Contract Corruption Task Force (ICCTF)
Defense Contract Management Agency (DCMA)              Investigative Policy and Oversight (IPO)
Defense Council on Integrity and Efficiency (DCIE)     Iraqi Security Forces (ISF)
Defense Criminal Investigative Organizations (DCIOs)   Joint Anti-Corruption Council (JACC)
Defense Criminal Investigative Service (DCIS)          Joint Headquarters (JHQ)
Defense Finance and Accounting Service (DFAS)          Joint Operations Center (JOC)
Defense Finance and Accounting Service Indianapolis    Joint Prosecution and Exploitation Centers (JPEC)
(DFAS-IN)                                              Kellogg, Brown & Root (KBR)
Defense Information Systems Agency’s (DISA)            Law Enforcement Information Exchange (LInX)
Defense Reutilization and Marketing Service (DRMS)     Logistical security (LOGSEC)
Department of Defense (DoD)                            Medical readiness review (MRR)
Department of Defense Inspector General (DoD IG)       Military construction (MILCON)
Department of Interior (DoI)                           Military Health System (MHS)
Department of the Navy (DoN)                           Military Interdepartmental Purchase Requests (MIPRs)
Desert Regional Medical Center (DRMC)                  Military Reprisal Investigations (MRI)
DoD Financial Manager Katrina (FM Katrina)             Ministry of Defense (MoD)
Earned Value Management (EVM)                          Ministry of Interior (MoI)
Electrolyzing Corporation of Ohio (ECO)                Miscellaneous Obligation/Reimbursement Documents
Emergency-essential (E-E)                              (MORDs)
Evolved Expendable Launch Vehicle (EELV)               Missile Defense Agency (MDA)
Federal Acquisition Regulation (FAR)                   Multi-National Security Transition Command-Iraq
Federal Bureau of Investigation (FBI)                  (MNSTC-I)
Federal Emergency Management Agency (FEMA)             National Institute of Standards and Technology (NIST)
Federal Information Security Management Act (FISMA)    National Joint Terrorism Task Force (NJTTF)

Department of Defense Inspector General                                                              107
National Procurement Fraud Task Force (NPFTF)             Reserve Travel System (RTS)
Naval Audit Service (NAVAUDSVC)                           Surface Deployment and Distribution Command
Naval Criminal Investigative Service (NCIS)               (SDDC)
Naval District Washington (NDW)                           Theater Deployable Communications (TDC)
Office of Communications and Congressional Liaison        Trafficking in Persons (TIP)
(OCCL)                                                    U.S. Army Corps of Engineers (USACE)
Office of Management and Budget (OMB)                     U.S. Army Criminal Investigation Command (CID)
Office of Reconstruction and Humanitarian Assistance      U.S. Army’s Logistics Civil Augmentation Program
(ORHA)                                                    (LOGCAP)
Office of Special Plans (OSP)                             U.S. Marine Corps (USMC)
Office of the Deputy Inspector General for Auditing       U.S. Navy Reserve (USNR)
(ODIG-AUD)                                                U.S. Army Installation Management Command (IM-
Office of the Deputy Inspector General for Intelligence   COM)
(ODIG-INTEL)                                              U.S. Army Materiel Command (AMC)
Office of the Deputy Inspector General for Investiga-     U.S. Pacific Command (PACOM)
tions (ODIG-INV)                                          Under Secretary of Defense for Acquisition, Technology,
Operation Enduring Freedom (OEF),                         and Logistics (USD (AT&L))
Operation Iraqi Freedom (OIF)                             United States Central Command (CENTCOM)
Ordnance Information System (OIS)                         United States Central Command Air Forces (CENTAF)
Outside Continental United States (OCONUS)                United States Government (USG)
Pacific Mobile Emergency Radio System (PACMERS)           United States Marine Corps Criminal Investigation
Performance-based logistics (PBL)                         Division (USMC CID)
President’s Council on Integrity and Efficiency (PCIE)    United States Special Operations Command (SOCOM)
Privacy Act (PA)                                          Veterans Affairs (VA)
Property, Plant and Equipment (PP&E)                      Weapons of mass destruction (WMD)
Protected personal information (PPI)
Rapid Engineer Deployable Heavy Operational Repair
Squadron Engineer (RED HORSE)




108                                                                                    Semiannual Report to Congress
              Office of the Inspector General
                  Department of Defense                                                                       Protect the Total Force
                            VISION STATEMENT
One professional team strengthening the integrity, efficiency, and effectiveness of Department of
                              Defense programs and operations.



                           MISSION STATEMENT
  The Office of the Inspector General promotes integrity, accountability, and improvement of
 the Department of Defense personnel, programs, and operations to support the Department’s
                          mission and to the serve the public interest.                             Military	 	 	 	 Contractors	 	 	 	 Civilians
                                     CORE VALUES
                                                                                                    Report: Fraud, Waste, and Abuse
                       Accountability • Integrity • Efficiency
                                                                                                                Department of Defense
                                                 Goal 1    Improve the economy, efficiency,
                                                                                                               Inspector General Hotline
                                                           and effectiveness of Department of
                                                           Defense personnel, programs, and
                                                           operations.
                                                                                                                          1-877-363-3348
                                                 Goal 2    Eliminate fraud, waste, and abuse in
                                                           the programs and operations of the       DSN: 312-664-1151 	    Email: hotline@dodig.mil 	    www.dodig.mil/hotline
                                                           Department.
                                                                                                                           Send written complaints to:
                                                           Improve the efficiency and
                                                                                                                                Defense Hotline
                                                 Goal 3                                                                          The Pentagon
                                                           effectiveness of Inspector General
                                                           products, processes, and operations.                            Washington, DC 20301-1900
